<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                        THURSDAY, MARCH 4, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:40 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senators Specter, Hutchison, Stevens, Harkin, 
Kohl, Murray, and Landrieu.

                        DEPARTMENT OF EDUCATION

                        Office of the Secretary

STATEMENT OF HON. RODERICK PAIGE, SECRETARY
ACCOMPANIED BY:
        C. TODD JONES, ASSOCIATE DEPUTY SECRETARY FOR BUDGET AND 
            STRATEGIC ACCOUNTABILITY
        THOMAS SKELLY, DIRECTOR, BUDGET SERVICES


               opening statement of senator arlen specter


    Senator Specter. The hearing of the Appropriations 
Subcommittee on Labor, Health, Human Services, and Education 
will now proceed. I regret being a few minutes late. They have 
Constitution Avenue blocked off. How did you make it Mr. 
Secretary?
    Secretary Paige. I know some shortcuts.
    Senator Specter. You must have more clout than a chairman, 
Mr. Secretary.
    Secretary Paige. I doubt that.
    Senator Specter. We never know what's going to happen 
around the Capitol from one day to the next, but Constitution 
Avenue is blocked off as we came up. They publicized recently 
that the Capitol is an armed camp but at least the streets were 
clear, but this morning even the streets are not clear.
    Well, on to the business of the subcommittee. We have the 
distinguished Secretary of Education with us today, came to the 
administration with an outstanding reputation as the 
superintendent of the Houston Independent School District. He 
served as dean of education and athletic director prior to that 
at Texas Southern University. He takes on a gigantic job, has 
taken on a gigantic job in the Department of Education, and 
with the President on a bipartisan basis has led to the 
enactment of legislation on Leave No Child Behind, which was 
widely heralded in 2001 when enacted.
    The President made a special trip to Massachusetts with 
Senator Kennedy to show the bipartisan support. Since that 
time, there have been some growing pains, which we will be 
exploring in today's hearing, a call for greater flexibility 
where the Department has responded so far, at least in part, 
concerns about adequacy of funding, where we are trying to move 
ahead with more funding.


               fiscal year 2005 education budget request


    The budget for the Department as asked for by the 
administration is in excess of $57 billion, an increase of 
$1.68 billion over last year for a 3 percent increase, and the 
administration has recommended additions in very important 
lines, a billion in title I, a billion in special education. 
But that is possible by eliminating quite a few programs, 
which, Mr. Secretary, are very popular with members, and the 
Constitution gives the Congress the appropriation power, 
subject, of course, to the President's signature.
    So we have always worked it out in the past. We're facing a 
very difficult year on discretionary spending with one half of 
1 percent overall on discretionary spending. We're facing a 
budget deficit in the range of $500 billion, but in Winston 
Churchill's famous words, we'll muddle through, and by working 
together and the relationship the Secretary has had with this 
subcommittee and with the Congress in general has been 
excellent and on a cooperative basis.
    A group of school leaders had a meeting in southeastern 
Pennsylvania earlier this week where there were many concerns 
expressed about the No Child Left Behind Act, and on a last 
minute basis we've invited some of the people party to that 
meeting and some other Pennsylvanians to come to the hearing. 
The chairman is exercising his prerogative as chairman to look 
to the home State. That's not unusual in Washington, D.C., but 
it's representative of a national picture.
    I talked to Secretary Paige last yesterday afternoon. He 
has other commitments, but we struck a time agreement, out no 
later than 11:00, and we appreciate his flexibility. Mr. 
Secretary, the floor is yours. We have a 5-minute rule, but it 
is waived for people who can get by the Constitution Avenue 
blockade.


                summary statement of hon. roderick paige


    Secretary Paige. Thank you, Mr. Chairman. I would like to 
submit material for the record. I'll just provide a summary and 
try to get it in in 5 minutes.
    Senator Specter. Well, that's wonderful, Mr. Secretary.


                        no child left behind act


    Secretary Paige. Thank you. Let me summarize the statement 
for you. With this request, President Bush has reaffirmed his 
longstanding commitment to our Nation's children. Mr. Chairman, 
in the time since the No Child Left Behind Act became law, we 
have made tremendous progress in building a solid foundation 
for educational achievement.
    From day one we've been working to provide guidance on 
implementation of this comprehensive and complicated law. The 
States will tell you that we've done so at a record pace. We've 
entered into a historic partnership with the States. In the 
first year, we hosted meetings with nearly every State to 
support the development of our accountability plan. Our Teacher 
Assistance Corps has visited 49 States to date, working to help 
States meet the law's provisions regarding highly qualified 
teachers.
    We continue to provide regulatory flexibility on the law's 
implementation, including the recent announcement that benefits 
students learning the English language for the first time, and 
also greater flexibility in testing students with disabilities. 
As we continue to assess the law's impact, we must always keep 
in mind what is right for the child, but also be fair to the 
school.


               fiscal year 2005 education budget request


    Despite this important progress, we still have much work to 
do. My message to you this year, Mr. Chairman, is no less 
urgent than it was in years past. Federal Reserve Chairman Alan 
Greenspan noted recently, and I quote: ``We need to be forward-
looking in order to adapt our educational system to the 
evolving needs of the economy and the realities of a changing 
society. . . . It is an effort that should not be postponed.''
    The President's budget proposes $57.3 billion in 
discretionary appropriation for the Department of Education for 
fiscal year 2005. This represents an increase of $1.7 billion, 
or 3 percent, over the 2004 levels, and an increase of $15.1 
billion, or 36 percent, since President Bush took office in 
2001. This budget request reflects the historic bipartisan 
commitment of President Bush and the Congress to increase 
flexibility and accountability in the use of these funds.


                        key budget year for nclb


    The 2005 appropriation will fund the 2005-2006 school year, 
a critical year that will witness two significant milestones 
under the No Child Left Behind law. The first, States and 
school districts will begin testing all students in grades 3 
through 8 in reading and mathematics in 2005-2006. With the 
information provided by these annual assessments, teachers will 
have the data they need to teach each student effectively and 
parents will be empowered to make informed choices for their 
children's education--for their educational future. The 
President is proposing $410 million in 2005 to support the 
assessment system developed by each State.
    The second milestone is that all teachers must become 
highly qualified by the end of the school year of 2005-2006. 
There is no better way to improve education than putting a 
highly qualified teacher in every classroom. The No Child Left 
Behind Act recognizes this fact and we will continue to work 
hard with States to make this a reality. The President's Budget 
proposes $5.1 billion to support teachers through training, 
recruitment incentives, loan forgiveness, tax relief. This is 
up from $4.4 billion in 2004 and this is a historic number.


              title i grants to local educational agencies


    For students who most need our help, the President has 
again proposed a billion dollar increase in title I, which 
brings it up to $13.3 billion. Many of these children are on 
the wrong side of a staggering achievement gap with their more 
advantaged peers, often struggling in school and also in life. 
We know that this problem can't be solved in Washington. Local 
communities know best what to do in order to remedy these 
conditions.


              historic levels of resources and flexibility


    So to help schools and districts better meet the needs of 
these students, we're providing resources that are historic in 
their scope and also in their flexibility, and we're asking for 
annual progress assessments in return for this historic 
investment.
    In conclusion, when the President said in his State of the 
Union address: ``We've not come all this way . . . only to 
falter and leave our work unfinished.'' I took that message to 
heart. In the last 3 years, we've witnessed some of the most 
important milestones yet in education reform, and I believe 
that one day we're going to look back at this year and see it 
as a turning point in the educational culture in our country.


                           prepared statement


    Fifty years ago, the historic Brown v. Board of Education 
decision began to break down the barriers that prevented some 
of us from attending classrooms--certain classrooms. But we 
know now access was not enough. We still have a long way to go 
to ensure achievement. We believe that today, at the start of 
the third year of the No Child Left Behind Act, we are closer 
to making that goal a reality than ever before.
    Mr. Chairman, thank you, and I'd be pleased to respond to 
any questions that you might have.
    [The statement follows:]
               Prepared Statement of Hon. Roderick Paige
    Mr. Chairman and Members of the Subcommittee: Thank you for this 
opportunity to testify on behalf of President Bush's 2005 discretionary 
request for the Department of Education. As all of you know, the effort 
to control spending while fighting a war on terrorism and ensuring 
homeland security forced the President to make some tough decisions in 
his 2005 budget. The significant overall increase requested for the 
Department of Education shows that the President remains committed to 
the vision of No Child Left Behind--that all children can learn, and 
all children deserve the opportunity for a quality education.
                  a key year for no child left behind
    Fiscal year 2005 is a critical year for No Child Left Behind. The 
2005 appropriation will fund the 2005-2006 school year, a year that 
will witness two significant milestones under the new law. First, 
States and school districts will begin testing all students in grades 
3-8 in reading and mathematics. This is a necessary step toward giving 
teachers the data they need to teach effectively and parents the 
information they need to assess the progress of their children's 
education.
    Second, all teachers must be highly qualified--as defined by States 
in accordance with the law--by the end of the 2005-2006 school year. 
Research tells us there is no better single way of improving education 
than by putting a highly qualified teacher in every classroom. The No 
Child Left Behind Act recognized this fact, and we'll be working hard 
with States to make it a reality.
    We also continue to explore ways to provide the additional 
flexibility that States and school districts need to effectively 
implement No Child Left Behind. In December, the Department published a 
new regulation giving States greater flexibility in testing students 
with disabilities. Two weeks ago, I announced two new policies 
governing the treatment of limited English proficient students in the 
State accountability systems required by No Child Left Behind. And we 
are working on some clarifications regarding the law's requirement that 
all teachers be highly qualified.
    In these and other instances, we believe the law is sufficiently 
flexible to accommodate the legitimate concerns of State and local 
educators, without undermining the core goal that all students and all 
student groups must reach proficiency in reading and mathematics.
                        major program increases
    The President's budget proposes $57.3 billion in discretionary 
appropriations for the Department of Education in fiscal year 2005. 
This represents an increase of $1.7 billion, or 3 percent, over the 
2004 level, and an increase of $15.1 billion, or 36 percent, since 
President Bush took office in 2001.
    As was the case in the President's previous education budgets, most 
new resources are dedicated to three major programs that form the 
cornerstone of the Federal role in education. For the Title I Grants to 
Local Educational Agencies program--the key driver of No Child Left 
Behind reforms in the areas of accountability and parental options--the 
President is seeking $13.3 billion, an increase of $1 billion over the 
2004 level.
    Title I helps the children who are most in need of extra 
educational assistance, who are most in danger of falling further 
behind, on the wrong side of the staggering achievement gap between 
poor and minority students and their more advantaged peers. Our 
determination to help these students--which I know is shared by the 
Members of this Committee--is reflected in a request that would result 
in a total increase of $4.6 billion, or 52 percent, in Title I funding 
since the passage of the No Child Left Behind Act.
    The President also is asking for his fourth consecutive $1 billion 
increase for the Special Education Part B Grants to States program. 
Under the request, funding for Part B Grants to States would rise by 
$4.7 billion, or 75 percent, since 2001. The 2005 request would 
increase the Federal contribution to about 20 percent of the national 
average per-pupil expenditures for all children--the highest level of 
Federal support ever provided for children with disabilities.
    And for the need-based Pell Grants program, the budget includes an 
increase of $856 million, for a total of $12.9 billion. This level 
would fully fund the cost of maintaining a $4,050 maximum award and 
providing grants to an estimated 5.3 million postsecondary students. 
More than 1 million additional students are now receiving Pell Grants 
than when the President took office.
                       jobs for the 21st century
    In addition to these major programs, another priority in the 
Department's request is a package of proposals, totaling $333 million 
in new resources, which play a key role in President Bush's Jobs for 
the 21st Century initiative. These proposals would help ensure that 
middle- and high-school students are better prepared to succeed in 
postsecondary education and the workforce. They focus on improving 
instruction to ensure students are performing on grade level in reading 
and mathematics and on increasing the rigor of secondary school 
curricula.
    A key proposal, for example, is $33 million for new Enhanced Pell 
Grants for State Scholars, which is included in the overall request for 
Pell Grants. We know students who complete a rigorous curriculum are 
more likely to pursue and succeed in postsecondary education, so this 
proposal would provide an additional $1,000 for postsecondary freshmen 
who took challenging courses in high school.
    The Jobs for the 21st Century initiative also includes $100 million 
in new funds to help struggling readers at risk of dropping out of 
secondary school and $120 million to improve the math skills of 
secondary school students who are performing below grade level. Another 
$28 million in new funds is provided to help expand Advanced Placement 
courses for low-income students, and $40 million is set aside for 
Adjunct Teacher Corps to bring professionals with sought after 
knowledge into the classroom.
    The request for Vocational Education complements Jobs for the 21st 
Century by proposing a $1 billion Secondary and Technical Education 
State Grants program that would promote local partnerships between 
community colleges and high schools to improve academic achievement and 
transitions to the workforce. This request includes $12 million to help 
those States that do not currently have State Scholars programs to 
establish such programs.
    Jobs for the 21st Century also emphasizes research-based 
approaches, the importance of which is reflected in our $185 million 
request for Research, Development, and Dissemination. This is an 
increase of $19 million, or nearly 12 percent, to fund research on 
reading comprehension, mathematics and science education, and teacher 
quality.
                            other priorities
    The 2005 request provides new funding in other ongoing priority 
areas, such as reading, expanding choice options, and support for 
postsecondary institutions serving large percentages of minority 
students.
    Funding for Reading First would grow by $139 million, or more than 
12 percent. Reading first offers children in grades K-3 the benefits of 
research-based, comprehensive reading instruction designed to help meet 
the President's goal that all children read on grade level by the end 
of third grade. The request includes $1.1 billion for Reading First 
State Grants, an increase of $101 million or 10 percent over last year, 
as well as $132 million for Early Reading First, an increase of $38 
million or 40 percent.
    Our budget also reflects President Bush's determination to extend 
educational options to all parents and students--not just those who can 
afford this freedom. No Child Left Behind has greatly expanded the 
choices available to students in low-performing schools, including both 
the option to transfer to a better school and to obtain supplemental 
educational services from a private-sector provider. And this fall we 
will for the first time provide federally funded opportunity 
scholarships to low-income students in the District of Columbia.
    The President's 2005 budget would build on these achievements by 
investing an additional $113 million in expanding choices for students 
and parents. This total includes $50 million for a Choice Incentive 
Fund that would support new transfer options, including private school 
options, and a $63 million increase for the Credit Enhancement for 
Charter School Facilities program, which encourages greater private 
sector lending to finance academic facilities for charter schools.
    Finally, our request reflects the President's ongoing commitment to 
postsecondary institutions that serve large numbers and percentages of 
minority students. We are asking for a total of $515 million for these 
institutions, an increase of almost $21 million, or 4 percent, over the 
2004 level. The total includes $241 million for Strengthening 
Historically Black Colleges and Universities, $59 million for 
Historically Black Graduate Institutions, and $96 million for Hispanic-
Serving Institutions.
                        management improvements
    Another thing that I am proud of is the very real improvement we 
have made in managing the Department and its programs. I knew when I 
came to the Department that if we were going to demand stronger 
accountability from States, school districts, and schools as part of No 
Child Left Behind, we would have to demand that same kind of 
accountability from ourselves. This has been a major priority for me 
and my senior officers for the past three years, and I am pleased to 
report that thanks to a lot of hard work and discipline, taxpayers can 
rest assured that their hard-earned tax dollars are managed responsibly 
at the Department of Education.
    Fiscal year 2003 marked the second consecutive year that the 
Department received an unqualified ``clean'' opinion from its financial 
auditors. That may not seem like something worth celebrating, unless 
you know that the 2003 opinion was only the third ``clean'' audit in 
the Department's 24-year history.
    We also are continuing to make progress in all areas of the 
President's Management Agenda. Earlier this year, the Office of 
Management and Budget announced that the Department received a major 
upgrade on financial performance--moving from a RED to GREEN status 
score. Our performance is ranked in the top one-third of all government 
agencies, and reflects our continued determination to inject 
accountability into everything we do here at the Department of 
Education.
                               conclusion
    The President's 2005 budget request for the Department of Education 
demonstrates his ongoing commitment to investing in educational 
excellence and achievement. But it also reaffirms that the Federal role 
in education is not just about money, but more importantly about 
leadership based on high standards, accountability, and the use of 
proven educational methods. Only in combination with this leadership--
exemplified by the No Child Left Behind Act--will the resources 
provided by the Congress have the impact we have all hoped for over the 
past four decades.
    We still have a long way to go before we ensure equal educational 
opportunity for disadvantaged children, but I believe we are witnessing 
the turning point. With your help, we'll keep turning in the right 
direction.
    Thank you, and I will be happy to take any questions you may have.

                NEW FLEXIBILITY UNDER NCLB REQUIREMENTS

    Senator Specter. Well, thank you very much, Mr. Secretary. 
There have already been some significant changes made in the 
Leave No Child Behind program according to media reports. 
Secretary Paige, could you tell us a little bit about those 
changes which have already been made to add flexibility and the 
reasons for those changes?
    Secretary Paige. Yes. Let's kind of put this in 
perspective. It's been about 8 months since school systems 
began to really exercise the tenets of the No Child Left Behind 
law, so we can see the impact of it. The first began in 
September and October just after the accountability plans were 
approved in June. Accountability programs were approved in 
June; in September, October, and November, we began to see the 
impact of these plans.
    In October, late October, we assessed what had happened in 
September and October. We were particularly interested in where 
the hot spots were or the areas of difficulties that could be 
found. We began then to assess those difficulties and say, for 
which of these difficulties do we have regulatory ability to 
provide more flexibility?
    The first was special education because we found it was 
having--giving us the most heartburn at that point. And so in 
December we announced some new flexibility, new flexibility 
with special education. The next one was LEP--limited English 
proficient students. Our policy people and our legal people 
studied the LEP issues, they conferred with Congress, they 
conferred with the White House, and we found ways that we could 
agree that we could provide more flexibility for LEP students, 
and so in February we announced new flexibility in 
accountability requirements for LEP students.
    The third challenge was the highly qualified teacher 
requirement, and the progress is ongoing now in developing some 
new latitude in the highly qualified teacher requirement; all 
of this within the confines of the law. And we hope in the next 
10 days or so to be able to announce some new flexibility with 
the highly qualified teacher requirements.
    Following that, we hope that we'll be able to take a good--
we are in the process now of taking a good look at the 95 
percent participation requirement to see if there's any way 
there that we can find new flexibility in the law.
    So there's been a constant march towards providing 
flexibility to the people who really are going to have to get 
this done, and those are the people who are at the schools and 
in the superintendent's office and in the classrooms.

    REGULATORY FLEXIBILITY FOR SPECIAL EDUCATION AND LEP ASSESSMENTS

    Senator Specter. Mr. Secretary, let me shift focus just a 
little bit on the issue of No Child Left Behind. Earlier this 
week, last Monday, more than 100 school superintendents from 14 
Pennsylvania counties met to discuss the No Child Left Behind 
law and they signed a petition supporting changes, including 
flexibility in testing requirements for special education and 
limited English proficient students, and also full funding for 
the No Child Left Behind Act. Would you direct your attention 
to the issues of increased flexibility for special education 
and limited English proficient students?
    Secretary Paige. Yes, thank you, Mr. Chairman. Let's start 
with the point of view that the philosophy of the No Child Left 
Behind Act is that every student is a concern to us and the law 
should provide the same kind of protection for every single 
student. There are some students who bring different challenges 
to us. Students with disabilities are one of those groups of 
students. We want to make sure that students with disabilities 
are assessed just like the other students. The law, in fact, 
requires it.
    What we did in December was to announce an initiative that 
provided a little flexibility there, but yet kept the spirit of 
the law that Congress had in mind, Congress' intent, which was 
that every student is assessed. And so we announced some 
flexibility such that students with the most significant 
cognitive disabilities could be assessed against alternate 
achievement standards. That would be limited to 1 percent of 
the students tested, which could be 8, 9, 10, 11 percent of the 
students with disabilities overall.
    We also indicated that if a particular school district 
finds that that 1 percent cap is too tight for them, and 
they've got a way that they can justify a need for it to be 
expanded, a process is put in place so that it can be expanded. 
So the special ed regulations we think are going to provide the 
kind of flexibility that school districts need in order to get 
the job done.
    Senator Specter. Do you think that would be enough to 
account for students who are not proficient in English and also 
those who need special education, Mr. Secretary?
    Secretary Paige. Especially in special education. Now about 
those students that have limited proficiency in English, we 
indicated that the test that they're measured with would be a 
test to measure where they are in that progress to English 
proficiency, not a content test. Now, that's the law, but many 
States have different laws that require different kinds of 
approaches to that.

                          SINGLE SEX EDUCATION

    Senator Specter. Mr. Secretary, I notice in this morning's 
media reports a shift in policy by your Department on single 
sex education and it is in the formative stage. And there was a 
comment by Superintendent Vallas of the Philadelphia School 
District, which we will be inquiring into when he testifies 
later, that there's going to be a very careful examination of 
community response on that issue.
    But I'd be interested in your professional judgment as to 
the advantages and disadvantages, and before you start to 
answer the question, let me say that that's my last question, 
because I want to stay within the 5-minute rule because we have 
so many witnesses later. But I'd be interested in your 
professional judgment on that issue.
    Secretary Paige. We would like to provide broad flexibility 
in the kind of systems that we have in schools for the 
education of children. There's no coercion here. What we're 
trying to do is to provide options for parents and for those 
who administer schools. If they decide that a single-sex school 
or a single-sex classroom brings the kind of advantages that 
they need in order to accomplish their educational goals, we 
don't want to restrict that. And so what we are attempting to 
do now is to provide that kind of flexibility.
    We were in New York at the Young Women's Leadership School. 
I had a chance to talk to girls who felt and expressed that the 
school that they were attending now gave them a really real new 
lease on life. This kind of environment they thought was very 
special and met their needs. They weren't required to attend 
that kind of classroom, but if this is the kind of classroom 
that they feel is needed there, then the ability to adapt the 
structure of the delivery system should be available to the 
person on the scene, and that's what we're trying to get 
accomplished.
    Senator Specter. Thank you very much, Mr. Secretary. I'll 
turn now to, in order of arrival, Senator Landrieu.

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman. I have a longer 
statement I'll submit to the record and, welcome, Secretary 
Paige. Just for the--briefly though this morning, just say 
after looking and studying very closely at this budget, Mr. 
Secretary, I must say, and to the administration, that this 
budget is wholly inadequate to support the education reform 
efforts that are underway in this country at our own urging.
    Together we set out on a path to help our States and help 
our cities and help our communities identify the schools and 
the systems that weren't working, and then when they looked to 
us to help to provide the resources to hire better qualified 
teachers, to make smaller classroom sizes, to provide early 
childhood education, to provide for after-school care, the 
resources are not there.
    Mr. Chairman, I have to say just my general comment about 
this budget is that it is wholly inadequate to meet the 
challenges of reform and to strengthen what we understand is a 
weak economy in the United States at this time, and the only 
way this economy is going to be strengthened is if we can 
increase the human capacity and invest in human talent and 
skill.
    Senator Specter. Senator Landrieu----
    Senator Landrieu. So with that----
    Senator Specter. Senator Landrieu, may I interrupt you for 
just a moment? While this hearing is going on, there is an 
executive session of the Judiciary Committee and they need me 
there for a quorum. I'm going to excuse myself for a few 
minutes. When you finish your round, Senator Murray will 
proceed, and if somebody else comes, they may proceed, and I 
will return momentarily.
    Senator Landrieu [presiding]. Thank you, Mr. Chairman, and 
I'm going to be brief because I'll--Senator Murray will have an 
opening statement and then I'll get back to questions, but you 
know, Mr. Secretary, I have to go on record as saying I don't 
know where to begin. And let me just end with one very 
specific. We called our schools and some around the country 
just on one specific, so I can just express and give some real 
meat to the general statement I just made.
    As you know, in New Orleans and Louisiana, we're 5 years 
into a very strong accountability program in which we used in 
some measure as a model for the Nation. But unlike the Nation, 
Louisiana stepped up and tried to fund those reforms. Last 
year, 35,000 children were identified in failing schools, 1,100 
applied for transfers, yet only 400 were transferred because 
the rest were denied because of lack of space in higher 
performing schools.
    So the plan that we've put in place can't work unless we 
provide the resources to give them opportunities to move to 
schools that are performing but they either don't have the 
teachers or don't have the classrooms, yet every time we've 
asked this administration for help, for classrooms, for school 
construction, we've been told no, no, and no.
    In Chicago, 125,000 students were eligible for transfer, 
yet there was only space for 3,000 to transfer to higher public 
schools. In Baltimore--I mean, in Los Angeles, 230,000 children 
were eligible, yet only 100 could transfer because there's no 
space. And yet in the same budget, you all provide space to 
transfer to private schools, but won't help children transfer 
to higher performing public schools, and the bias is clear and 
it is, in my opinion, not right.

                           PREPARED STATEMENT

    I could go on for 3 hours, but I will not. That's just one 
example, and Senator Murray will have an opportunity for an 
opening statement now, or questions.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    Mr. Chairman, again let me take the opportunity to thank you for 
your leadership in this area. I am pleased to have the opportunity 
today to hear from the Secretary of Education, Secretary Paige, about 
the President's Budget request for Education. As I know you agree, 
there are few greater investments that can be made in the future of 
this great country than the investment we make in our children's 
education. For this reason, I remain committed in my support of a 
budget that not only reflects national priorities in education, but 
also invests in them. I am sad to find that the budget that has been 
put forward by the President does neither. I hope that this committee 
can work together, as we have in the past, to address the many 
shortfalls left by this budget and fully invest in our promise to leave 
no child behind.
    As all of us know, our nation is faced with one of the largest 
federal deficits in our history. While we may disagree as to how we 
have come to be in this position, there is not a member of the United 
States Senate who is not aware of the need to enact fiscally 
responsible policies aimed at restoring balance in the federal budget. 
Most experts agree that a sound fiscal policy in times of deficit 
requires limited spending in key priority areas that both increase 
revenue and spur economic growth. Strategic investments in education 
not only allow us to develop a strong and competitive workforce but 
also help citizens to move from a life of dependence on government 
support to one of individual productivity.
    This is not just my opinion, these are the facts. Let me read you a 
few of the most recent statistics on this point.
    According to the Employment & Training Administration, a person 
with a bachelor's degree earns a million dollars more over a lifetime 
than a person with a high school diploma and a person with an 
associate's degree will earn an average of a half million dollars more 
than a person with high school diploma.
    According to the Current Population Survey, those with a bachelor's 
degree had less than half the unemployment rate of people with only a 
high school diploma during 2000.
    According to the U.S. Department of Labor, occupations requiring at 
least a bachelor's degree are expected to grow 21.6 percent and those 
requiring an associate's degree are projected to grow 32 percent.
    Recognizing the national importance of investing in the education 
of our young people, I, along with other members of this committee, 
have continued to push for a federal education budget that reflects the 
needs our schools have in educating our future workforce. Year in and 
year out, these efforts have been met with great resistance by the 
Administration. Despite this fact, this President continues to claim 
education as a priority and takes credit for record increases in 
education spending. Again, let the facts speak for themselves.
    In the three years that Bush has been in office, discretionary 
education spending has increased by a total of 14 percent. In just the 
last two years of the Clinton Administration, discretionary education 
spending rose by 40 percent. At the same time, since the passage of the 
No Child Left Behind Act, increases in spending have been going down 
while federal expectations for performance have been going up. What 
this indicates to me is that this President is only committed to 
investing in education reform when it is politically expedient for him 
to do so. Unfortunately, Mr. Secretary, that type of leadership is not 
what we need. We need a President whose promises last beyond the press 
conferences and photo opportunities.
    This administration also claims that any cuts that are made in 
education programs are part of a overall, ``better, more efficient 
government'' economic strategy. In fact, on page two of your budget 
summary, Mr. Secretary, you state, that the Department of Education 
supports ``the elimination of categorical programs and low-priority 
activities in favor of funding through flexible State grant programs 
created by the NCLB Act.'' As you may know, I was one of the 13 members 
who voted in favor of an education reform bill called ``The Three 
R's,'' from which President Bush derived much of his education 
platform. One of the main principles of this bill was that federal 
resources in education needed to be consolidated into flexible state 
grant programs that reflected key national priorities. Consolidation is 
something I support.
    But, once again, your actions do not match your rhetoric, Secretary 
Paige. Your budget does in fact call for the elimination of 38 
categorical programs, such as Art in Education, Even Start, Education 
Research Labs, and Drop Out prevention, but you do not, as you indicate 
is your policy, shift these resources toward increases in the state 
grant programs created by No Child Left Behind. Instead, for the second 
year in a row, you flat fund two out of the largest, most important 
NCLB state grant programs, Teacher Quality and Innovation in Education, 
and recommend a level of funding for the 21st Century After School 
State Grant Program that is below the level it was in fiscal year 2002. 
It seems to me that the funds recouped from the elimination of these 
programs went instead to create 7 new programs that are more in line 
with the President's personal preferences and political agenda, such as 
the Choice Incentive Fund and Striving Readers program.
    Finally, Mr. Secretary, I am sad to see that despite my stated 
concerns on the utility of education savings accounts for private 
elementary and secondary school tuition that they are again included in 
your budget. As I said last year, a $150 tax savings does not help a 
single mother of two who makes $30,000 a year to afford $15,000 in 
school tuition. In your testimony last year, you conceded this point. 
If we are sincere about helping low-income children trapped in failing 
schools, then we would be better to invest the $2.0 billion reserved 
for ESAs in serving disadvantaged students, teacher quality and smaller 
classes.
    In summary, I am very disappointed by this budget. It is wholly 
inadequate to support the reforms that are underway in every state in 
the Nation at our request. We made a promise to our schools that if 
they went the distance and identified failure, we would be there to 
help them reform. This budget does not fulfill that promise.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Well, thank you, Mr. Secretary and Senator 
Landrieu. I share the concerns of Senator Landrieu certainly as 
I look at this budget, and I just have a few minutes because 
Budget is meeting right now. I'm on that committee. But the 
overall funding levels in the 2005 budget request just don't 
meet the needs in our States as our States are struggling to 
try and meet the mandates of No Child Left Behind that I put on 
them.
    I will submit my statement for the record, but I just want 
to echo what Senator Landrieu said. We are really shortchanging 
our students at a time when we need to invest in their 
education because we know that, as all of us worry about where 
the jobs are of the future, if our kids aren't educated, we're 
just not going to make it.

                   SINGLE SEX EDUCATION AND TITLE IX

    So I'll submit my statement, but I do have a number of 
questions that I want to ask the Secretary while I have a few 
minutes here. And the first one, during the passage of No Child 
Left Behind, you will remember that we reached a bipartisan 
agreement on single-sex education, and in that we said that 
schools may provide single-sex programs as long as they are 
consistent with applicable law, title IX and the U.S. 
Constitution, and requires the Department of Education to 
provide guidance on that applicable law.
    That law does not direct the Department of Education to 
change the title IX regulations, but yesterday you released the 
new proposal to amend 30-year-old title IX regulations on 
single-sex education. Current law single-sex programs allow 
such programs when appropriate, but contain protections against 
sex discrimination. The proposed regulations would dispense 
with meaningful, anti-discrimination protections and authorize 
schools to provide alternatives for girls that fall far short 
of equality. In fact, I believe that the No Child Left Behind 
would prohibit the adoption of the Department's new proposals.
    In the press release announcing the change, you even admit 
that research on students' performance in single-sex education 
programs is inconclusive. It seems to me this is deja vu all 
over again. In 2002 and 2003, the Department of Education spent 
hundreds of thousands of dollars to form a commission to look 
at title IX athletics regulations, and when it was all said and 
done, thankfully no changes were made to the law due to a 
strong, bipartisan, and grassroots effort to support title IX.
    It seems to me that spending money and efforts on the 
Department--by the Department of Education helping States 
implement No Child Left Behind to close the achievement gap 
would be a much higher priority than throwing out longstanding 
anti-discrimination laws potentially broadening the achievement 
gap for our Nation's girls and boys.
    Mr. Secretary, wouldn't you agree with me that the 
Department's efforts should be somewhere where we really need 
them to focus on right now?
    Secretary Paige. Senator, with all due respect, I 
completely disagree with you. May I say first that the 
administration's position on title IX was brought together 
based on what the administration thought is best for the 
country, not because of pressure from any group. We studied the 
issue, we listened to the Nation speak, we considered all the 
information that they brought up, we considered their point of 
view and what we were trying to accomplish. We have great 
respect for title IX and what it has brought to our Nation, and 
we want to only build on that and make matters better.
    So I don't want it to be viewed that the administration's 
output on the title IX issue resulted from pressure groups 
bringing pressure for one point of view or another.
    Senator Murray. Oh, I don't think--I didn't imply that at 
all. But there was strong bipartisan support to--at that time, 
grassroots support that the commission listened to and ended up 
supporting title IX.
    Secretary Paige. Well, that's----
    Senator Murray. I don't call that outside pressure groups. 
I call it this country.
    Secretary Paige. That was our goal, to listen to the 
country, and that's why we had an outstanding panel go around 
the United States and conduct hearings and listen to the 
country and take that into consideration. So our listening and 
taking into consideration is what brought us to the conclusion 
that we came to.

             NO CHILD LEFT BEHIND AND SINGLE SEX EDUCATION

    With respect to single-sex schools and single-sex 
classrooms, our view is that it expands opportunities for the 
development and achievement of No Child Left Behind as a goal. 
Many young girls--I met many of them in New York when I 
attended the Young Women's Leadership School, who felt that 
they were being left behind, and only were able to catch up 
because of the existence of that school.
    So we are, without coercion, simply trying to expand 
opportunities for communities and systems who choose----

                     ``SUBSTANTIALLY EQUAL'' CLAUSE

    Senator Murray. Mr. Secretary----
    Secretary Paige [continuing]. To have an environment like 
that.
    Senator Murray [continuing]. Let me just say that my 
concern is that under your proposal you use substantially equal 
rather than the protections that we have under title IX under 
No Child Left Behind. The term, substantially equal, concerns 
me a great deal.
    Mr. Jones. Senator, the provisions in No Child Left Behind 
were obviously to reaffirm the protections of the Constitution, 
and the protections of the title IX statute itself, but also to 
recognize that the regulations under title IX are something at 
the discretion of the implementation or the implementers of the 
law within the public notice and comment process.
    When those regulations were originally put in place, the 
limit of what was known about single-sex education was somewhat 
more narrow than it is today, but it----
    Senator Murray. Well, but you even in your report say that 
the research is inconclusive. Mr. Secretary, I have a few other 
questions. Let me just say I am deeply opposed to your 
proposal.
    Secretary Paige. Thank you. We would----
    Senator Murray. The words, substantially equal, to any one 
of us who have been through this process for a lifetime----
    Secretary Paige. Senator----
    Senator Murray [continuing]. Leaves us with great concern--
--
    Secretary Paige. We would----
    Senator Murray [continuing]. For what the future's going to 
bring.
    Secretary Paige. We would invite continued discussions with 
you around your concern.
    Senator Murray. Okay. And I would, I'd love to have you 
come in and talk with me about this, but we will have further 
discussions. I think the term, substantially equal, leaves many 
of us very concerned.
    Secretary Paige. We would welcome continued discussions.

                      EDUCATIONAL VOUCHER PROGRAMS

    Senator Murray. All right. Let me ask you too, because the 
President's budget includes funding for vouchers, which were 
rejected when we had our long debates and battles throughout No 
Child Left Behind. At the end of the day, No Child Left Behind 
rejected vouchers, but the Bush budget again includes $50 
million for the Choice Incentive Fund and $14 million for the 
D.C. voucher program, when even the Senate never voted on these 
programs.
    I just don't understand how you can repeatedly abandon 
public education by giving just 1,700 students $7,500 to attend 
schools that are unaccountable to students and their families 
and the Department of Education, and meanwhile we can't even 
increase Pell grants for low-income students to help them, 
especially at a time when we know that getting education at a 
higher level is important.
    It seems to me that we keep focusing on a narrow program, 
just as a matter of principle rather than trying to look at 
where we can put our dollars in a substantial way to help a 
number of students who are struggling today. And I know you and 
I disagree philosophically, but I remind you that when we 
debated the No Child Left Behind Act and passed that, the 
voucher discussion was an essential part of that, it was 
rejected at the end of the day, Congress said no, yet we keep 
seeing the Bush administration put money forward for it.
    Secretary Paige. Senator, it's because we believe that it 
adds to the possibility of authentic school reform. We think 
that the proposals we put forth are to benefit public schools, 
not to detract from public schools. We think public schools, 
when bound in the kind of monopolistic organizational 
structures that they operate in now, that this penalizes them 
and constrains innovation and constrains creativity. And that 
is why we keep pushing for broader choice. We think in an 
environment with broad choice, public schools will prosper.
    Senator Murray. Mr. Secretary----
    Senator Specter [presiding]. Senator Murray, you're about 
3\1/2\ minutes over now.
    Senator Murray. Okay.
    Senator Specter. How much longer would you like?

                           PREPARED STATEMENT

    Senator Murray. Well, I have questions, a number of 
questions. I'll submit my questions for the record. I would 
just say that it seems to me when we have our debates within 
the No Child Left Behind Act, at the end of the day we agree on 
it, and then we keep seeing the budgets come back outside of 
what we all agreed on, for No Child Left Behind. It leaves all 
of us disconcerted.
    Thank you, Mr. Chairman. I apologize for going over my 
time. I will submit my questions for the record.
    [The statement follows:]
               Prepared Statement of Senator Patty Murray
    Mr. Secretary, thank you for coming to talk with us today about the 
President's fiscal year 2005 education budget request. I am concerned 
about overall funding levels for education. Instead of providing real 
funding for critical education programs, the President robs Peter to 
pay Paul by cutting funding from some programs and adding it others, 
expecting it to count as an increase. Further, the President continues 
to fund unproven private school voucher schemes, but cannot seem to 
fund after school programs or provide increases for Impact Aid.
    In fact, the President's budget only increases NCLB programs by 
$1.8 percent over the fiscal year 2004 Omnibus Appropriations bill--
shortchanging the reforms included in the bill by over $9.4 billion. 
The level of Title I funding in the President's budget leaves more than 
4.5 million low-income children behind. In Washington State alone, the 
difference between the President's request and the promise of NCLB 
means that over 27,000 low-income students will be left behind. 
Currently, secondary schools only receive 15 percent of Title I funds 
so we are shortchanging education at all levels when we shortchange 
Title I. I was pleased that the President wants to provide funding for 
math gains in secondary education, but we need to be putting real 
funding into our high schools. Our high schools need increase funding 
for literacy and counseling to ensure that our students have the skills 
and knowledge for true access to higher education and training.
    The President's budget eliminates 38 programs including dropout 
prevention, elementary and secondary school counseling, smaller 
learning communities, and important literacy programs like Even Start. 
The President's budget request also freezes critical education 
programs, which is actually a cut in funding with increasing 
enrollments and other costs to run schools and programs. The President 
froze funding for Impact Aid, after-school, Teacher Quality, migrant 
education, and rural education. At a time when thousands of soldiers 
and reservists from Washington State--more than a 130,000 from around 
the country--are serving in Iraq and Afghanistan, I am shocked that 
this President would level fund Impact Aid instead of increasing 
funding to make sure their families are well cared for in our 
communities and schools. Further, funding after school at the 
President's request will mean 1.4 million students will be without a 
safe, adult-supervised environment after school.
    The President's budget does not fully fund our share of special 
education costs, failing yet again to fulfill that commitment to our 
communities, our schools and our disabled students.
    Under the President's budget funding for higher education programs 
continue to stagnate. The President should not punish students for 
increasing college costs by not increasing Pell grants.
    We know what the needs are out there. We know what works to help 
our children succeed. That's why I'm so disappointed that the 
President's budget shortchanges America's students, and shortchanges 
our country in the long run.

    Senator Specter. Thank you very much, Senator Murray. 
Senator Landrieu, I understand you have 2 minutes left.

                      PUBLIC SCHOOL CHOICE FUNDING

    Senator Landrieu. Thank you. I'm going to try to get in two 
questions if I can. Mr. Secretary, to follow-up on my original 
comments, in your budget you make mention of the fact that 
there are 2.5 million children eligible for transfer to higher 
performing schools, yet the budget only reflects a $27 million 
figure for public school choice.
    There is an additional $50 million for public school choice 
and private school choice, but only $27 million for public 
school choice. Just putting the pencil to it, at $10,000 a 
student, which in some areas may be too high, some areas may be 
too low, my math would say that we'd need to come up with $25 
billion. So how did you all come up with the $27 million figure 
to help 2.5 million children who to date have been identified 
as eligible? How did we arrive at that figure?
    Secretary Paige. Well, the $27 million you refer to is over 
and above the dollars available under the title I allocations, 
which each district has. So that is not limited to $27 million.
    Senator Landrieu. But our title I, based on just the basic, 
is short $160 million, just the title I under Leave No Child 
Behind, and now in addition we have just in our State 35,000--
--
    Secretary Paige. Is short? What do you mean by short?
    Senator Landrieu. Shorted based on the commitment that this 
administration made to fund No Child Left Behind.
    Secretary Paige. Please explain. I'm not sure I understand.
    Senator Landrieu. Well, the Leave No Child Behind Act is 
about $9 billion short based on the agreement that was made, if 
reforms were put in, the resources would be there.

                         TEACHER CERTIFICATION

    But let me ask my second question. Again on teachers, one 
of the points of No Child Left Behind that the White House 
insisted on, and I actually agreed to with some hesitation, was 
that all teachers would be certified by 2005. Now, I had 40 
percent of my teachers uncertified, but I was willing to say, 
okay, in 3 years we'll get them certified, and the White House 
said, we'll help you do it.
    I look at this budget and title II, teacher quality, is 
flat-funded. So what should I tell the 40 percent of my 
teachers that need to get certified?
    Secretary Paige. You may say to them that this budget----
    Senator Specter. Mr. Secretary----
    Senator Landrieu. Could he answer the question?
    Senator Specter. The time is expired, but you may answer 
the question.
    Secretary Paige. You may say to them that, this budget has 
$5.1 billion in it to support teachers, and if the States 
decide to use those dollars for certification purposes, the 
flexibility is there to provide opportunities for them to do 
that, and the $5.1 billion to support teachers is historic in 
its level.
    Senator Specter. Thank you, Senator Landrieu. Senator 
Hutchison.

               STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Thank you, Mr. Chairman. Mr. Secretary, 
I applaud that you are coming forward with the regulations on 
single-sex schools as an option for public schools to be able 
to meet the needs of individual children in school districts. 
This is not a mandate. This is another option. If a school 
district, because of input from parents or principals or 
teachers, believes that they have behavioral problems or 
specific problems that single-sex classes or schools would 
address, they would have the option to do it.

                          SINGLE SEX EDUCATION

    In the Washington Post this morning, there is the picture 
of Moton Elementary School that on its own decided to go to 
single-sex classes in 2001--2000 or 2001--and they are now--
they were at the bottom of the achievement measures in the 
District of Columbia and now they're at the top, and they 
credit the opportunity to have single-sex classes for doing 
that. It was 2001 that they started this program.
    So yesterday you did come out with the regulations and you 
will have public comment, and I know, maybe there's a 
disagreement on the specific language, substantially equal, but 
the purpose was to assure that you could offer classes that are 
tailored to boys or girls and not have a requirement of 
equality when that would defeat the purpose of offering 
specialized courses.
    So I applaud the effort that you are making, and this is 
the language in your regulations that are proposed: Single-sex 
classes will be permitted as long as they are part of an even-
handed effort to provide a range of diverse educational options 
for male and female students, or if they are designed to meet 
particular identified educational needs.
    So, Mr. Secretary, I hope you are going to pursue this. You 
have a 45-day comment period, which is expedited because if a 
school district wants to offer this option, they will be able 
to plan for the next school year. My question to you is this. 
Are you going to have funding under the title that allows for 
funding creative programs to help some of these schools 
implement these single-sex schools and classes?
    Let me go further and just say that Houston is already 
offering in their public schools a boys school. Dallas is on 
the brink of offering a girls school and the headmistress of 
the finest girls school in North Texas, Hockaday School, has 
said that when she retires in July of this year, she is going 
to volunteer her time to create a girls school in the public 
school district, Dallas Independent School District.
    So I am so happy that they are going to have this chance, 
and I would like to know if there will be grants available for 
people who are trying to be creative and offer these options to 
the people that attend public schools throughout America?
    Secretary Paige. Thank you, Senator, and we are going to 
move forward with this. We are now awaiting the 45-day comment 
period. As soon as we receive those comments we're going to 
move faster, for the issues involve other agencies. The Justice 
Department was involved as well. But now it's in our court, so 
you can expect that we're going to move with dispatch with 
this.
    Senator Hutchison. Will there also be grants available?
    Secretary Paige. The answer is yes.
    Mr. Skelly. Senator, money is available under the State 
grants for innovative programs budget, a continuing grant 
program of approximately $297 million.
    Senator Hutchison. Well, thank you, because, you know, so 
many schools--Secretary Paige, you visited the Young Women's 
Leadership School in Harlem with me, and that school is in a 
part of New York that has a very low rate of graduation and 
college attendance, and in fact, since that school was created, 
every graduate, every graduate has gone to college, every one. 
And 60 Minutes has interviewed those girls and they have 
applauded the opportunity that they have, so I just am very 
pleased that you are moving forward and it can't be fast 
enough.
    I would say to my colleagues who are concerned about the 
language, why not try it? We have had failing schools for 25 
years in this country and we have had people throwing up road 
blocks to innovation and creativity, so let's try and see if we 
can work with this language. Nobody wants schools or classes to 
be inferior for boys or girls. This is America, so let's be 
creative, and I applaud your efforts in what you're doing.
    It appears that my time is up, but I hope that we will 
finalize those regulations so school districts will have the 
option, not the mandate, to go forward with hopefully creative 
grants that will give us more knowledge about the benefits that 
can be given--gotten from creativity in our public schools.
    Thank you, Mr. Chairman.
    Senator Specter. Thank you, Senator Hutchison. Senator 
Kohl.

                     STATEMENT OF SENATOR HERB KOHL

    Senator Kohl. Thank you, Mr. Chairman. Secretary Paige, 
like many of my colleagues, I am also troubled by the funding 
levels in the President's budget for No Child Left Behind. We 
voted for that legislation because we believed it would provide 
a real chance for real reform. As you know, for the first time 
schools in States would be held accountable for results and the 
Federal Government promised that they would provide the dollars 
necessary to help them meet the new requirements.

                  NO CHILD LEFT BEHIND FUNDING LEVELS

    Both the President and the Congress agreed to this and 
parents, teachers, principals, and administrators all expected 
that we would live up to our word. But now for the third year 
in a row, the President's budget falls short of the promise. 
His fiscal year 2005 budget request, as you know, is $9.4 
billion short of what was discussed and we believe promised 
when the No Child Left Behind law was enacted.
    You and the administration have stated that schools have 
plenty of money to implement the laws. Let me tell you just a 
little about what's happening in my own State of Wisconsin. In 
2003, Mr. Secretary, Milwaukee public schools received an $8 
million increase in title I funds, but the new requirements for 
supplemental services and transportation for students to better 
performing schools cost over $10 million. In other words, the 
new mandates cost $2 million more than the total increase the 
Milwaukee Public Schools received, and they had to make up the 
difference. To cover the costs, they were forced to eliminate 
their popular summer school program, which had served 17,000 
students.
    This is only one example. Across Wisconsin, school 
districts are being forced to cut staff and increase class 
sizes, cut music, art, foreign language education, and cut 
textbook purchases. Some have even had to keep their schools 
colder, believe it or not, to cut down on their heating bills, 
or restrict how many pages students can print from their 
computers. These are clearly not the results that we all want.
    Problems exist also at the State level in Wisconsin. Our 
State Department of Public Instruction is working hard to 
implement the new law, but they believe they'll need more 
funding to create new data systems to meet new data collection 
and reporting requirements. They'll also need more funding for 
technical assistance teams to help schools and districts in 
need of improvement.
    In a recent Washington Post op-ed, you argued that studies 
show that No Child Left Behind funding is sufficient. Many 
researchers, however, argue that you are underestimating the 
huge new cost that schools are facing. The President himself 
agreed to higher funding levels when he signed No Child Left 
Behind. He agreed that those authorized funding levels were 
needed to help schools succeed.
    So I have a problem with people in my State who wonder what 
you would say in response to the statement that I just made.

            AUTHORIZATION VS. APPROPRIATION LEVELS FOR NCLB

    Secretary Paige. Senator, I'm confused by the word 
``promise,'' and I've asked clarification on that on many 
occasions, and some have pointed out that they view the 
authorizing level as a promise. And when I look up what that 
really means, I found that it means that you can spend no more, 
but it does not say that you must spend that much as a promise. 
In fact, I've been able to identify without much effort lots of 
examples where there's a difference between the appropriated 
level and the authorized level, and I have found that it has 
been consistent throughout various administrations, both 
Democrats and Republicans, where this delta appears. And this 
is the first time that I've been able to understand it being 
characterized as a promise.
    The second point would be that my experience as a 
superintendent tells me that all these schools are under 
extreme pressure as far as funding is concerned. I know what 
the superintendent is doing now in Houston without even talking 
to her. She is preparing their budget, and she is wrestling 
with how they're going to take care of their health care costs 
or how they're going to take care of the transportation cost 
that is increasing.
    We empathize with all of that. But that has nothing to do 
with the requirements of the No Child Left Behind Act. There 
was one State that even indicated that in order to meet the 
requirements of the No Child Left Behind Act that they would 
have to have a laptop computer for every student. I would be 
pleased to have a laptop computer for every student, but it has 
nothing to do with the requirements of the No Child Left Behind 
Act.
    The budget that the President has proposed has ample 
dollars in it to meet the needs and the requirements of the No 
Child Left Behind Act, and as you know, the Act has language in 
it that says, if it isn't funded, it isn't required. That would 
be my response to it, but I don't want to be perceived as not 
being empathetic to the fact that all of these schools are 
under real tight budget constraints now, and we empathize with 
that. But compliance with the No Child Left Behind Act is not 
responsible for many of those cost elements.
    Senator Kohl. Well, the President's budget in 2005 is 
$24.91 billion. The authorized--and we can debate what that 
meant--the authorized level was $34.32 billion. The difference 
there is almost $9\1/2\ billion. Now, I would agree with you 
the authorized level was not something that was legally put in 
that had to be met, but the implication was very clear to those 
of us who engaged in putting together the law and signing it. 
You don't put a number in there unless you have some intention 
or some hope of seeing that number fulfilled.
    As you know, yes, there's no legal requirement and we 
understand that and you're pointing that out. But clearly there 
is a perception out there, which I'm sure you can understand--
--
    Secretary Paige. Absolutely.
    Senator Kohl [continuing]. That we're being shortchanged, 
because that was the number that we put into that law.

              RELATIONSHIP BETWEEN FUNDING AND ACHIEVEMENT

    Secretary Paige. Could I just briefly say----
    Senator Specter. Mr. Secretary, Senator Kohl's time has 
expired, but you may finish your answer.
    Secretary Paige. I would just like to say very briefly that 
the assumption that there is a tight link between spending and 
student achievement has not been established. In fact, I can 
point out very easily many places where there is a very high 
average per-pupil expenditure and very low performance. 
Washington, D.C. public schools would be one example. I have 
examples here that I could provide for anyone who wants to have 
this information. There simply does not exist this tight 
correlation between those two variables.
    In fact, I would go further and even say in some cases the 
argument about money may even be a destructive element in that 
it masks some of the real challenges that need to be discussed 
and looked at, and I have evidence of that in many places. But 
I don't want to be perceived as not wanting more money. I know 
the school systems want more money, and that's not my argument 
at all. I would like for them to have more money. My argument 
is that the requirements of the No Child Left Behind Act are 
sufficiently and amply funded in order to get those things 
carried out.
    Senator Kohl. Thank you, Mr. Chairman.
    Senator Specter. We've been joined by the distinguished 
ranking member, Senator Harkin.

                    STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin. Thank you, Mr. Chairman. I apologize for 
being late.

                WASHINGTON POST OP-ED BY SECRETARY PAIGE

    I would just say, Mr. Secretary, that this budget, if 
enacted, will enact in the smallest increase for education in 9 
years, shortchanges title I by over $7 billion, underfunds No 
Child Left Behind by $9.4 billion and eliminates programs like 
school counselors, arts and education, and drop-out prevention.
    There's a lot more I want to say, but just a couple of 
statements I want to make here before I ask a question. You 
wrote an op-ed in the Washington Post that talked about Members 
of Congress: ``. . . who voted for the law and support its 
ideals but now see opposition as being to their political 
advantage.'' That was your statement in an op-ed piece in the 
Washington Post.
    Well, I hope you weren't referring to me, Mr. Secretary. I 
voted for the law, I was involved in the negotiations that led 
up to it as a member of the authorizing committee, but I do 
have concerns about how the Department is implementing it and 
how it's funding it, and these concerns come from dozens of 
conversations I've had with parents and teachers from Iowa. You 
visited Iowa recently. You heard the same concerns I did. Just 
because I'm trying to address them doesn't mean I'm, quote, 
seeking political advantage. I'm trying to represent my 
constituents. That, Mr. Secretary, is what they elected me to 
do.
    Now, you and I have always gotten along well, Mr. 
Secretary, and I respect you personally. Believe it or not, you 
and the White House don't always have all the answers to all 
these questions. You might learn something from people in 
Congress on both sides of the aisle and sometimes from our 
constituents, even those who disagree with you.

                    UNSPENT FEDERAL EDUCATION FUNDS

    Here's one bit of advice I'll give you, Mr. Secretary. Stop 
making claims that States have billions of dollars for No Child 
Left Behind at their disposal that they aren't bothering to 
spend. You and I both know from your own Department statistics 
the States are spending the money that they get from the 
Federal Government as fast as they can, and yet you wrote that 
States are not fully utilizing the Federal education funds 
available to them in a timely manner, allowing billions of 
dollars to remain in the Federal Treasury instead of improving 
the education of our children.
    You know full well, Mr. Secretary, the States don't spend 
Federal money as soon as it's appropriated. It takes time. It's 
like the situation where you put an addition on your house. It 
costs $10,000, you don't pay for it all up front. You pay 
$1,000 and you may pay a little bit later on, then you pay 
something at the end of the time when it's over with. Schools 
work the same way. They agree to contracts but they don't write 
the checks until the services are provided. You know that, and 
yet you're accusing States of sitting on their money.
    Our chief school officer in Iowa, Ted Stilwill, responded 
in a letter to you in January and said: ``the implication that 
we have let huge sums of Federal money languish, that the funds 
are at our disposal to use at our discretion, or that we have 
not been good stewards of the public's money is not only 
unfair, but patently insulting.''

                         RATE OF STATE SPENDING

    According to the data from your own Department, States are 
actually spending their Federal money faster than expected. I 
have a chart from your Department showing that as of February 
20, using normal spending rates, States should still be waiting 
to spend about 7 percent of their money from fiscal years 2000 
and 2002. As a matter of fact, States have spent all but 6 
percent.
    So, Mr. Secretary, if you know that States are spending the 
money faster than your own Department expects them to, why are 
you criticizing them for not spending it fast enough?
    Secretary Paige. Senator, I hope that I can explain that, 
that's not characterized as a criticism. It is a statement of 
fact that I asked our office early in December to give me a 
report, and early in December they did give me a report, about 
December 12 or somewhere nearby. The report they gave me 
indicated that there was better than $6 billion available that 
had been appropriated for various educational purposes that 
went all the way back to the year 2000. In fact, there are 
examples of some States who had money lapse that had been on 
the table so long that it was no longer available to them. So I 
was making that as a statement of fact, not as a statement of 
criticism.
    Senator Harkin. Well, facts are facts. They're stubborn 
things. This is from your own Department, Mr. Secretary, from 
your own Department.
    Senator Specter. Senator Harkin, how much more time do you 
think you will need?
    Senator Harkin. Well, do we have another round?
    Senator Specter. The Secretary has to leave at 11 a.m. and 
we have six people here, some superintendents who I would like 
to have him hear their testimony, but I don't want to cut you 
short.
    Senator Harkin. Well, I appreciate that, Mr. Chairman. This 
is very, very important because the allegation has been made by 
the Secretary, and I have the figures right here from your own 
Department, I have these figures. Now, yes, there is $6 
billion, but as I said, Mr. Secretary, they don't spend this 
money as soon as they get it. They have 27 months in which to 
spend this money, 27 months. Obviously they haven't obligated 
yet. They're spending it as it goes out.

           SPENDING RATE BY STATES OF FEDERAL EDUCATION FUNDS

    Your Department expected, as I said, that 7 percent would 
still be unspent. They now have 6 percent left of the total 
amount of money, so they're spending it even faster than your 
own Department anticipated, and yet you say, and I'm only 
saying what you wrote, that they're not utilizing these Federal 
education funds available to them. I don't know how you explain 
this. I don't know how you explain it, Mr. Secretary. Whoever 
you asked for this gave you some very, very bad advice.
    Senator Specter. Senator Harkin, would it be sufficient if 
the Secretary responded for the record?
    Senator Harkin. Yes, I would appreciate that, and as long 
as you're responding for the record, I would like to have the 
Secretary respond to the fact that there is $1.5 billion cut in 
the President's budget from fiscal year 2005 to fiscal year 
2006, and I'd like to know where you're going to find that $1.5 
billion.
    Senator Specter. Will you respond for the record, Mr. 
Secretary?
    Secretary Paige. Yes. I'll have Todd respond to the first 
point.
    Senator Specter. Anything further?
    Mr. Jones. Senator Harkin, the issue of draw-down----
    Senator Specter. I want the response--I'm sorry, Mr. 
Jones--for the record because we're very short of time so we 
can honor our commitment to the Secretary to leave at 11.
    [The information follows:]
                             Unspent Funds
    President Bush and the Congress have provided unprecedented levels 
of funding to implement the No Child Left Behind Act (NCLB Act). In 
fiscal year 2002--the first year of implementation--funding for the 
Elementary and Secondary Education Act programs reauthorized by the 
NCLB Act increased by $4.6 billion, or almost 27 percent. Subsequent 
increases in fiscal years 2003 and 2004 have raised the total increase 
to $6.9 billion, or 40 percent, since the NCLB Act was signed into law. 
Nevertheless, many critics continue to insist that the new law is 
underfunded, and even cite this alleged underfunding as an excuse for 
not fully meeting the law's requirements.
    In this context, the Administration and the Department believed it 
was appropriate to point out that States and school districts have not 
yet spent very significant portions of already appropriated Federal 
education funds. Our intention in publicizing the facts about these 
unspent funds was not to imply any wrongdoing or negligence on the part 
of State or local officials, but simply to show that there is a great 
deal of money in the pipeline, with about $6 billion remaining from 
2000 through 2002 and billions more available from the 2003 and 2004 
appropriations. The point is especially important because these 
balances contrast with the claims from some State and local officials 
about the inadequacy of these record Federal appropriations increases.
    The availability of this very substantial, multi-year funding for 
the NCLB Act is important, because major provisions of the law are 
being phased in over time. For example, States were not required to 
implement the new reading and mathematics assessments in grades 3-8 
until the 2005-2006 school year. Similarly, veteran teachers have until 
the end of the 2005-2006 school year to demonstrate that they are 
highly qualified. In this context, data showing that States and school 
districts are still drawing down 2002 funds simply provides another 
perspective that we believe helps demonstrate that the law is 
adequately funded.
    As for the Senator's concern about 2006 funding levels for Federal 
education programs, I would note that outyear figures in the 
President's budget are primarily for planning purposes. The Department 
will begin developing its 2006 request later this spring, and that 
process will provide another opportunity to address concerns about the 
appropriate level of funding for fiscal year 2006.

    Senator Specter. We've been joined by the distinguished 
chairman of the full committee, Senator Stevens.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Mr. Secretary, I'm very pleased to be able 
to get here today so I can express my appreciation to you for 
what you're doing and I think you're doing a marvelous job.
    Secretary Paige. Thank you, Senator.

                     ALASKA'S EDUCATION CHALLENGES

    Senator Stevens. Your visits to Alaska have been really a 
breath of fresh air to deal with the challenges that we face in 
Alaska. We have one-fifth of all the land mass of the United 
States and we have over 750,000 people. We are committed to 
making No Child Left Behind work in Alaska, and thanks to you 
and what you've done, I think we'll be able to achieve that 
goal.
    Our schools want to meet the high standards set forth in No 
Child Left Behind legislation and we're looking forward to 
working with you even more to find ways to bring that about. 
Unfortunately, as you found out, in too many of our schools 
English is the second language, and also, we have too many 
schools where we don't have any teachers right now because of 
the lack of teachers that are willing to go to the rural areas. 
Thankfully, you came up and looked and found, along with my 
colleague, Senator Murkowski, Lisa, who really deserves a lot 
of credit for what the two of you have done really in finding 
out one of the reasons they weren't staying was because they 
didn't have adequate housing. I think you found one teacher 
living in a broom closet.
    Secretary Paige. In a closet, yes, I did.

                   ALASKA NATIVE EDUCATION EQUITY ACT

    Senator Stevens. Now, we're anxious to work with you and 
I'm pleased that your budget contains funding for the Alaskan 
Native Education Equity Act. Those programs will bring 
opportunities to these native students who are out in rural 
Alaska, and we will meet the requirements of this bill by tele-
education, by utilizing Internet and direct access. All of 
these schools are hooked up to the Internet now. We can have 
live presentations from qualified teachers with master's 
degrees and Ph.D.s in our Alaska universities throughout the 
State.

               CAROL M. WHITE PHYSICAL EDUCATION PROGRAM

    But your budget also contains continued funding for the 
Carol White physical education program, that is named after my 
former chief of staff who's now the longest living person after 
a brain tumor operation in the world. So we are delighted. This 
program really is a great joy to her to read about and I want 
to thank you for that.

                     PHYSICAL EDUCATION AND OBESITY

    One of the things I would like to ask you about--as I try 
to move around the country and particularly around my State, 
we're moving forward in education, we're moving backward in 
obesity. Have you thought about doing anything more to bring 
the concepts of physical education and discipline to our 
schools to try to teach our children when they're younger about 
the basic essentials of exercise and diet?
    I read--we all read every day more and more stories about 
how we are exceeding the world in obesity. I would hope it 
would be part of the educational program that you foster as you 
develop this No Child Left Behind to deal with the obesity 
factors that do affect the outcome of the education that we're 
seeking to give our children.

         INCREASED NCLB FLEXIBILITY FOR RURAL AND SMALL SCHOOLS

    Secretary Paige. Senator, thank you for inviting me to 
Alaska. We learned much there, and especially about the need to 
have more flexibility under the highly qualified teacher 
elements of the No Child Left Behind Act. We have provided some 
flexibility already, but you can expect in the next 10 days an 
additional announcement that will provide additional 
flexibility that is aimed primarily at helping rural and small 
schools meet the No Child Left Behind Act requirements.

                          EPIDEMIC OF OBESITY

    With respect to obesity, we're very concerned about that. 
There's an epidemic of obesity, even in our young people. My 
colleague, Tommy Thompson, and I are in the process of 
discussing ways that we can be helpful. We are collaborating in 
developing some strategies and some ways that we can try to 
stem what we think is a very dangerous, very dangerous trend 
that's going on now.
    Senator Stevens. Well, if you need any additional 
flexibility under existing law to deal with that, I hope you'll 
talk to the chairman or to me, because I think that one of the 
keys to the success of the No Child Left Behind Act is to 
develop children that are capable of retaining their education, 
and they can't do it if they're suffering from obesity, in my 
opinion.
    Last, I want to go on record and invite you to come back, 
as a matter of fact. I was out in some villages and they told 
me to stay home and send you and Lisa back.
    Secretary Paige. We'd enjoy it. We enjoyed our stay there 
and would enjoy going back again sometime.
    Senator Stevens. Well, I'm serious. There's some other 
things we'd like to work with you on to make sure this law 
works. I went to the State legislature this year. We have a 
strange procedure in Alaska. We speak to a joint session of the 
State legislature. And I told them: ``We do not need your 
request to modify this law, we need your cooperation to work 
with Secretary Paige to make it work.'' So we--again, we thank 
you. I think you're doing a marvelous job, Mr. Secretary.
    Secretary Paige. Thank you.
    Senator Stevens. Thank you, Mr. Chairman.

           INCREASES IN THE FISCAL YEAR 2005 EDUCATION BUDGET

    Senator Specter. Thank you very much, Senator Stevens. 
Senator Hutchison asked me to point out for the record that the 
President's proposal of $13.3 billion for title I grants to 
local education agencies is an increase of $1 billion, or 8 
percent, over last year. The proposal of $11.1 billion for 
individuals with disabilities is an increase of $1 billion, or 
9 percent, over last year. And the President's proposal of $73 
billion for postsecondary student aid is an increase of $4.4 
billion, or 6 percent over last year. And also that 
historically black colleges and universities have had an 
increase of 30 percent by 2005, nine such colleges in her State 
of Texas, and that for Hispanic-serving institutions, in fiscal 
year 2005 the request is $96 million, which is a significant 
increase.

                              TEEN SUICIDE

    Mr. Secretary, I'd like you to answer one more question for 
the record and that is on the issue of teen suicide. In a 
small, rural Pennsylvania county, Potter County, there were 
three teenage boys who committed suicide and they did not 
appear to be linked in any way except that they were troubled 
youth who needed counseling.
    In our committee report last year, we urged you to make 
availability screening programs more widely known and to 
encourage school districts to implement similar teenage 
programs. We have received a report, one page, which is, I 
think fairly stated, not adequate in response to that request 
or that issue and I would appreciate it if you would supplement 
that for the record.
    [The information follows:]
                    Screening Programs for Teenagers
    The Department is taking several steps to make school districts, 
juvenile justice facilities, and community-based organizations aware of 
and encourage them to use screening tests to detect depression, risk of 
suicide, and other mental health disorders in teenagers.
                 raising awareness of existing programs
    The Department's Office of Safe and Drug-Free Schools (OSDFS) has 
worked with the Columbia University ``Teen Screen'' program 
(www.teenscreen.org) to make school districts more aware of tools that 
are available to screen students for depression, suicide ideation, and 
other mental disorders. The Columbia Teen Screen program was developed 
in 1999 by Columbia University and a range of national and community 
partners to identify youth who are at risk for suicide and/or suffering 
from undiagnosed mental illness, and to help them obtain appropriate 
treatment. The ultimate goal of the program is to ensure that all youth 
are offered a mental health check-up before graduating from high 
school.
    In October 2003, staff from the Columbia University Teen Screen 
program made a presentation at the OSDFS National Conference. The 
presentation provided conference participants with an overview of the 
problem of youth mental illness; information about why it is necessary 
to screen for youth mental illness; information about the Columbia Teen 
Screen program, including how it has been implemented in schools and 
the results; and how participants can bring this program to their own 
schools. Several school representatives contacted the Columbia program 
after hearing about it through the OSDFS conference.
    The Department will feature the Columbia Teen Screen program on the 
agenda for the April 2004 Safe Schools/Healthy Students Conference 
(scheduled for April 26-30, 2004) to promote the screening program. The 
Safe Schools/Healthy Students initiative is a discretionary grant 
program that is jointly sponsored and funded by the Departments of 
Education (ED), Health and Human Services (HHS), and Justice (DOJ), and 
supports local educational agencies and communities in developing and 
implementing comprehensive programs that create safe, disciplined, and 
drug-free learning environments and promote healthy childhood 
development.
    In fiscal year 2003, ED and HHS awarded more than $161 million to 
89 Safe Schools/Healthy Students grantees in communities across the 
Nation. These funds support locally developed comprehensive plans that 
address the following elements: (1) Safe School Environment, (2) 
Alcohol and Other Drugs Violence Prevention and Early Intervention, (3) 
School and Community Mental Health Preventive and Treatment 
Intervention Services, (4) Early Childhood Psychosocial and Emotional 
Development Services, (5) Educational Reform, and (6) Safe Schools 
Policies. The mental health element of the Safe Schools/Healthy 
Students comprehensive plan has a dual purpose: (1) to provide metal 
health preventive services early to reduce the risk of onset or delay 
the onset of emotional and behavioral problems for some children; and 
(2) to identify those children who already have serious emotional 
disturbance and ensure that they receive appropriate referral, 
treatment, and follow-up services.
    At the Safe Schools/Healthy Students Conference on April 24, 2004, 
Columbia Teen Screen will present a session called ``Suicide 
Prevention: Who's At Risk?'' This workshop will offer an opportunity 
for Safe Schools/Healthy Students grantees and for grantees from the 
HHS Youth Violence Prevention and Mental Health Targeted Capacity 
Expansion Grants programs to learn more about the Columbia Teen Screen 
tool. This information may be particularly helpful to any grant site 
that has not already adopted a suicide risk screening tool, or is 
interested in learning more about other existing screening tools.
    In addition to the specific workshop about the Columbia Teen Screen 
program, several of the other 232 workshops offered throughout the 3-
day Safe Schools/Healthy Students conference will address the 
prevention of mental health issues in young people. For example, in 
another workshop that will be offered multiple times throughout the 
conference, the National Suicide Prevention Resource Center will 
address current issues in the prevention of youth suicide. The Rhode 
Island Department of Children Youth and Families will offer a session 
about youth with mental health issues who are transitioning out of the 
juvenile justice system. The National Mental Health Association will 
present a session about training communities around the language of 
mental health. These are just a few examples of the mental health 
disorder screening and prevention issues training opportunities that 
will occur at this spring's Safe Schools/Healthy Students Conference.
              identifying districts for screening programs
    The Department will also work with the Teen Screen program to 
identify school district sites where this type of program has a 
likelihood of success. Because resources are limited and as not all 
communities have to have the ability to provide mental health services 
to those who need them (which is a requirement of the screening 
program), advocacy for such screening tests needs to be targeted 
appropriately if it is to have the greatest possible effect. By way of 
example, the Columbia University Teen Screen program will provide 
assistance to applicants for Project SERV (School Emergency Response to 
Violence) grants. Project SERV provides education-related services to 
local educational agencies in which the learning environment has been 
disrupted due to a violent or traumatic crisis.
    Since the beginning of the 2003-2004 school year, the Department 
has received requests for Project SERV funding from four school 
districts in response to student suicides: Three of the four districts 
experienced multiple suicides within a calendar year; the fourth 
district experienced a student suicide on campus during school hours. 
In each instance, the learning environment was severely impacted. 
Requested services for responding to each incident consisted primarily 
of student mental health screening; grief and suicide prevention 
counseling; and information sessions for parents, students, and 
teachers regarding suicide prevention. Columbia Teen Screen program 
staff members are in contact with three of these school districts about 
how their program services can help with some of the recovery efforts. 
OSDFS will continue to work with Columbia Teen Screen to identify other 
school districts that may be able to benefit from the program's 
resources.
     highlighting screening programs in grant application packages
    The OSDFS is reviewing relevant announcements for upcoming 
Department of Education grant competitions so that language about 
screening programs can be included in grant application packages where 
appropriate. For example, the Safe Schools/Healthy Students Initiative 
(discussed earlier) published a Notice of Proposed Priority for the 
fiscal year 2004 grant competition in the Federal Register on March 18, 
2004. Under the proposed priority, grantees would be required to 
provide for school and community mental health preventive and treatment 
intervention services, which could include screening programs to detect 
depression and other mental health disorders. In addition, one of the 
proposed requirements for the competition is that grantees and their 
local public mental health authority sign a memorandum of agreement in 
which the local public mental health authority must agree to provide 
administrative control and/or oversight of the delivery of mental 
health services. This agreement also must state procedures to be used 
for referral, treatment, and follow-up for children and adolescents 
with serious mental health problems. Accordingly, we will include 
guidance in the application package to urge applicants to consider 
including screening for depression and other mental health disorders in 
their overall comprehensive plan.
                            additional steps
    Over the next few months, we will pursue additional steps in this 
area. For example, we have discussed coordinating the Department's 
efforts on mental health screening with the HHS Center for Mental 
Health Services (CMHS). We understand that CMHS plans to support mental 
health screening activities with its own funds, and there is an 
opportunity to work collaboratively with them on this effort.
    We will also make our Safe and Drug-Free Schools and Communities 
State coordinators more aware of what mental health screenings are, how 
they can be used, and the positive benefits they can have for youth so 
that they can disseminate this information to school districts and 
communities in their States. Toward that end, we intend to allocate a 
small amount of Safe and Drug-Free Schools and Communities National 
Programs funds this year to develop a short publication on mental 
health screening strategies that we would publicize and make available, 
for example, on the Department's world wide web site over the Internet 
as well as in print.

    Senator Specter. We now have a second panel and five of our 
witnesses are going to be talking about the No Child Left 
Behind Act, so, Mr. Secretary, if you and your two colleagues 
would come up and sit on the panel here with us, it would be a 
good vantage point to listen to the witnesses, and it is my 
request, as you know, for you to hear what they have to say.
STATEMENT OF JAMES WEAVER, PRESIDENT, PENNSYLVANIA 
            STATE EDUCATION ASSOCIATION
    Senator Specter. I want to move now to the introduction of 
the first witness, Mr. Weaver, president of the Pennsylvania 
State Education Association, coordinator for the Social Studies 
Department at the State College Area School District, bachelor 
of science from Lockhaven College and master's from 
Pennsylvania State University. Mr. Weaver, your 5 minutes begin 
right now.
    Let me ask Dr. Melissa Jamula, Dr. Jim Scanlon, Dr. Marie 
Slobojan, Dr. Paul Vallas, Mr. Sam Evans, and Dr. C. Delores 
Tucker also to take seats at the witness table. Thank you for 
joining us.
    Mr. Weaver, I wanted the Secretary to hear what your 
concerns are about the No Child Left Behind Act.
    Mr. Weaver. Thank you, Senator Specter. I appreciate the 
invitation to be here this morning to share some thoughts 
regarding No Child Left Behind. I do especially want to thank 
you for inviting those of us from Pennsylvania who have been 
working back home in Pennsylvania to do our best to make every 
school a good school and provide quality education for 
everyone.
    Senator Specter. This hearing responds to a meeting which 
was held earlier this week in southeastern Pennsylvania, so I 
called the Secretary and he graciously agreed to stay on to 
hear your concerns. Nothing like having the Secretary's ear, 
Mr. Weaver.
    Mr. Weaver. That's correct. Well, what I'd like to share 
with you really is not so much from the perspective of being 
president of the Pennsylvania State Education Association but 
really being a teacher and being a teacher who represents other 
education support personnel folks and other teachers.

                        NO CHILD LEFT BEHIND ACT

    Really it deals with the frustration that educators have 
with the law, and quite frankly that frustration often brings 
my colleagues to tears when they see what is happening not only 
to their students in terms of the testing requirements but also 
to the quality curriculum that they feel is being abandoned as 
a result of the law.
    There are a number of things wrong with the law and we 
believe many of the issues can be corrected, but the problem of 
a one-size-fits-all kind of approach for not only how students 
learn and how they can be assessed in terms of their 
proficiency, that is a fundamental flaw of the law and it's 
fundamentally wrong in what the impact is on the programs that 
are being taught back in our school.
    Every child can learn, but also every parent and every 
teacher knows that every child does not learn at the same rate, 
does not achieve at the same rate, nor in the same way. I've 
had teachers tell me that the pressure on their schools to meet 
adequate yearly progress both in math and reading is so strong 
that they're pressured really to teach little else but what is 
going to be taught on the test.
    We recently gathered a group of our members along with some 
administrators back in Harrisburg together to discuss the law. 
During the course of the discussion, several of the comments 
that were made I think are revealing. One teacher said the PSSA 
test is dominating my classroom. Each year as the stakes get 
higher I spend more time on how to take tests than teaching my 
curriculum, and for those that may not be familiar, PSSA is the 
State-prescribed test in Pennsylvania that we use to 
demonstrate adequate yearly progress.
    Another teacher said, and this is--well, it's just 
shocking--we have a gun at our heads. We must meet the 
requirements but we don't have the tools or the funding to 
offer the interventions that are proven to help children. Even 
our vocational technical school educators point out that 
they're not teaching all the important skills in many of their 
programs, their vocational skills, because they're now working 
to ensure that their students pass the math and reading test, 
and they believe they're sending out their students with less 
skills in their technology areas now than before the law was 
enacted.
    Probably most important is a special education student--or 
teacher--said, important life skills curricula that are being 
sacrificed to teach to a test that really doesn't measure the 
identified goals of the IEP. But probably the most resounding 
and discouraging, disheartening statement that I hear a lot 
from my members is that they feel they're being set up for 
failure by No Child Left Behind.

                           prepared statement

    I'm mindful of my time, so I'll say that educators don't 
object and do not fear accountability, but they do understand 
that trying to boil down the complicated process of educating a 
child to a specific test score is at best problematic, if not 
downright impossible. We believe that we need to remove the 
threat of No Child Left Behind and replace it with a helping 
hand, replace it with things like fully-funded programs that 
work, replace it with the encouragement of our teachers and our 
school support professionals and our administrators----
    Senator Specter. Ten seconds left, Mr. Weaver.
    Mr. Weaver [continuing]. And our parents. Let's replace 
that, the threat of No Child Behind, with the encouragement of 
all those stakeholders in the education process.
    [The statement follows:]
                 Prepared Statement of James R. Weaver
    Good morning Senator Specter and members of the committee. Thank 
you for inviting me here this morning. I especially commend Senator 
Specter for inviting those of us from Pennsylvania who are doing our 
best to make every public school a great one for our children. We have 
worked with Senator Specter for many years, and we know that you, Mr. 
Chairman, want what is best for our children.
    I also commend the group of superintendents who showed great 
professional leadership by holding a news conference back in 
Pennsylvania this past Monday to draw attention to the failings of the 
No Child Left Behind Act.
    Rather than repeat what I said at the news conference Monday, I'd 
like to spend my time focusing on what I'm hearing from the teachers 
and school support professionals about their frustrations with the Act.
    And frankly, Senators, that frustration brings many of my members 
to tears when they see what is happening to their students and to the 
quality curriculum that is being abandoned as a result of this law.
    There are a number of things wrong with this law--some of which can 
be corrected--but because it is focused on a one-size-fits-all approach 
for learning and for demonstrating proficiency, it is fundamentally 
flawed and it is fundamentally wrong in what it is doing to the 
programs in our schools. Every child can learn, but parents and 
teachers know that all children do not achieve at the same rate and in 
the same way.
    I have had teachers tell me the pressure on schools to meet 
Adequate Yearly Progress in math and reading is so strong that they are 
forced to abandon teaching anything other than what is to be tested.
    We recently gathered together several of our members, along with 
school administrators to discuss this law. During the course of our 
discussion, one teacher said, ``The PSSA test is dominating my 
classroom. Each year as the stakes get higher, I spend more time 
teaching how to take tests than teaching my curriculum.'' The PSSA is 
the state-prescribed test in Pennsylvania for demonstrating Adequate 
Yearly Progress.
    Another teacher said, ``We have a gun at our heads. We must meet 
the requirements, but we don't have the tools or the funding to offer 
the interventions that are proven to help children succeed.''
    Our vocational-technical school educators point out that they are 
not teaching all the important skills in many of their programs because 
they are working to ensure that their students pass the math and 
reading tests. They believe this law is causing them to send their 
graduates into the work force with fewer skills now than before this 
law was enacted.
    A special education teacher had this to say: ``Important life 
skills curricula are being sacrificed to teach to a test that does not 
measure the identified goals of the IEP.''
    The most resounding message that I receive from my members is that 
they have been set up for failure by NCLB. And that is very 
disheartening. Educators do not object to accountability. But they do 
understand that reducing the complicated process of educating a child 
to a specific test score is at best problematic, if not impossible.
    Our National Education Association lobbyists have circulated to 
this subcommittee our recommendations specific to the education budget. 
I want to highlight briefly these points:
  --Funds for Title I and special education must be funded at their 
        promised levels, and
  --The programs that work to improve student learning--many of which 
        are eliminated by the proposed budget, must be continued and 
        fully funded. These include Dropout Prevention, Gifted and 
        Talented programs, School Counseling and Smaller Learning 
        Communities. They all have a track record of success.
    Before I end my remarks, I must mention the sanctions portion of 
the Act. Secretary Paige and his staff continually assert that the NCLB 
is based upon research.
    One of the remedies for schools not making AYP is to convert them 
to charter schools. The law also allows for privatization of school 
services.
    Where is the evidence that charter schools, that for-profit 
schools, that cyber schools, that private education services succeed in 
improving student performance? The evidence of the success of these so-
called ``remedies'' does not exist. Yet these are the ``remedies'' for 
schools not making AYP.
    We believe that if this Administration were interested in improving 
public schools for all children, if it were interested in making Great 
Public Schools for Every Child, it would focus less on punishment and 
more on what actually works.
    It would provide the funds to reduce class size--especially in our 
schools which serve the most-difficult to reach students. It would 
provide initiatives for full-day kindergarten, and it would fully fund 
Head Start.
    There is indisputable evidence that these programs make a 
difference in students' long-term success.
    Frankly, Mr. Chairman and members of the subcommittee, I don't 
believe that the No Child Left Behind Act can be ``fixed'' as long as 
it is focused on punishment and abandonment and not on what will make 
our schools better for every child.
    Our educators want a fair opportunity to show progress in their 
efforts. We need to remove the threat of No Child Left Behind and 
replace it with a helping hand. Replace it with fully-funded programs 
that work, and replace it with the encouragement our teachers, our 
school support professionals, our administrators, our students and 
their parents need to make our public schools great for every child.
    Again, thank you for this opportunity to share my thoughts.
STATEMENT OF DR. MELISSA JAMULA, SUPERINTENDENT, 
            READING SCHOOL DISTRICT
    Senator Specter. We have to turn now to Dr. Melissa Jamula, 
superintendent of schools for the Reading School District. 
We'll put your impressive curriculum vitae and statement in the 
record. Dr. Jamula, you have 5 minutes.
    Dr. Jamula. Thank you, Senator Specter, and thank you for 
the opportunity to speak with you today about No Child Left 
Behind. I would request that the testimony be submitted for the 
record.
    As superintendent of a large urban school district, I 
strongly support the tenets that No Child Left Behind was 
created to support. I absolutely believe that all children can 
succeed and that public schools should be held accountable for 
that success. I believe that every child has the right to be 
taught by highly qualified teachers in a safe environment.
    Those beliefs, as stated in No Child Left Behind, without 
question should be the hallmarks that drive our public 
education. But I also believe that there are specific mandates 
within the law that undermine the spirit of No Child Left 
Behind and truly discriminate against poor minority children 
and the schools that serve them, and I believe that Congress' 
willingness to address these mandates will be fundamental to 
whether or not No Child Left Behind goes down in history as a 
piece of legislation that significantly helped to improve the 
quality of education by all of America's children, or as 
legislation that derailed public schools.

                        READING SCHOOL DISTRICT

    Today I would like to provide you with what I think to be a 
vivid example of how one school district is struggling without 
success to comply with the mandates of No Child Left Behind. 
I'm the superintendent of the Reading School District in 
Reading, Pennsylvania. Of the 501 school districts in 
Pennsylvania, we are the fifth largest. We have a diverse 
student body, 64 percent of our children are Hispanic, 19 
percent are white, 15 percent are African-American, 2 percent 
are Asian or other nationalities. Of our student population, 12 
percent are formally identified as students in the English 
language acquisition program and another 12 percent are 
formally identified as special education students.
    About 3 years ago, the Pennsylvania Department of Education 
hired Standard & Poor's to compare data on the 501 school 
districts in Pennsylvania. In order for you to understand my 
grave concerns as they exist in No Child Left Behind, I need to 
have you please consider these facts about the Reading School 
District. Compared to the other 500 school districts in 
Pennsylvania, the Reading School District ranks in the 98th 
percentile for the percentage of students who are at or below 
the poverty line. We rank in the 99th percentile for children 
who have English as their second language. We are in the 100th 
percentile for mobility.
    Last year, the Reading School District had 16,280 students. 
From the time we opened our doors in September until May 1, 
over 8,000 students either enrolled or disenrolled from one of 
our schools. We rank in the 100th percentile for our dropout 
rank. We rank only in the 1st percentile for adults in the 
community with a high school diploma, and conversely, in the 
99th percentile for single-parent households.
    We have a very needy student and community population, but 
although we are a poor community, we place high value on our 
children's education. The citizens of Reading make the highest 
local tax effort in Berks County and are in the top 15 percent 
in the State of Pennsylvania, yet we're able to spend $2,000 
less per student than the average. We have a $106 million 
general fund budget. If we could spend only the average of the 
State's spending per child, we could increase that budget by 
over $33 million. In truth, if we could spend what our 
neighbors directly to the north of us spend, we could increase 
that budget by $70 million.
    To me it is unconscionable that in this country the quality 
of a child's education is determined by his zip code. For those 
who argue otherwise, I would ask you to consider these facts. 
Again, as compared to the other 500 school districts in 
Pennsylvania, the Reading School District is in the 93rd 
percentile for the number of students per teacher, the 92nd for 
classrooms with 30 or more children. We're in the 99th 
percentile for the number of students who need to share one 
computer. We're in the 99th percentile for students per 
administrator and the 88th percentile for our professional 
turnover rate.
    We have many children with many needs, and as our teachers 
and our children are working so hard every day to close the 
educational gaps, these children have--when they enter our 
schools, they're being told by No Child Left Behind that 
they're failures.
    Members of Congress, we know exactly what needs to be done 
to give these children the same opportunities as other children 
across the Nation.
    Senator Specter. Dr. Jamula, you have 30 seconds.

                           PREPARED STATEMENT

    Dr. Jamula. Yes, thank you. But these initiatives will take 
tens of millions of dollars, dollars that we don't have. I urge 
Congress to fully fund the mandates of No Child Left Behind. I 
urge Congress to reconsider the mandates for the current method 
of evaluating and testing special education students. I urge 
Congress to reconsider the timelines established for the 
evaluation of children who are limited English proficient, and 
I urge Congress to consider to hold us accountable by 
instituting value-added evaluations for special education and 
limited education students.
    [The statement follows:]
                Prepared Statement of Dr. Melissa Jamula
    Members of Congress: Thank you for the opportunity to speak to you 
today about No Child Left Behind.
    As superintendent of a large urban school district, I strongly 
support the tenets upon which No Child Left Behind was created: I 
believe that all children can succeed; that public schools should be 
held accountable for their success; that we should focus special 
attention on children who have traditionally been underserved; and, 
that all children deserve to be taught by qualified teachers in a safe 
environment. Those beliefs, as stated in No Child Left Behind, without 
question, should be the hallmarks that drive our public education 
system.
    But I also believe that there are specific mandates within No Child 
Left Behind that undermine the spirit of the law and truly discriminate 
against poor, minority children and the schools that serve them. I 
believe that Congress' willingness to address these mandates will be 
fundamental to whether No Child Left Behind goes down in history as a 
piece of legislation that helped to significantly improve the quality 
of education received by all of America's children, or as legislation 
that de-railed the public school system.
    Today, I would like to provide you with a vivid example of how one 
school district is struggling, without success, to comply with No Child 
Left Behind.
    I am the superintendent of the Reading School District in Reading, 
Pennsylvania. Of the 501 school districts in Pennsylvania, we are the 
fifth largest, with approximately 16,700 students. We have a diverse 
student body: 64 percent of our students are Hispanic; 19 percent are 
white; 15 percent are African American; and 2 percent are Asian or 
other nationalities. Of our student population, 12 percent of the 
children are in a formal English Language Acquisition Program and 
another 17 percent are formally identified as special education 
students.
    About three years ago, the Pennsylvania Department of Education 
hired Standard and Poors to analyze annually thousands of pieces of 
data, comparing the 501 school districts in the state. This analysis 
ranges from academic performance to finances to demographic data. In 
order for you to understand my grave concerns about meeting the 
mandates of No Child Left Behind, consider these facts about the 
Reading School District. Compared to the other 500 school districts in 
Pennsylvania, Reading School District ranks in the:
  --98th percentile for the percentage of students at or below the 
        poverty line
  --99th percentile for the percentage of children who have English as 
        their second language
  --100th percentile for mobility (Last year, the Reading School 
        District had 16,280 students. From the time we opened our doors 
        in September, until May 1, we had over 8,000 children either 
        move into or from one of our schools!)
  --100th percentile for our drop out rate
  --1st percentile for adults in the community with at least a high 
        school diploma
  --99th percentile for single parent households
    As you can see, indicators suggest we have a needy student 
population. Although we are a very poor community, our community places 
a high value on our children's education: The citizens of Reading make 
the highest local tax effort of the 18 school districts in Berks County 
and rank 75th, or in the top 15 percent, in Pennsylvania. Yet, we are 
able to spend $2,000 less per student than either our county or the 
state average. We have a $106 million general fund budget. If we could 
spend the average of what our peers spend, we could increase that 
budget by over $33 million! In truth, if we could spend what our 
neighboring school district directly to the north spends, we could 
increase our budget by $70 million. To me, it is unconscionable that, 
in this country, the quality of a child's education is determined by 
his zip code. For those who would argue otherwise, I would ask you to 
consider these facts. Again, compared to the other 500 school districts 
in Pennsylvania, the Reading School District ranks in the:
  --93rd percentile for the number of students per teacher
  --92nd percentile for classrooms with 30 or more children
  --99th percentile for the number of students per computer
  --99.8th for students per administrator (meaning, of course that we 
        have one of the leanest administrative staffs in the state)
  --88th percentile for our professional turnover rate (Our starting 
        teacher salaries are approximately $10,000 below both our 
        county and state averages.)
    In spite of these numbers, I believe we have an excellent school 
district. I say that not only as the superintendent, but as a parent 
whose child is thriving as a junior at Yale, due largely to the 
educational foundation she received in the Reading School District.
    But we have many children with many needs. And, as our teachers and 
our children are working so hard to close the educational gaps these 
children have when they enter school, they are now being told that they 
are failures according to No Child Left Behind.
    Members of Congress, we know exactly what needs to be done to give 
our children the same educational opportunity to succeed as other 
children across this nation. Given the resources, we would increase the 
length of the school day and the school year, we would institute all 
day kindergarten, we would significantly reduce our class size at every 
level for all children and would assure that children who have English 
as their second language are in classrooms with not more than 15 
children, and are taught by teachers and assisted by aides who both are 
truly bilingual, so that these children learn English, but not at the 
expense of their education. We would provide smaller class sizes, more 
intense interventions and year round school for our special education 
students. We would use technology as an effective educational tool to 
meet the varied needs of our students. And that's just the beginning.
    Our schools that have been placed in Year One of School Improvement 
under No Child Left Behind have complied with a mandate under this law 
and have written school improvement plans. They have written these 
initiatives into their plans.
    But these initiatives will take tens of millions of dollars; money 
we don't have; money that has not been provided through the enactment 
of No Child Left Behind. Although our federal funds have grown by about 
$6 million since 1999, given our growth in student population, which 
consistently is between 300 and 350 students a year for the past 15 
years, and, given the profile of the children who are entering our 
school district, we actually are able to spend two dollars less per 
eligible child using federal funds than in 1999!
    I urge Congress to fully fund the mandates of No Child Left Behind, 
so that our children, all of our children, are given the educational 
opportunities they deserve.
    I urge Congress to reconsider the mandates for the current method 
of testing special education children and I urge Congress to require 
that No Child Left Behind mandates are consistent with the mandates of 
IDEA.
    I urge Congress to reconsider the timelines established for the 
evaluation of children who are limited English proficient and develop 
evaluation methods for these children that are consistent with bodies 
of research that speak to the number of years it takes for a child, 
particularly for a child of poverty, to adequately develop academic 
vocabulary.
    I urge Congress to continue to hold public schools accountable for 
the achievement of both special education children and children who are 
limited English proficient by requiring value-added testing, designed 
to show the academic growth that each of these children makes each 
year.
    Members of Congress, while I speak from the point of view of a 
superintendent in an urban school district, it is important for you to 
know that many of my concerns are shared by superintendents of some of 
the wealthiest, most academically successful school districts in 
Pennsylvania. Recently, 138 superintendents, from a 14 county region in 
Pennsylvania, signed their name to a position paper relative to No 
Child Left Behind, which I have included with my testimony.
    I thank you for your time today and I urge you to honor the intent 
of the No Child Left Behind law by addressing the mandates within this 
law that will surely undermine its effectiveness.

    Senator Specter. Thank you, Dr. Jamula.
STATEMENT OF DR. JAMES SCANLON, SUPERINTENDENT OF 
            SCHOOLS, QUAKERTOWN COMMUNITY SCHOOL 
            DISTRICT
    Senator Specter. Dr. Jim Scanlon, superintendent of schools 
with the Quakertown Community School District. We'll put your 
impressive curriculum vitae in the record.
    Dr. Scanlon. Yes, thank you very much. I'm here speaking on 
behalf of the superintendents from 138 school districts 
representing 14 counties in Pennsylvania, including those 
suburban counties around Philadelphia and near our capital of 
Harrisburg.

                        NO CHILD LEFT BEHIND ACT

    It's extremely rare that an issue has the power to 
galvanize and unite districts so solidly. In fact, I've never 
known one issue to arouse so much concern and unity. These 
districts are committed to educational excellence, quality 
instruction, and accountability for results, all qualities that 
No Child Left Behind Act strives to promote.
    Each of us supports the concepts of high standards, using 
data for decision-making, creating school profiles and giving 
information to parents in parent-friendly language, again all 
goals of the Act. But there are three major concerns we have 
about this law. One, it's inherently unfair to special 
education students and conflicts with the Federal law, IDEA, 
Individuals With Disabilities Education Act. Two, it disregards 
the needs of students who demonstrate limited English 
proficiency. And three, it disregards the amount of time, 
funding, and resources to meet the requirements in the law.
    Children with disabilities have to participate in their 
respective State testing programs. They're not designed for 
children who have disabilities. Therefore, these tests do not 
accurately reflect their academic progress.

                   NO CHILD LEFT BEHIND ACT AND IDEA

    No Child Left Behind and IDEA are two laws that are 
polarized. That is, IDEA says special education students are 
entitled to progress at different rates. No Child Left Behind 
says all students must progress at the same rate. IDEA says 
special education data sources tailored to a student's 
capabilities must be used to assess his or her progress, while 
No Child Left Behind says standardized test data must be used 
to assess progress. IDEA measures student progress against 
standards based on current levels of performance. No Child Left 
Behind measures progress against universal grade-level 
standards.
    Basically, No Child Left Behind has no consideration for 
the special learning needs of special education students. We're 
being asked to answer to two completely contradictory Federal 
laws and our special needs students are caught in the middle.

                   LIMITED ENGLISH SPEAKING STUDENTS

    No Child Left Behind requires non-English-speaking students 
to be assessed during their first year of attendance in school 
in the United States. In effect, these limited-English-speaking 
students are being forced to take a test many of them don't 
even understand. Research shows it takes 5 to 7 years for 
students to learn the language proficiently.

                   COSTS OF NO CHILD LEFT BEHING ACT

    Many of our school district budgets receive between 1 and 2 
percent of Federal money. Most of it comes in the form of title 
I funds, which is targeted for early childhood reading and 
math. No Child Left Behind forces us to spread the title I 
funds across our entire district, and although title I funds 
have increased, they have not increased in proportion to the 
number of children those funds are now supposed to cover. It's 
like giving someone a queen-sized comforter instead of a sofa 
throw but now asking them to keep 10 people warm with it 
instead of two. Someone's going to be left out in the cold.
    Districts will also have to incur other costs because of No 
Child Left Behind. They include hiring and training 
professionals to meet highly qualified provisions, 
transportation costs for families exercising school choice 
options, additional infrastructure and staff for analyzing test 
scores, the cost of additional teachers and aides to provide 
remediation. The list goes on and on.

                 FLEXIBILITY FOR IDEA AND LEP STUDENTS

    We're asking you to do the following to help us better 
educate and change what we firmly believe is destructive rather 
than constructive legislation. One, allow special education 
students' progress to be measured by the assessments in their 
individual education plans protected under the Federal law, 
IDEA. Essentially, allow IDEA to drive the evaluation of 
special education students.
    Two, provide sufficient time and accommodations for 
assessing limited-English-speaking students, and I know 
Secretary Paige has addressed some of that recently. However, 
we believe one year is not quite enough. Give them more time to 
learn the language before they're tested.

                           PREPARED STATEMENT

    Fully fund No Child Left Behind to support schools and 
districts. Study, analyze, collect data, and learn how much 
this law and its changes will really cost us, and then 
adequately fund it so that we can fulfill the requirements.
    We'll continue to work to provide the best learning 
environments possible for our students and staff. It's our duty 
to point out the flaws in this law, and I hope you will work 
with us, not against us, toward the common goal of educating 
our children. Thank you for listening and learning with us.
    [The statement follows:]
               Prepared Statement of Dr. James R. Scanlon
    I am here speaking on behalf of the superintendents from 138 school 
districts, representing 14 counties in Pennsylvania, including those in 
suburban Philadelphia and near our capital of Harrisburg.
    It is extremely rare that an issue has the power to galvanize and 
unite districts so solidly--in fact, I've never known one issue to 
arouse so much concern and unity.
    These districts are committed to educational excellence, quality 
instruction and accountability for results, all qualities that the No 
Child Left Behind Act strives to promote. Each of us supports the 
concepts of high standards, using data for decision-making, creating 
school profiles and giving information to parents in parent-friendly 
language--again, all goals of the Act. BUT--there are three major 
concerns we have about this law:
    1. It's inherently unfair to special education students and 
conflicts with the federal law, IDEA (Individuals with Disabilities in 
Education Act).
    2. It disregards the needs of students who demonstrate limited 
English proficiency.
    3. It disregards the amount of time, funding and resources to meet 
the requirements in the law.
    Children with disabilities have to participate in their respective 
state testing programs--that are NOT designed for children who have 
disabilities--therefore these tests do not accurately reflect their 
academic progress.
    No Child Left Behind and IDEA are two laws that are polarized--that 
is, IDEA says special education students are entitled to progress at 
different rates. No Child Left Behind says all students must progress 
at the same rate. IDEA says specialized data sources tailored to a 
student's capabilities must be used to assess his or her progress. No 
Child Left Behind says standardized data sources must be used to assess 
progress. IDEA measures student progress against standards based on 
current levels of performance. No Child Left Behind measures progress 
against universal grade level standards. Basically, No Child Left 
Behind has no consideration for the special learning needs of special 
education students. We are being asked to answer to two completely 
contradictory federal laws, and our special needs students are caught 
in the middle.
    No Child Left Behind requires non-English speaking students to be 
assessed during their first year of attendance in school in the United 
States. In effect, these limited English speaking students are being 
forced to take a test many of them don't even understand. Research 
shows it takes five to seven years for students to learn the language 
proficiently.
    Many of our school district budgets receive between one and two 
percent in federal money--most of it comes in the form of Title One 
funds, which is targeted for early childhood reading and math. No Child 
Left Behind forces us to spread the Title One funds across our entire 
district--and although Title One funds have increased, they have not 
increased in proportion to the increase in the number of children those 
funds are now supposed to cover. It's like giving someone a queen-size 
comforter instead of a sofa throw but now asking them to keep 10 people 
warm with it instead of two. Someone's going to be left out in the 
cold.
    Districts will also have to incur other costs because of No Child 
Left Behind. They include: hiring and training paraprofessionals to 
meet ``highly qualified'' provisions; transportation costs for families 
exercising school choice options; additional infrastructure and staff 
for analyzing test scores; the cost of additional teachers and aides to 
provide remediation. The list goes on and on.
    We are asking you to do the following to help us better educate our 
children and change what we FIRMLY believe is destructive, rather than 
constructive legislation:
    1. Allow special education students' progress to be measured by the 
assessments in their individualized education plans, protected under 
the federal law, IDEA. Essentially, allow IDEA to drive the evaluation 
of special education students.
    2. Provide sufficient time and accommodations for assessing limited 
English speaking students--essentially, give them more time to learn 
the language before they are tested.
    3. Fully fund No Child Left Behind to support schools and 
districts--study, analyze, collect data, and learn how much this law 
and its changes will really cost us--and then adequately fund it--so 
that we can fulfill the requirements.
    We will continue to work to provide the best learning environments 
possible for our students and staff. It is our duty to point out the 
flaws in this law, and hope you will work with us, not against us, 
toward the common goal of educating our children.
    Thank you for listening, and learning with us!

    Senator Specter. Thank you very much, Dr. Scanlon. As I 
said earlier, Secretary Paige has to leave at this point, but 
he's very graciously agreed to meet with all of you at 2 p.m. 
this afternoon in his office. I want to announce that there are 
others who have come from Pennsylvania--Dr. Jacob Dailey, who's 
the director of legal and external relations at the Chester 
County Intermediate Unit; Dr. Mary Lou Folts from the 
Tredyffrin/Easttown School District; Dr. Melody Wilt from the 
Chester County Intermediate Unit; and Dr. Mark Dietz from the 
Wyomissing Area School District. And those folks may be 
included as well, Secretary Paige.
    I'll have one of my staffers take you over. Secretary Paige 
has to leave at this point, and we're going to interrupt the 
hearing for just a few minutes and we'll resume with the 
balance of the witnesses in just a few minutes.
    Secretary Paige. Can we say thank you very much for your 
leadership and the opportunity to come and testify before you.
    Senator Specter. You're very welcome, Mr. Secretary. The 
issues here are very important and I appreciate your open ear. 
It's good to have the Secretary's ear and even better to have 
the Secretary's pen, but you start with his ear. And what we're 
always doing around here, and you saw a number of Senators 
wanted to ask more questions, but we have so much time and so 
many commitments. But you have provided the very good safety 
valve, Mr. Secretary, by being willing to meet this afternoon, 
and for the record here, we'll continue to hear from the 
witnesses after a very brief recess.
    I regret the interruption, but I had to address a veterans 
convention in Harrisburg. There's a great problem when somebody 
is selected to the Senate and he or she is not twins or 
triplets.
STATEMENT OF DR. MARIE SLOBOJAN, DIRECTOR OF 
            INSTRUCTION, TREDYFFRIN/EASTTOWN SCHOOL 
            DISTRICT
    Senator Specter. I return now to Dr. Marie Slobojan, 
director of instruction, staff development, and planning at the 
Tredyffrin/Easttown School District. I'm sorry that you don't 
have the Secretary here, but you have--would you identify 
yourself for the record?
    Mr. Simon. Yes, I'm Ray Simon. I'm Assistant Secretary for 
Elementary and Secondary Education.
    Senator Specter. And this gentleman is right in line with 
the issues, but you'll have the Secretary's ear, as I said 
earlier, at 2 p.m. Dr. Slobojan, thank you for joining us and 
we look forward to your testimony.
    Dr. Slobojan. Thank you for inviting us to discuss the 
impact of the reauthorization of the Elementary and Secondary 
Act in the Tredyffrin/Easttown School District. As you can see 
from the district profile that we submitted, Tredyffrin/
Easttown School District is a high-performing K-12 district as 
determined by multiple measures of performance, including 
scholastic aptitude tests, educational record tests, and 
advanced placement standardized tests.
    We consider the SAT a particularly informative measure of 
our performance, because typically 100 percent of our students 
participate in this test. Our average daily attendance is 96.6 
percent and we graduate 99.9 percent of our students. We take 
our responsibility to educate every child very seriously by 
setting and enforcing strong standards of accountability for 
our district.
    The Pennsylvania School System of Assessment is the single 
academic measure of performance that defines the district's 
adequate yearly progress. Students must perform at the 
proficient or above-proficient level.

                  TREDYFFRIN/EASTTOWN SCHOOL DISTRICT

    The 2002-03 Standard & Poor's report for our district 
states the following: Statewide, none of Pennsylvania's school 
districts report a greater proportion of test scores that meet 
or exceed State standards. Statewide, none of Pennsylvania's 
school districts report higher proportions of scores in the 
advanced performance level. Across the State, none of 
Pennsylvania's districts report a smaller proportion of scores 
in the below-basic performance level.
    In spite of such an extraordinary record of meeting the 
needs of children, strongly supported by our community, the 
current version of the Elementary and Secondary Education Act 
has endangered the public school students in our district.
    Point one, all students in our school district are 
currently experiencing a skewed educational program designed to 
ensure their success on the Pennsylvania assessments in 
mathematics and reading. Placing this emphasis on a single 
high-stakes test detracts from the rich curriculum and creative 
environment that promotes self-directed, lifelong learning that 
students in our district have come to expect.
    Teachers within the district feel constrained by the narrow 
parameters suggested in the State curriculum. We believe that 
our compliance with this initiative results in our providing a 
regressive educational experience for our students.
    Second, our district receives no title I funds. Therefore, 
any compliance action we take is funded from our local 
resources. This means that we redirect our funds from existing 
programs with demonstrated success.
    Point three, in the 2002-03 school year, we were audited in 
our special education program and identified as having 
exemplary practices for the State of Pennsylvania. This year, 
we anticipate that we will placed on the warning list for this 
special education subgroup. We believe that this will start our 
6-year march to privatization in the Tredyffrin/Easttown School 
District.

           NCLB ACT AND THE INDIVIDUALS WITH DISABILITIES ACT

    We believe the principles of the No Child Left Behind 
legislation violate the instructionally sound framework of the 
Individuals with Disabilities Act. Principle one, children 
learn at different rates. Principle two, valid student 
assessment involves multiple data sets. Principle three, 
effective instruction and assessment is delivered at the 
student's instructional level. The result is that these 
students are experiencing stress, fear, and they risk being 
ostracized due to their inclusion in a federally labeled 
subgroup.

            NCLB ACT AND LIMITED ENGLISH PROFICIENT STUDENTS

    Point four, we currently have 111 English language learners 
speaking 29 different languages. The Federal requirements for 
testing are inconsistent with the research, which suggests it 
takes approximately 7 years for non-native speakers of English 
to acquire proficiency to perform on standardized tests.
    During the testing period, students demonstrate anger and 
frustration. Students who are about to take this test feel as 
though they are forced to show that they will fail. The sense 
of failure has made it difficult to encourage students to learn 
English and to improve their proficiency. In effect, the law is 
having the exact opposite effect it was designed to promote.
    Senator Specter. Thirty seconds left.

                           PREPARED STATEMENT

    Dr. Slobojan. I'll just skip to my concluding remarks. In 
order to effectively assess the progress of our students for 
the purposes of adequate yearly progress, please include 
multiple assessments, factor subgroups into an equation that 
weights their proportion within the school population as a 
whole, develop appropriate assessments and have comparable 
tests and standards across all States.
    We ask you to amend the legislation to fairly assess the 
multiple dimensions of human intelligence and to respect the 
dignity of every student.
    [The statement follows:]
                Prepared Statement of Dr. Marie Slobojan
    Honorable Senators: Thank you for inviting us to discuss the impact 
of the reauthorization of the Elementary and Secondary Education Act in 
Tredyffrin/Easttown School District.
    As you can see from the District profile, Tredyffrin/Easttown is a 
high-performing K-12 school district, as determined by multiple 
measures of performance including Scholastic Achievement Tests, 
Educational Records Bureau tests and Advanced Placement standardized 
tests. We consider the SAT a particularly informative measure of our 
performance because typically 100 percent of our students participate 
in this test. Our average daily attendance is 96.6 percent and we 
graduate 99.9 percent of our students. We take our responsibility to 
educate every child very seriously by setting and enforcing strong 
standards of accountability for our district.
    The Pennsylvania School System of Assessment, or PSSA, is the 
single academic performance measure that defines the district's 
Adequate Yearly Progress where students must perform at the proficient 
or above proficient level. The 2002-03 Standard & Poor's report for our 
District states the following:
  --Statewide, none of Pennsylvania's school districts report a greater 
        proportion of test scores that meet or exceed state standards.
  --Statewide, none of Pennsylvania's school districts report higher 
        proportions of scores in the Advance performance level.
  --Across the state, none of Pennsylvania's districts report a smaller 
        proportion of scores in the Below Basic performance level than 
        this district.
    In spite of such an extraordinary record, of meeting the needs of 
every child, strongly supported by our community, the current version 
of the Elementary and Secondary Education Act has endangered the public 
school students in our district.
                                point 1
    All students in our school district are currently experiencing a 
skewed educational program designed to ensure their success on the 
Pennsylvania assessments in mathematics and reading. Placing this 
emphasis on a single high-stakes test detracts from the rich curriculum 
and creative environment that promotes the self-directed life-long 
learning that students in our district have come to expect. Teachers 
within our district feel constrained by the narrow parameters suggested 
in the state curriculum. We believe that our compliance with this 
initiative results in our providing a regressive educational program 
for our students.
                                point 2
    Our District receives no Title I funds. Therefore, any compliance 
action we take is funded from local resources. This means that we 
redirect funds from existing programs with demonstrated success to 
programs that provide remediation for state testing.
                                point 3
    The 2002-03 school year audit of our Special Education Program 
identified our District as having exemplary practices. In 2003-04, we 
anticipate that we will be placed on the warning list for this special 
education sub-group, thus starting the six-year march to privatization 
for the Tredyffrin/Easttown School District.
    We believe the principles embodied in the No Child Left Behind 
legislation violate the instructionally sound framework of the 
Individuals with Disabilities Act.
    Principle 1.--Children learn at different rates.
    Principle 2.--Valid student assessment involves multiple data sets.
    Principle 3.--Effective instruction and assessment is delivered at 
the student's instructional level.
    The result is that these children are experiencing stress and fear 
and risk being ostracized due to their inclusion in a federally labeled 
sub-group.
                                point 4
    Currently we have 111 students in our English Language Learners 
program, speaking 29 different languages. The federal law requires that 
these students be tested in English following three years of tutoring 
in English. Research indicates that it takes a minimum of 7 years for a 
nonnative speaker of English to gain the proficiency level that 
translates into successful performance on most standardized tests.
    During the test, students taking the assessment have demonstrated 
anger and frustration. Going through a test where only the directions 
were translated made the students feel as though they were forced to 
demonstrate what they did not know. Currently students who are about to 
take this test feel that they are forced to participate in an 
assessment they will fail. This sense of failure has made it difficult 
to encourage students to learn English and to improve their 
proficiency. In practice, this law is having the exact opposite effect 
it was designed to promote.
                                point 5
    Pennsylvania's calculation of Adequate Yearly Progress places 
students in our Commonwealth at a disadvantage to students in other 
states. This disadvantage occurs because the proficiency in standards 
across the United States punish students in states where the standards 
are high. For school districts such as ours, that already meet the 
state's annual requirements, this concept is regressive. While other 
school districts have until the year 2014 to meet these goals, the high 
achievement of our district's students places us on the warning list if 
we marginally drop from the high standards that we currently achieve.
    In order to effectively assess the progress of our students for the 
purposes of Adequate Yearly Progress we recommend the following 
changes.
    1. Include multiple assessments of academic performance in the 
Adequate Yearly Progress formula.
    2. Factor sub-groups into an equation that weights their proportion 
within the school population as a whole. In this way sub-groups would 
not carry the same weight as the entire school population.
    3. Develop assessments that are appropriate for students with 
special needs and those who are English Language Learners. Use those 
assessments in the Adequate Yearly Progress calculation.
    4. Have comparable tests and standards across all states for the 
calculation of Adequate Yearly Progress.
    The Tredyffrin/Easttown community is proud of the public education 
that it provides for its students. We have always accepted 
responsibility and demonstrated accountability for the performance 
results of every student that we serve. We respectfully request 
amendments to the legislation to fairly assess the multiple dimensions 
of human intelligence and to respect the dignity of every student that 
is educated in public school districts across this nation. Thank you 
for your attention.

    Senator Specter. Dr. Slobojan, we have your point and we 
thank you very much. Moving right down the table in sequence, 
sitting next to Dr. Slobojan is Mr. Samuel Evans. Mr. Evans is 
the founder of the American Foundation for Negro Affairs, a 
long list of accomplishments, being appointed by President 
Roosevelt. Was that Franklin or Theodore, Mr. Evans?
    Appointed by President Roosevelt, I know it was FDR, as the 
coordinator of the U.S. Division of Physical Fitness. President 
Johnson appointed him as czar of the war on poverty. He's the 
founder of Youth City, the cooperative education extension 
service and the family of leaders.
    Mr. Evans celebrated his 101st birthday last November. Sam 
Evans was older than Strom by a full month. Sam Evans is about 
the only man in America who could--who did refer to Strom 
Thurmond as one of the young guys.
STATEMENT OF SAMUEL LONDON EVANS, FOUNDER, AMERICAN 
            FOUNDATION FOR NEGRO AFFAIRS
    Senator Specter. Mr. Evans, we're honored to have you here, 
and you have wanted to meet with Superintendent Paige for some 
time. We're going to put your testimony in the record and this 
afternoon you're going to have a chance to meet with Secretary 
Paige. It's an honor to have you here, Mr. Evans.
    Mr. Evans. Thank you, Mr. Chairman. Let me say right away 
that I was up this morning around 3:30, 4:00 to be sure I get 
here because when Senator Specter calls me, I have to go. Let 
me say right away that I asked President Carter, when he was 
running for office, to set up the Department of Education. 
Everywhere I go I hear people talking about education. Nations 
of the world are rated on three things: what percent of that 
nation is educated; number two, what percent is economic 
secure; and number three, what is their behavior pattern and 
sense of values?
    It is right here our behavior pattern and sense of values 
in education that is destroying America's democracy. America 
ranked 22 among the nations in science, mathematics, and 
education. It means then that the United States--21 nations in 
the world are greater educated than we are. It's because our 
behavior pattern and sense of values about education is 
contaminated with colonial concepts.
    Every step of the way it is preventive rather than 
encouraging. Let's take one instance. When you put a power in 
the hand of an individual today, the success of a student on 
any level is no further than the pen or pencil of his professor 
teacher. He has that power. But that awesome power is the 
control numbers. If you take up the philosophy of education, 
take it up and study it, you'd be amazed at the--how many 
individuals understand the American--you see, for instance, 
goal from K to graduate school, you come out, they will believe 
in six things, six, and those six will aid the controlling 
power and harm the other group.
    Number one, they believe in war, w-a-r, war. You keep the 
guns. Now you got population to deal with, we got to cut them 
up, cut them up into pieces, so therefore, number two, you 
believe in getting ahead of others rather than getting rid of 
the others. And number three, you believe in class distinction.
    Senator Specter. Mr. Evans, you have 1 minute left.

                           PREPARED STATEMENT

    Mr. Evans. Number four, you believe in authority. I'm sorry 
that I come here today, but I'd be glad to talk to anyone. I 
want to end by saying this, that the American educational 
system must be purified. Thank you.
    [The statement follows:]
               Prepared Statement of Samuel London Evans
    The Frontiers Of Knowledge In: Integrated Concepts Of Science, 
Philosophy And Education Is Eliminated From The Established Schools Of 
Learning That Propagates Specialization. Therefore, The Curriculum Is 
Limited To Only ``One'' Of The Following Subjects:
    1. Philosophy Of Education
    2. Basic Concepts And Modern Physic
    3. Theory Of Values
    4. Nature Of Mathematics
    5. Anthropology
    6. Astronomy
    7. Paleontology
    8. Stars And Nebulae
    9. The World Of Crystal
    10. Direct Implicit In The Structure Of Earth
    11. Gestalt Psychology
    12. The Nature Of Aesthetics
    13. Signs Symbols And Personalities
    14. Laws Of Density
    15. The Nature Of Meteorology
    16. The Nature Of Etiquette
    In This Connection, Students Who Are Limited To: ``Only One,'' Of 
The Above Subjects, Are Recognized As ``Educated Models,'' However, The 
AFNA Program Serves In Two Or More Capacities:
    ONE.--``The AFNA Plan,'' Prepares The Student To Meet The Academic 
Requirements Of The School He Or She Attends, In Order That They May 
Pursue Professional Careers In: Medicine, Law, Computer Science, 
Business And Commerce, To The Humanities.
    TWO.--Beyond This, ``AFNA Students'' Are Privileged To Learn And 
Study The Entire Basic Structure Of: The Frontiers Of Knowledge, In 
Integrated Concepts Of: Science, Philosophy And Education.
    THREE.--Professors And Educators, Will Lecture In: One Of The Above 
Subjects . . . In This Connection, The Students Will Receive A Copy Of 
Each Lecture And Required To Take It Home For Study And Review . . . 
Students Then, Are Required To: Rewrite The Lecture, With The 
Cooperation Of Their Parents And Qualified Neighbors, All Assisting The 
Student . . . ``He'' Or ``She'' Will Then Bring A Copy Back To Their 
Class For Evaluation . . .
    Students Will Receive:
  --Ten Points For Completion
  --Ten Points For Spelling
  --Ten Points For Neatness
  --Ten Points For Format
  --Ten Points For Clarity And Etc.
    Means, The Total Experience Will Bring Academic Surroundings Back 
Into The Home And Made Available To Family And Community, For Study And 
Review . . . With The Desire To Expand The Concept Of Academic 
Scholarly Learning in The Home And Community Level.
    FOUR.--In This Connection, Students Are Required To Keep Copies Of 
Each Lecture For Their Files . . . For It Is Hoped That Each Student 
Will Complete Written Studies Of: ``The Sixteen Subjects, From 7th 
Grade, Through High, College And Graduate School . . .'' Indeed, Such 
An Achievement; Would Place Students On That High Rarefied Academic 
Platform, That Holds Less Than 7 percent of The World's Scholars.
    FIVE.--AFNA Is Not A School, College Or University. AFNA, Is A 
Supplementary Schooling Institute . . . Working And Preparing Students 
To Meet Their Academic Qualifications, In Cooperation With Academic 
Schools Of Learning. Together, AFNA, Universities, And Colleges, Work 
To Obtain The Needed Funds From: Federal, State, City And 
Philanthropists; To Eliminate The Dismissal Of Students For Tuition 
Deficiencies.
    The Need To Eliminate, ``BAR AND BOARD'S FAILURES,'' Based On 
Academic Deficiencies, Of Which The Students Have Already Obtained And 
Qualified Through Their Graduate Schools Of Learning.
    SIX.--Beyond This, AFNA; Requires That Each Student Be Given A Copy 
Of: ``The Declaration Of Independence,'' For Each To Study, Learn, And 
Recite . . . For It Represents The Basic Roots And Meaning Of: ``The 
American Form Of Government'' . . . Which Has Been Largely Eliminated 
In Schools Of Learning.
    Today, At This Writing 2004; 5th Of January, Humanity Is Divided 
Into A Multitude Warring Camps . . . With Each Group Fighting For Their 
Individual Advancement, Based On The Concept Of The Fastest Draw.
    Yet, Humanity Is 99.9 percent The Same, The 1 percent Difference Is 
Environment, Culture And Ethnicity . . . However, ``The AFNA Plan,'' Is 
Based On The Concept:
    ``One God And One Humanity'' . . .
    ``Seek Not Advantage Over Others, Seek Equality And Justice For 
All''
    ``Therefore, Democracy Is The Key, That Provides For Individuals, 
Or Groups, To Work Out Their Own Way Of Life, Without Fear, Or Without 
Hindrances And Without Destructive Attitudes Towards Others.''
    Therefore, No Race, Political Ideology, Religion, Commercial 
Enterprise Are Worth Saving, If It Destroys The Democratic Process Of 
Government.
    ``The AFNA Model,'' Students Learning In Cooperation With Parents, 
Guardians, Relatives, And Friends, Will Join The Other AFNA Graduates . 
. .
  --750 Medical Doctors
  --550 Lawyers
  --96 PhD's
  --4,500 College Graduates
    And Many Other Para-Professionals In The Health Fields.
                               Evaluation

[Mithras Group Ltd., Aaron N. Katcher, M.D., Chairman And Director, Of 
    The Division Of Behavioral Sciences, University Of Pennsylvania]

    Indeed, In Evaluating The AFNA Plan: We List Below The Following 
From: The Mithras Group Ltd., Aaron N. Katcher, M.D., Chairman And 
Director, Of The Division Of Behavioral Sciences, University Of 
Pennsylvania.
                excerpts of the evaluation (mgl) process
    In This Connection, We Know; Doubt Comes From The Thought That You 
Could Be Doing Better. Well-intended, Even Satisfying Effort Is Not 
Always Effective . . . Are The Courses In AFNA The Right Ones, Should 
The AFNA Students Be Spending Their Time In A Laboratory, And Are They 
The Right Students For The Program?
    The Above And The Following Doubts, Are Doubts About ``The Model'' 
. . . ``The Plan'' . . . Is It The Best Mode For A Supplementary 
Minority Education Program? In Describing, ``The Model,'' We Also 
Described How We Displayed That Mode To A Succession Of Audiences In 
Pursuit Of Critical Commentary . . . The Meetings Of The American 
Association Of Medical Colleges, The Conferences Of Educators With 
Interest In Minority Problems, Convened In Philadelphia And New 
Orleans. The Discussions, With Faculties Of The Participating Medical 
Colleges, And The Paper Presented To The Association For Higher 
Education In Chicago.
    One.--In All Of These Meetings, ``The Model''; Was Exposed For 
Evaluation, Amendment And Revision. No Substantive Suggestion For 
Change Were Offered. If There Were Anything Better Or More: The 
Participants In The Program Should Be Doing, Those Who Should Know, 
Were Silent About Describing What That ``More'' Might Be . . .
    Two.--The Next Doubt, Was A Question About The Outcome Of The 
Program . . . That Goes Beyond The Know/edge Of Personall Success Of 
The Students We Have Known In The Program; The Kind Of Description Of 
Outcome That Goes Beyond Individuals, To The Abstraction Of Numbers.
    The Numbers And Findings Have Been Gathered:
    (A) 98 percent Of Those Completing The High School Phase Of The 
Program Go On To College . . .
    (B) College Retention Rate Over All Four Years is 83 percent . . .
    (C) 57 percent Of The Students Entering College, Graduate . . .
    AND THE IMPORTANT BOTTOM LINE,
    (D) 25 percent Of The Students Who Enter College, Go On To 
Graduate, Or To Medical School . . .
    An Evaluation Of The Program Conducted In Cooperation With The 
Educational Testing Service Of Princeton, Demonstrated, The Program's 
High Retention And Graduation Rates From High School . . . This Record 
Was Achieved With Students, Whose SAT Scores Were Well Below The 
Average Goals For Students In College They Attended.
    Therefore, The Evaluation Of ``The Model'' Presented Herein Has Met 
Every Test And Goes Over And Beyond The Usual And Previous Analytical 
Problems Of Leaders. Indeed, ``The Model'' Has Accomplished Its 
Purposes.
    So In Conclusion, When The AFNA Students Have Reached The 
Requirement Of Their Profession, They Will First Direct Their Knowledge 
In:
    ``Building Security Of: The Family, Mother, Father, Guardian, And 
Country . . . The Very Roots Of Your Living And Being, To Meet Their 
Needs In The Sunset Of Their Life.''
    Indeed, Brothers And Sisters, Under This United Conviction, We:
    ``WOULD RATHER RIDE IN AN OX-CART, OR A COVERED WAGON IN A 
DEMOCRACY . . . THAN IN A ROLLS ROYCE, DRIVEN UNDER A DICTATOR.''

    Senator Specter. Thank you very much, Mr. Evans. Thank you 
for your profound statement.
STATEMENT OF C. DELORES TUCKER, FOUNDER, PHILADELPHIA 
            MARTIN LUTHER KING, JR. ASSOCIATION FOR 
            NON-VIOLENT CHANGE
    Senator Specter. We turn now to Dr. C. Delores Tucker, 
founder and national chair of the National Congress of Black 
Women, also founder and president of the Bethune-DuBois 
Institute and the Philadelphia Martin Luther--Dr. Martin Luther 
King, Jr. Association for Non-Violent Change. She served as 
Pennsylvania's Secretary of State, attended Temple University 
and the Wharton School of the University of Pennsylvania. Thank 
you for joining us, Dr. Tucker, and I might add to your regular 
resume your leadership on education at Cheyney and other 
educational institutions.
    Dr. Tucker. Thank you so much. I can't say much about you 
because of the 5-minute rule, but nevertheless, to leave a 
child behind is to leave a child behind forever. We as a Nation 
can ill afford to allow ourselves to slip into a second-rate 
position in any area of global competition. The No Child Left 
Behind Act must be more than a slogan. It must be a reality.
    Outsourcing is one of the problems that we're facing 
because we have not met up to that position of that child being 
educated. I'm going to say all of this to get to my time. There 
is a wealth of undeveloped talent languishing in the urban 
centers of America, but we have the will and the vision to 
really tap into what this Nation needs, a tap into the brain 
pool of wealth. America would be assured of achieving 
educational superiority over all nations in this century.

                       COLLEGE FOR TEENS PROGRAM

    The National Congress of Black Women, the Philadelphia 
Martin Luther King Association, of which you serve on our board 
with our mayor, Senator Specter, we have tapped into this brain 
pool of wealth with our College for Teens program, which grew 
out of our College for Kids program, 9 to 12 years of age, 
which began at the University of Pennsylvania 10 years ago, and 
parents said you can't drop them at 12 years of age, that's 
from 9 to 12. And so I said, what can we do? College for Teens. 
We approached you, and you recognized the need for training our 
young people early.
    Thirteen months after I met with the president of Cheyney 
University, we cut the ribbon for 200 students to live on 
Cheyney's campus in the summer learning the work that they're 
going to have in the fall and being taught by the Princeton 
Review national organization, training them to learn the work 
that they're going to have in the fall, but also geared toward 
enhancing their SAT scores.

            STUDENT PARTICIPANT OF COLLEGE FOR TEENS PROGRAM

    I have one of the young persons here now that was a part of 
the second College for Teens program. We had 246 young people 
living on campus at Cheyney University this past fall--summer 
rather. And she's here today, and I want you to stand right 
here for a minute, quickly please, and tell him what your 
scores increased to when you went into the school and when you 
came out of the school.
    Ms. Dursey. When I started I had----
    Senator Specter. Would you step forward and speak into the 
microphone? First, if you would identify yourself, please.
    Dr. Tucker. You have 5 minutes too, right? Yeah, 2\1/2\, 
2\1/2\. I'll let the child speak.
    Ms. Dursey. Hi, my name is Nakeisha Dursey. I'm a 
Philadelphia student at the Philadelphia High School for Girls. 
When I first started the program my score was 1,140. When I 
left it was 1,400.
    Dr. Tucker. It was 1,100?
    Ms. Dursey. It was 1,140 when I started.
    Dr. Tucker. And then when you left?
    Ms. Dursey. It was 1,400.
    Dr. Tucker. 1,400. That's what we do. Her parents are here, 
her mother is here, and we have others that have come, but we 
just wanted to have a child speak with you today. The first 
year the Princeton Review provided SAT preparation classes for 
all program participants whose student achievement--well, I 
skipped so many pages I'm up to page 6--but the Martin Luther 
King Association for teens exemplifies your program, Senator 
Specter, your zeal for student achievement. One hundred percent 
of all graduating high school seniors from the 202--the 2002 
MLK program successfully completed the college application 
process and were accepted into college. And this last class, 
the 246th, we didn't have the money for it but we reached out 
to do it anyhow.
    I'm saying as I close, I got so far down here I'm at the 
end--with the outsourcing of jobs overseas, education is no 
longer a domestic issue. It is now a global issue. No Child 
Left Behind must become the catalyst for success for all of 
America's students. The law meant to deliver on President 
Bush's campaign promise to improve public school education with 
specific regard to the substandard educational opportunities 
that have been historically offered to poor and minority 
students.

                   AFTER SCHOOL AND SATURDAY PROGRAMS

    Clearly, Senator Specter, you have maximized the funding 
opportunities that we needed because this isn't just the summer 
program. We have an after-school program coupled with this 
where we make sure they stay ahead and they keep ahead of the 
courses and they have--they're great students when they go into 
school and they just say that we're bored now, we don't have 
everything, everybody wants to tell us--want us to tell them 
how to do things.
    Well, we also have a Saturday program where they come in 
and enhance their computer skills and we give them a free 
computer, so we help them in every way, and we just want you to 
know that this year we hope to have 300 students on that campus 
and we've started another College for Teens at Capital College, 
which is right here in Maryland, and the Justice Department has 
said this is one of the model programs that they have seen in 
this country. Nowhere else is this program done, but it's a 
vision that I had because I've been raising and working for 
children all my life.

                         CHILDREN WITHOUT HOMES

    When I was Secretary of State, I went up to school to get 
the kids registered. I got the voting age reduced from 21 to 
18. I saw the gang coming into the high school. I said why do 
you travel with gangs? And you know what they said to me? And 
this is what I want to leave with you. They said, Dr. Tucker, 
you have to understand, the gang is our family and the street 
is our home. We wanted Gerard College, because where these 
children don't have homes, and too many don't, that's where the 
problem is, that's where the problem is. Those who do not have 
parents, like the little 6-year-old boy that was living with 
his mother, she was on drugs, father in jail, mother on drugs, 
Flint, Michigan, and they took him, put that boy into a home 
with his relative and that was a crack house. So he went to 
school one day in Flint, Michigan and killed a student who was 
6 years old.

                           prepared statement

    So we need to deal with the children who do not have homes, 
like Gerard College, and I would like to invite the Senate for 
you to bring a team up there. That's what Steven Gerard did in 
the 1800s. He was an orphan, and he said, in order to take 
these children and train them and make them the best that they 
are--and when I gave the graduation address there the other 
day, I cried, because I've never seen so many males walking in 
a graduation class, because 15 to 24, 60 percent of that age 
are in what I call the three-P: prison, parole, probation.
    The last point that you always hear, this is a cost. It is 
not a cost. It is an investment. It's an investment that will 
take care of itself, and either we are going to educate or the 
other choice is incarcerate, and that's the cost.
    [The statement follows:]
              Prepared Statement of Dr. C. Delores Tucker
    To leave a child behind now is to leave a child behind forever! We, 
as a nation, can ill-afford to allow ourselves to slip into a second 
rate position in any area of global competition. The No Child Left 
Behind Act must be more than a slogan; it must be a REALITY, if America 
is to maintain her position of influence and respect in the global 
community. The greatest power that America can amass at this juncture 
in history is BRAIN POWER!!! Even as we deliberate here today, many of 
our blue chip companies are OUTSOURCING jobs that require critical 
thinking and analytical skills as well as high-tech jobs because it is 
said that not enough students who graduate from our high schools, 
colleges, and universities have the academic prowess to perform 
efficiently and competitively. This is a sad commentary on the most 
powerful country in the world!
    Every day and every week we are reading reports where America is 
losing its advantage because of a perceived lack of Brain Power on the 
part of our youth. Conversely, an excellent commentary on the world's 
leading nation is that congressional appropriations support public 
schools as well as comprehensive youth development programs that 
prepare students to succeed in any aspect of the American workforce, 
that is, congressional appropriations reinforce America's greatness!
    I am here today to applaud and praise the Congress for the progress 
you have made in recognizing how important youth development programs 
are in maintaining educational excellence in our great nation. There is 
a wealth of under developed talent languishing in the urban centers of 
America. If we have the will and vision to really tap into this ``Brain 
Pool of Wealth'', America would be assured of achieving educational 
superiority over all nations, in this century.
    The National Congress of Black Women and The Philadelphia Martin 
Luther King, Jr. Association for Nonviolence have begun, what we 
believe to be, a very unique program, in Philadelphia, Pennsylvania, to 
tap into this Brain Pool of Wealth. It is our College For Teens 
Program, which began in 2001 at Cheyney University, in Pennsylvania. It 
allowed low-income, first generation, minority students to experience 
the rigors of a college environment for six weeks. It features a three 
(3) pronged approach to student achievement:
    1. An After-School Tutorial Program that focuses on direct 
instruction in language arts and mathematics;
    2. Saturday Computer classes that bridge the digital divide; and
    3. Summer College Residency Program that features a six to eight 
week college preparation program, where students live on the college 
campus and prepare for the SAT, receiving academic preparation from The 
Princeton Review professionals.
    Longitudinal data reveal that The SUCCESSES of those students are 
phenomenal!
    The first year The Princeton Review provided SAT preparation 
classes for all program participants, whose grades represented eighth 
through twelfth. THE AVERAGE GAIN IN PRE and POST SAT RESULTS WERE 140 
points, as measured by The Princeton Review. This success was a direct 
result of the investment Senator Arlen Specter made in the public 
school children of Philadelphia.
    In 2002, TWO HUNDRED STUDENTS participated in the Philadelphia 
Martin Luther King, Jr. Association for Nonviolence's College For Teens 
Program because Senator Specter is committed to early intervention for 
student success and he wants to close the achievement gap that 
presently exists between urban and non-urban student populations. 
Senator Specter is to be commended for raising the level of 
expectations for all of America's students so that America will bridge 
the digital divide and the student achievement gap. He has done this by 
thoroughly examining the tenets of all appropriation requests, ensuring 
that America's dollars will yield American success.
    The MLK Association's College For Teens Program exemplifies Senator 
Specter's zeal for student achievement.
    Examples:
  --100 percent of all graduating high school seniors from the 2002 MLK 
        program successfully completed the college application process 
        and were accepted into college;
  --School attendance in the targeted middle and high schools 
        increased;
  --Parent participation in school activities increased; and
  --SAT scores measured average gains of 160 points.
    Examples:
  --In 2003--246 students were enrolled in the College For Teens 
        Program representing grades seven through twelve;
  --80 percent of the student population represented returning 
        students; and
  --SAT Scores soared an average of 200 points!
    One high school sophomore, who is with me today, increased her 2003 
SAT Score by almost 400 points!
    Her mother and grandmother comprise 50 percent of the executive 
committee of her high school PTA, and she has maintained a 3. GPA 
throughout high school, and until today has a nearly perfect attendance 
record for the first two years of her high school career.
    With the OUT-Sourcing of jobs overseas, education is no longer a 
domestic issue . . . it is now a global issue! No Child Left Behind 
must become the catalyst for success for all of America's students! The 
law was meant to deliver on President Bush's campaign promise to 
improve public school education, with specific regard to the 
substandard educational opportunities that have been historically 
offered to poor and minority children. Clearly, Senator Arlen Specter 
has maximized his funding resources to advance public education and 
community development in limited communities in Philadelphia.
    In closing, Senators, I say to you, think for a moment what it 
would mean to America's future to have one million inner-city children 
involved in a program like this one. We must remember that education is 
not a cost but a lifetime investment.
    Thank you.

    Senator Specter. Thank you very much, Dr. Tucker.

                 AMERICAN FOUNDATION FOR NEGRO AFFAIRS

    Mr. Evans. Mr. Chairman, would you permit me to just have 
read--just mention a word about the AFNA program. I just want 
Dr. Cooper to come up and read about what AFNA is all about.
    Senator Specter. Mr. Evans, we're running very late, but 
how much time would you need?
    Mr. Evans. Well, how much time do you think these kids are 
worth? What I'm saying is I took my time to come down here.
    Senator Specter. Go ahead, Mr. Evans.
    Mr. Evans. Well, I'm saying. Wait a minute--where are you 
at, Cooper? Will you come up here? Are you here? Come over 
here? Okay, sit down there, Cooper. Let me say this, I want to 
say this. We are never going to solve a program in a colonial 
system where you don't permit to present what you're doing. 
Now, I put in some 75, 80 years in this work and real sincere, 
and I'm 100 years old and you're going to give me 5 minutes to 
explain my work.
    So let me come here now and say this. I'm a resident of 
America, I'm an American, and I want to see America work. Now I 
want Dr. Cooper just to read just what AFNA's doing, read this.
    Senator Specter. Would you identify yourself for the record 
at the start please?
    Mr. Cooper. Reverend Jason Jerome Cooper, member of the 
AFNA staff. AFNA national education and research fund, AFNA is 
and AFNA is not----
    Mr. Evans. Louder.

               AFNA NATIONAL EDUCATION AND RESEARCH FUND

    Mr. Cooper. AFNA is a scholarship--is not a scholarship or 
loan-granting organization, a job placement agency, an 
organization that pays students for participation, a guarantee 
of admission to college and other professional schools set up 
to provide students with summer jobs. AFNA is a non-profit 
organization, national in scope with national headquarters in 
Philadelphia.
    Mr. Evans. You're reading the wrong thing, Reverend.
    Mr. Cooper. Designed to assist students in pursuing 
professional careers in medicine, law, engineering, computer 
science, business through the humanities, through advanced 
academic tutorials and apprenticeships directed and supervised 
by the professionals. AFNA is working in conjunction with 
parochial----
    Mr. Evans. Reverend, will you just hold that? You're 
reading the wrong paper. Read the other paper, the paper about 
14 things. You're reading the wrong paper.
    Senator Specter. Mr. Evans, in another minute or two you'll 
want to chair this hearing.
    Mr. Evans. Well, I'm just saying that----
    Senator Specter. You may have him read the other paper if 
you promise not to run for the Senate, Sam.
    Mr. Evans. We have turned out some 800 medical doctors, 700 
lawyers.
    Senator Specter. Go ahead, sir.
    Mr. Cooper. Mr. Chairman, the paper that he's----
    Mr. Evans. You were reading the----
    Mr. Cooper. I'm sorry. AFNA national education and research 
fund is beyond the concepts of specialization and the frontiers 
of knowledge: integrated concepts, science, philosophy, and 
education, by Samuel London Evans. The frontiers of knowledge 
in integrated concepts of science, philosophy, and education is 
eliminated from the established schools of learning that 
propagates specialization. Therefore, the curriculum is limited 
to only one of the following subjects: (1) philosophy of 
education; (2) basic concepts of modern physics; (3) theory of 
values; (4) nature of mathematics; (5) anthropology; (6) 
astronomy; (7) paleontology; (8) stars and nebulae; (9) the 
world of crystal; (10) direct implicit in the structure of 
earth; (11) gestalt psychology; (12) the nature of aesthetics; 
(13) signs, symbols, and personalities; (14) laws of density; 
(15) the nature of meteorology.
    In this connection, Mr. Chairman, students are limited only 
to one of the above subjects that are recognized as educated 
models. However, AFNA program serves in two or more capacities. 
One, the AFNA plan prepares the student to meet the academic 
requirements of the school he or she attends in order that they 
may pursue professional careers in medicine, law, computer 
science, business and commerce, to the humanities.
    Two, beyond this AFNA students are privileged to learn and 
study the entire basic structure of the frontiers of knowledge 
in integrated concepts of science, philosophy, and education.
    Three, professors and educators will lecture on one of the 
15 subjects before mentioned, and in this connection the 
student will receive a copy of each lecture and be required to 
take it home for study and review. Students then are required 
to rewrite the lecture with the cooperation of their parents 
and qualified neighbors all assisting the student. He or she 
will then bring copies back to class for evaluation in 
completion, spelling neatness, and so on.
    This means, Mr. Chairman, the total experience will bring 
academic surroundings back into the home and made available to 
the family and the community for study and review with the 
desire to expand the concept of academic scholarly learning in 
the home and on the community level.
    Four, in this connection, students are required to keep 
copies of each of the 15 lectures for it is hoped that each 
student will complete written studies of the 15 subjects from 
7th grade through high, college, and graduate school. Indeed, 
such an achievement would place the students on the high 
rarefied academic platform that holds less than 7 percent of 
the world's scholars.
    Five, AFNA is not a school----
    Senator Specter. You now have 1 minute left on the time 
allocated by Chairman Evans.

                           EVALUATION OF AFNA

    Mr. Cooper. Let me then go to evaluation of the program by 
Dr.--by Dr. Katcher, The Mithras Group, Aaron N. Katcher, 
University of Pennsylvania. In this connection, we know no 
doubt--doubt comes from the thought that you could be doing 
better. Well intended, even satisfying efforts is not always 
effective. Are the courses in AFNA the right ones? Should AFNA 
students be spending their time in the laboratory or are they--
are they right for the student? Is it the best model for the 
supplementary minority education program?
    In describing the model, we also describe how we displayed 
that model to a succession of audiences in pursuit of critical 
commentary. The conference of educators with interest in 
minority problems convened in Philadelphia and New Orleans, and 
the Association for Higher Education in Chicago. They 
discovered at all of these meetings the model was exposed for 
evaluation. If there were anything better to be added from 
these various organizations the participants in the program 
should be doing, none present were able to----
    Senator Specter. Reverend Jason Cooper, we have to move on. 
Thank you very, very much.
STATEMENT OF PAUL G. VALLAS, CHIEF EXECUTIVE OFFICER, 
            SCHOOL DISTRICT OF PHILADELPHIA
    Senator Specter. Dr. Paul Vallas, will you resume your 
place at the table? Thank you very much. We turn now to the 
distinguished chief executive officer of the School District of 
Philadelphia, Mr. Paul Vallas.
    Prior to coming to Philadelphia, he was the chief executive 
officer for the Chicago public schools, and we were very lucky 
to kidnap him from Chicago. He received his undergraduate and 
master's degree from Western Illinois University, was in the 
Philadelphia Inquirer just this morning on the issue of single 
sex education separating young men and young women, and said he 
wasn't going to adopt it until he found community support, so 
that's a sage approach. Mr. Vallas, you've waited a long time. 
Now the floor is yours.
    Mr. Vallas. It's always a pleasure to follow my colleagues 
and, of course, the great Dr. Evans and the great Dr. Tucker. 
I'll be very quick because we've really covered just about the 
same territory. First of all, I'm a strong supporter of No 
Child Left Behind. I think No Child Left Behind is bringing the 
accountability measures that are long overdue, and I'm not 
afraid to test and I'm not afraid to disaggregate the data, 
because I think the disaggregation of data, while it's created 
a great degree of consternation among many, it's long overdue 
because it really identifies the underachievement that exists, 
not only in large urban schools but in rural districts and 
suburban districts and even some of the more affluent 
districts. And I think by focusing attention on those who are 
being underserved, I think it forces us to be held accountable.

                          NO CHILD LEFT BEHIND

    You know, No Child Left Behind has four objectives. One is 
to provide children with more choices if they're in 
underperforming schools--oh, sorry about that. Should I start 
over? Just joking. Two, to provide supplemental education 
services for children who can have no choices other than their 
neighborhood school. Three, to reorganize those schools that 
are consistently academically failing. And four, to make sure 
you've got certified teachers.
    Now, clearly, while all of these goals pose in many 
respects much greater challenges for smaller districts, 
particularly districts with only one to two school districts, 
these goals, at least among the larger districts, are 
achievable, and rather than to go into how we've worked to 
comply with those goals, I'll just refer you to my written 
testimony that I've submitted with the attached materials to 
the committee.

                   STANDARDS, CURRICULUM, AND TESTING

    I will tell you this, though. In terms of testing and 
holding children to standards, I've always felt that if you 
understand what the standards are and your curriculum and 
instruction is aligned with those standards and the test that 
you subject your children to, are testing children to those 
standards, then every day that you deliver quality curriculum 
instruction, you are in fact teaching to the test.
    So, you know, the--our move towards obviously embracing not 
only standardized tests but our own turnover test in our 
revamping of our curriculum and our aligning of our curriculum 
and instructional models to the State standards are increasing 
the amount of time on tests spent helping children learn to 
those standards providing supplemental services.
    In our data-driven instruction, in which case we evaluate 
our children's progress every 6 weeks and then we make 
adjustments in that instruction so that we can do what we need 
to do to bring them to those standards. You know, I'm very 
comfortable with that. It certainly is creating a lot of 
consternation and a lot of anxiety, but, you know, that's good, 
because for far too long, at least in our school district, 
there has been so much underachievement and there has been a 
great degree of neglect.

                NCLB ACT AND CHILDREN WITH DISABILITIES

    I will say this. Like my colleagues, I share with them the 
concern over funding. Let me point out that there has been a 36 
percent increase in funding, particularly, I believe, title I 
funding, and our district alone has received over $35 million 
in additional funding over the past couple of years. Clearly, 
the mandates--we need to be doing a better job to fully fund 
the mandates. We clearly need to be doing a better job to fully 
fund the special education mandate and I certainly think that 
some modifications are in order when it comes to the students 
with English language deficiencies, as well as with special 
education students, because I also agree with my colleagues 
that IDEA and No Child Left Behind seem to be in conflict, and 
I think the evaluation of special education children should 
really be driven by their individualized education plan.

                           PREPARED STATEMENT

    But that said and done, you know, I think the--I think the 
act is a tool that sets clear, definable objectives, and I 
think it's an act that demands accountability. Certainly 
funding is an issue. Funding is always going to be an issue. 
Obviously that's where I will continue to focus my attentions 
on, but I do want to thank you for this opportunity to speak 
and to follow my distinguished colleagues. Thank you so much.
    [The statement follows:]
                  Prepared Statement of Paul G. Vallas
    Good morning. Thank you Chairman Specter, Ranking Member Harkin, 
and other distinguished members of the subcommittee for this 
opportunity to appear before you today. When Senator Specter asked me 
to testify here today on Philadelphia's implementation of the No Child 
Left Behind Act, I was both honored and humbled to appear. And given 
Senator Specter's unyielding support of the School District of 
Philadelphia and of education in general, I was delighted to accept his 
offer.
    Like any broad and sweeping reform of its nature, the No Child Left 
Behind Act has certainly drawn a great deal of attention recently. 
Passionate advocates both for and against the Act have filled the 
airwaves, the newspapers, and sometimes their own backyards with 
rhetoric espousing its virtues or deriding its failures. While there is 
certainly room for debate on the pros and cons of the Act, there can be 
little debate about this fact: there is simply no time to waste when it 
comes to setting high expectations for our children, providing the 
needed resources for children to meet these expectations, and holding 
adults accountable for achieving these expectations. As the head of 
America's sixth largest school district, it is my belief that the No 
Child Left Behind Act lays the groundwork for accomplishing these 
objectives, and I have made every effort to accomplish its mandates.
    The chief objective of the Act is closing the achievement gap 
between majority groups and minority groups. The greatest tool that 
NCLB provides to achieve this objective--and, I suspect, the greatest 
object of consternation of some of my colleagues--is the disaggregation 
of test scores by subgroup. For the first time, we are able to shine a 
spotlight on groups that have been historically underserved. With this 
recognition comes our obligation to provide whatever resources we have 
to correct this historic imbalance, and the structure of the Act 
provides districts with the opportunity to do so.
    The School District of Philadelphia has aggressively implemented 
all four phases of No Child Left Behind over the past two years. Those 
four phases are ``Expanding Comprehensive School Choice Options,'' 
providing ``Intensive Supplementary Education Services in Low 
Performing Schools,'' ``Implementing a Rigorous Corrective Action Plan 
for Schools Not Making Adequate Yearly Progress,'' and ``Aggressively 
Recruiting Highly Qualified Teachers.'' The handout you have been 
given, entitled ``School District of Philadelphia: Programming to 
Implement No Child Left Behind Legislation'' details what we have 
accomplished under each of these phases, but I would like to draw your 
attention to a few highlights.
    Under ``Expanding Comprehensive School Choice Options,'' you will 
note that the District has 176 out of our 263 schools identified as low 
performing schools. With that, over 45,000 students chose to enroll 
this year in schools outside of their neighborhood schools. But the 
District went beyond the limits of ``choice'' as a decision to be made 
between your neighborhood school and a ``higher performing school.'' In 
addition to meeting the choice mandates of No Child Left Behind, we 
have also formed innovative new school-by-school partnerships with 
universities, museums, private managers, and even companies like 
Microsoft to manage and assist our lowest performing schools. We have 
also seeded our schools with magnet programs, International 
Baccalaureate programs, honors classes, dual credit offerings, and 
advanced placement courses to provide real choice to our parents. The 
School District has enacted a 300 percent increase in the number of 
honors and advanced placement courses, because we believe that closing 
the ``high achievement'' gap is just as critical as closing the 
``remedial'' gap for our children.
    Under the provision calling for ``Intensive Supplementary Education 
Services in Low Performing Schools,'' the District has targeted 
assistance for over 40,000 Grade 1-9 students performing below grade 
level in reading and mathematics through the implementation of a 
comprehensive extended day academic program in all district elementary, 
middle, and comprehensive high schools during the 2003-2004 school 
year. The District has also implemented a comprehensive mandatory six-
week summer school academic program in reading and mathematics for over 
58,000 Grade 3-10 students not meeting promotion requirements or 
performing below grade level. The District has contracted with Voyager, 
Princeton Review, and Kaplan to provide the curriculum and the 
professional development for these programs.
    The second part of your handout deals specifically with 
Supplemental Education Services, and I feel it is important to draw 
your attention to one problematic provision of NCLB here. As the 
briefing indicates, Pennsylvania has approved, and the School District 
of Philadelphia has contracted with, 20 providers of Supplemental 
Education Services. The District's Intermediate Unit (Pennsylvania's 
version of ``Education Service Agencies'') has also been approved as a 
provider, so services to low-achieving students through Voyager and 
Princeton Review can also receive funding under this provision. I 
cannot argue with the spirit of a provision that calls for parents to 
be able to choose between different providers for tutoring and support 
for their child, and I certainly support a free-market model that has 
these providers compete to provide the best services. But as the law 
stands, the price is in essence ``fixed'' as a percentage of a 
district's Title I budget, so very little can be done in terms of 
achieving the most amount of service for the most economical model. To 
put it simply, I as a superintendent was faced with the prospect of 
serving 12,000 students for 36 hours of instruction at $1,800 per child 
or serving 40,000 children for 160 hours of instruction at $300 per 
child. Wanting to serve the largest number of children, our District 
pursued the IU-provider model, and given that some of the providers in 
the Philadelphia area are making 60-70 percent profit on their 
services, I felt this to be the most prudent course of action.
    Under ``Implementing a Rigorous Corrective Action Plan for Schools 
Not Making Adequate Yearly Progress,'' the District has developed a 
mandatory, rigorous, and uniform K-12 standards-based curriculum, 
instructional delivery models, instructional materials, and aligned 
professional development system for low-performing schools. We have 
also implemented a uniform district-wide assessment system to 
complement the results from our state assessment to provide yearly 
benchmarks for district and school accountability. As your handout 
indicates, we have provided a number of additional resources to provide 
support for our schools lagging behind in AYP. This includes changes in 
the management, structure, and organization of low performing schools 
that cannot demonstrate improved performance; 49 failing schools in 
Philadelphia were restructured with private and charter school 
management, 22 comprehensive high schools have implemented 9th grade 
academies designed to narrow the achievement gaps of students below 
grade level in reading and mathematics, and a number of failing middle 
schools have been converted into neighborhood K-8 magnet and high 
school programs.
    Finally, the District has wholeheartedly embraced the provisions 
requiring the ``Aggressive Recruitment and Retention of Highly 
Qualified Teachers.'' Under our Campaign for Human Capital, the 
District hired over 1200 new teachers this year working with programs 
like Troops for Teachers, Teach for America, our retired teacher 
program, and aggressive recruitment and retention practices. Even in 
spite of a substantive class-size reduction in grades K-3, which 
necessitated the hiring of an additional 400 teachers, we met our 
hiring objectives and opened the school year with almost no teacher 
vacancies.
    The School District of Philadelphia has chosen to aggressively 
implement the No Child Left Behind Act because its tenets are sound and 
its goals are clear: we must do all that we can to ensure that all of 
our children are reaching their full potential. There is certainly room 
for improvement, however. While no one should deny that meaningful 
increases in federal education funding have been achieved under No 
Child Left Behind (a 36 percent increase since 2001), providing more 
Title I resources, which can be used rather flexibly to support proven 
successful practices like reduced class size and after school 
assistance, should be a priority. Providing transportation resources 
for choice programs, which for Philadelphia has meant more than $7 
million in additional costs, would be a welcome assistance. Moving 
closer to a 40 percent funding of special education versus the current 
18 percent funding is critical as disaggregated data shows how woefully 
inadequate our special education resources are. And complementing a 
standards and accountability movement such as the No Child Left Behind 
Act with a desperately needed school construction assistance program 
would be a smart investment in districts like Philadelphia whose walls 
have sometimes fallen faster than our test scores in past years.
    While we can't shortchange our children by failing to fund reforms, 
neither can we hold their futures hostage by waiting for a never-ending 
funding debate to resolve itself. The School District of Philadelphia 
has demonstrated that substantial education reform can be attained by 
using existing resources to fund education priorities. In short, our 
philosophy is about sending all available dollars into the classroom. 
We will continue to use the tools provided us under the No Child Left 
Behind Act to accomplish this, and we will not allow excuses to get in 
the way of achievement. Thank you again for the opportunity to provide 
comment here today, and I welcome any questions you may have.
School District of Philadelphia Programming to Implement No Child Left 
                           Behind Legislation
             expanding comprehensive school choice options
Expand the opportunities for students attending the 176 identified low 
        performing schools (total number of district schools is 263) to 
        transfer to higher performing schools
    Over 45,000 students choose to enroll in schools outside of their 
neighborhood schools:
  --Sent 2003-2004 School Choice notifications to families of 127,499 
        students via mail; as well as posted information on the 
        district web site, press releases, and public notices to the 
        media.
  --Over 3,000 students will transfer from the district's lowest 
        performing, highest poverty schools for the 2003-2004 school 
        year.
  --Over 1,000 students transferred as part of a Regional Program for 
        School Choice from the 10 lowest performing/highest poverty 
        elementary schools during the 2002-2003 school year.
  --Over 11,000 students participate in the district's voluntary 
        transfer program from 132 racially isolated low performing 
        schools.
  --Over 11,000 students are enrolled in district magnet programs in 13 
        high performing middle and high schools (over the next five 
        years a significant number of magnet programs will be 
        introduced with as many as 15 added during the 2003-2004 school 
        year).
  --Over 19,000 students are enrolled in 46 charter schools (four new 
        charter schools have been approved for 2003-2004, and an 
        additional three new charters will open in 2004-2005).
    Over 20,000 students are enrolled in the 70 identified new 
partnership schools (45 privately managed, 21 restructured by the 
district, and 4 new district charters) as part of the school reform 
process (over the next five years the number of partnership schools 
will continue to increase, with 10 additional schools added in 2003-
2004).
    Within the next five years, 11 new magnet high schools will be 
constructed (one in each academic region); 14 large middle schools will 
be converted to small neighborhood magnet high schools (during 2003-
2004, 6 middle schools will begin conversions).
  --Formed partnerships with universities (Drexel, Eastern, Holy 
        Family, St. Joseph's, and Temple Medical School) to develop new 
        management structures for low performing high schools.
  --Formed partnerships with private and public institutions to enroll 
        high school juniors and seniors in high performing college 
        preparatory and school-to-career programs.
    Within the next five years, 30 low performing smaller middle 
schools will be converted into neighborhood K-8 schools with open 
enrollment for students living in that region.
  intensive supplementary education services in low performing schools
Expand the opportunities for students attending low performing schools 
        to receive intensified supplementary education services to 
        significantly improve academic achievement
    Implemented aggressively a school readiness campaign (Healthy Kids, 
Healthy Minds) for screening and health care support services for 
students prior to enrolling in the district's full-day Kindergarten 
program, and at appropriate grade levels in compliance with 
Commonwealth of Pennsylvania mandates (during 2002-2003, 75 percent of 
students screened for vision, 2003-2004 projection: 95 percent; during 
2002-2003, 12 percent of students screened for dental, 2003-2004 
projection: 75 percent).
    Targeted physical and behavioral health care support and case 
management services for elementary school students who are performing 
below grade level, i.e., establishment/verification of insurance 
coverage, medical and dental care homes, behavioral health linkages as 
needed, and timely resolution of identified health problems (during 
2002-2003, 72 percent of students had documented insurance, 2003-2004 
projection: 95 percent).
    Implemented a rigorous district-wide promotion/graduation policy as 
a means of identifying and supporting students performing below grade 
level.
    Targeted assistance for approximately 30,000 Grade 3-9 students 
performing below grade level in reading and mathematics through the 
implementation of a comprehensive extended school day academic program 
in all district elementary, middle, and comprehensive high schools 
during the 2002-2003 school year.
    Contracting with PDE approved providers to administer extended 
school day and summer programs including Voyager, Princeton Review and 
Kaplan Learning, 21 community based organizations in 11 Beacon School 
sites (serving over 1,300 students with 8 new sites in development), 
and 17 private providers (offering tutoring services to 4,538 
students).
    Implementing a comprehensive mandatory six-week summer school 
academic program in reading and mathematics for over 58,000 Grade 3-10 
students not meeting promotion requirements or performing below grade 
level (12,000 students participated in 2002).
  --Providing summer programs for over 5,000 English Language Learners 
        and Special Education students.
 implementing a rigorous corrective action plan for schools not making 
                        adequate yearly progress
Develop and implement a rigorous accountability system that ensures 
        academic improvement and sustained growth through a system of 
        evaluating, monitoring, and providing assistance to low 
        performing schools
    Developed a mandatory, rigorous, and uniform K-12 standards-based 
curriculum, instructional delivery models, instructional materials, and 
aligned professional development system for low performing schools.
    Implemented a uniform district-wide assessment system to complement 
the results from the state assessment system (Grades 3, 5, 8, 11 in 
reading, writing, and mathematics) and provide yearly benchmarks for 
district and school accountability.
  --Over 128,000 Grade 3-10 students were assessed using the TerraNova 
        in reading, mathematics, and science in the fall 2002 to set 
        district, school, and individual student baselines for academic 
        performance.
  --Over 157,000 Grade 1-10 students were assessed using the TerraNova 
        in reading, mathematics, and science in the spring 2003 to 
        measure district, school, and individual student progress for 
        academic performance from the fall 2002 baseline.
  --Over 58,000 Grade K-3 students were assessed quarterly using the 
        Dynamic Indicators of Basic Early Literacy Skills to measure 
        and track individual student progress in fluency, phonics, and 
        phonemic awareness.
  --Over 58,000 Grade K-3 students were assessed quarterly using the 
        Diagnostic Reading Assessment to measure and track individual 
        student progress using running records.
    Developed a rigorous district-wide school performance index to 
complement the state NCLB Accountability Plan by tracking school 
progress using a variety of indicators including the PSSA, the 
TerraNova, student mobility (the district average is 35 percent 
annually for each school), student, attendance, teacher attendance, 
persistence rates (the percentage of students who do not drop out of 
school before graduation), and promotion and graduation rates.
    Implemented a rigorous school quality review process to evaluate 
the performance of the district's 85 identified lowest performing 
schools.
    Wrote corrective action plans with mandated timelines and 
implementation strategies for the district's 85 identified lowest 
performing schools (this includes privatized, charter, and district 
restructured school models).
    Designed and implemented a uniform process for school improvement 
planning for the 2002-2003 school year for all the district's 263 
schools, based on the findings from the school quality review process.
    Developed procedures for changes in the management, structure, and 
organization of low performing schools that cannot demonstrate improved 
performance.
    Pre qualified up to 5 new private companies to manage additional 
low performing district schools.
    Restructured 49 failing schools by implementing proven privatized 
and charter school models (over the next five years the number of 
privatized and charter schools will continue to increase, with 14 
additional schools added in 2003-2004).
    Restructuring failing middle schools by converting schools into 
neighborhood magnet K-8 and high school programs (during 2003-2004, 3 
middle schools begin conversions).
    Restructuring failing high schools by implementing a rigorous 
reform movement that includes converting schools that do not 
demonstrate improved performance into neighborhood magnet programs 
(during 2003-2004, 22 comprehensive high schools will implement 9th 
grade academies designed to narrow the achievement gaps of students 
below grade level in reading and mathematics).
    Facilitated the implementation of the Accountability Review Council 
in cooperation with the School Reform Commission to meet the 
requirements of the district reform partnership agreement between the 
city and state governments (the ARC will certify the district's reform 
results and produce annual report cards measuring the progress of 
reform).
          aggressive recruitment of highly qualified teachers
Institute the Campaign for Human Capital, a blueprint for the 
        recruitment, retention, and renewal of a highly qualified 
        teaching staff
    Utilizing alternative recruitment strategies including Teach 
America and Troops to Teachers (resulting in the hiring of 145 new 
qualified teachers).
    Implementing an aggressive strategy to recruit qualified 
mathematics and science teachers through partnerships with local 
universities such as Drexel University and the Transition to Teaching 
Program.
    Expanding the Reduced Class Size model from K-2 to K-3 classrooms 
to increase the district's pool of highly qualified elementary school 
teachers.
    Preparing emergency certified teachers for the Praxis examination 
by offering classes at Holy Family, Temple, or using an on-line Praxis 
preparation course.
    Expanding the district's pool of highly qualified elementary school 
teachers by assigning former literacy interns who have become certified 
to serve as stand alone teachers (it is anticipated that 250 new 
teachers will come from this pool).
    Developing a competency profile made up of characteristics commonly 
possessed by the highest quality teachers as found by a variety of 
research methods, including surveys, focus groups, interviews, etc.
    Implementing an aggressive marketing campaign to target segmented 
groups of high need teacher candidates (African-Americans, males, 
critical needs subject area candidates).
    Implementing a training program to build the capacity of the 
recruitment team by exposing them best practices.
    Designing ``Leadership for Retention and Renewal'' professional 
development program--that will equip them with the skills and 
strategies necessary to support all teachers (rookie, novice and 
veteran) in their schools.
    Implementing a tuition reimbursement program for teachers beginning 
their second year in the district to continue professional development, 
thus providing an incentive for ongoing professional growth.
    Implementing a comprehensive mandated pre-service training program 
all new teachers must attend to ensure their preparedness for entering 
our classrooms.
    Establishing the position of New Teacher Coach to support newly 
hired at teachers at a 10:1 ratio.
    Expanding the district's current incentive programs to attract 
highly qualified teachers to include a Teacher Ambassador Program 
called ``Every Teacher, an Ambassador'' which will provide a monetary 
incentive for identifying certified teachers and teachers in hard to 
staff positions.
    Increasing the number of student teachers by offering a series of 
incentives to the student teacher as well as to the cooperating 
teacher.
    Creating for the 2003-2004 recruitment season a ``Roll Out the Red 
Carpet Campaign'' strategy that will attract college juniors and 
seniors from our regional colleges and universities to learn about the 
benefits of teaching in our schools and living in Philadelphia.
    Testing of all instructional paraprofessionals has begun and will 
continue until all paraprofessionals meet the requirements of the 
statute.
                             ses providers
    No Child Left Behind guarantees that students from low income 
families who are attending low performing schools will have access to 
tutoring services paid for by the School District of Philadelphia. The 
Intermediate Unit's program was recently approved by the State as one 
of these supplemental providers.

----------------------------------------------------------------------------------------------------------------
                                           Number of hours                Cost               Students served
----------------------------------------------------------------------------------------------------------------
SES Providers (47 approved by state).  36-40 hours total......  $1,815 per student.....  12,500
Extended Day (using state approved     160 hours..............  $300 per student.......  Upwards of 40,000
 providers).
----------------------------------------------------------------------------------------------------------------

    The District, as required by law, notified parents that they could 
choose to use the services of an SES provider by letter on October 24. 
The letter included a list of all the SES providers--as well as their 
phone numbers--that had submitted their paperwork to the District.
    This letter followed up and reinforced an aggressive advertising 
program launched by the SES providers themselves back in August.
    The SES advertising has been ongoing from August until today.
    17,000 students improved their performance between the beginning of 
last year and the beginning of this year so that they have moved out of 
the bottom quartile, as measured by the Terra Nova. However, these 
students are still encouraged to take advantage of the District's 
Extended Day program.
    Extended Day is being modified from last year to include an hour of 
instruction as well as an hour of enrichment activities Monday through 
Thursday. The curriculum for instruction aligns with state standards 
and directly supports the new standardized curriculum being taught in 
all classrooms throughout the District. The second hour, provided in 
conjunction with community based organizations, is optional.
    There are 30,500 3rd through 8th graders in the District that can 
take advantage of the Extended Day program. In fact, the first hour of 
Extended Day is mandatory for students in grades 3, 8 or 11 who are 
scoring in the bottom quartile, as measured by the Terra Nova.
    The objective of the District's Extended Day program is to provide 
high quality supplemental educational services to all the District's 
children.
    To ensure that parents know about that they have this choice, the 
School District is sending letters home with students in 192 schools. 
Pursuant to federal law, low income families at the 192 schools qualify 
for supplemental services.
    State approved providers have partnered with the District in order 
to provide the high quality Extended Day program. The providers include 
Voyager, Princeton Review and Kaplan.
    Extended Day--which began October 17 for grades 3-8 and will begin 
on December 2 for grades 1, 2 and 9--is able to provide more hours of 
instruction and enrichment to more students than supplemental service 
providers can because they cost significantly less. For example, the 
average cost of Extended Day is about $300 per student for the 20 week 
program (up to 160 hours), while the law authorizes comparable 
supplemental services for $1,815 per student.
    While the District supports the spirit and intent of the federal No 
Child Left Behind law, it intends to enforce academic and fiscal 
accountability. This will ensure that as many children as possible can 
have access to services.
    Educational choice for parents and students is actually reduced 
when private companies are allowed to make unreasonable profits at the 
expense of students. Fewer students can be served and the quality of 
the program invariably diminishes.

    Senator Specter. Thank you very much, Mr. Vallas. When you 
said the thing has already been said, that was a commentary of 
a very famous Congressman, Mo Udall, a Democrat from Arizona. 
He stood at a speech once after many speakers presented 
themselves and he said, everything has been said, but not by 
everybody. And on Capitol Hill, it doesn't matter that 
everything has been said until everything has been said by 
everybody.
    This has been a very informative hearing and I want to 
thank you for coming from Pennsylvania on short notice. When I 
saw the meeting which you had on March 1, just on Monday, it 
seemed to me that really ought to attract the attention of the 
Secretary and his expert in the field, Mr. Ray Simon. And the 
Secretary will meet with you at 2 p.m. and you'll have a little 
more time.
    Everything that's been said has been transcribed in the 
record, and although the Senators come and go because they have 
many other committee assignments, the transcript will be read 
by staff and your words will be weighed, and I believe that 
there will be changes to No Child Left Behind. There will be 
modifications made as we go through the learning curve, and 
there will be more funding as well.
    We have a very tight budget this year, which you all know, 
but there are many of us here who, as you said, Dr. Tucker, 
consider education an investment. It is not an expenditure, and 
when Mr. Evans outlines what he has done for AFNA, we have 
recognized that on the Federal funding for many, many years, as 
we have recognized what you have done, Dr. Tucker, and what you 
are all doing.
    So thank you very much for coming. There is no higher 
priority on the budget than education and this subcommittee 
will pursue it with great diligence.
    Dr. Tucker. Thank you, Senator, too, for having us here.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Specter. We have received the prepared statement of 
Senator Thad Cochran which will be placed in the record.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    Mr. Chairman, I want to welcome the Secretary and thank him for 
coming to testify before the subcommittee today, and for his 
outstanding service to our nation as Secretary of Education.
    I appreciate the Secretary's attention to my state of Mississippi, 
which is also his home state. He has honored us with several personal 
visits.
    I've visited with our State School Superintendent, and a good 
number of teachers, principals and parents since the passage of the No 
Child Left Behind Act. My impression is that our State has embraced the 
concept of accountability and is utilizing the new flexibility that is 
built into the programs.
    I'm pleased to see the budget proposal for the Department of 
Education suggests increases of $1 Billion each for title I grants and 
Special Education grants to states. And, I'm pleased that continued 
funding is suggested for Ready to Learn Television, Civic Education, 
Character Education and other areas of importance. There are some areas 
in the budget proposal that eliminate programs that have been important 
to individual schools, teachers and assisted the State's efforts in 
meeting the requirements of No Child Left Behind. In particular, 
proposed elimination for the National Writing Project, Arts in 
Education, Gifted Education, STAR Schools, and Foreign Language 
programs for K-12 schools draw my attention. I'm concerned about those 
areas, and I know we'll work through the appropriations process and try 
to meet the needs and interests in my state and across the nation.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Specter. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted by Senator Arlen Specter
                      pennsylvania title i funding
    Question. In Pennsylvania 233 of 500 school districts who receive 
Title I grants will receive less funding in fiscal year 2004 than they 
did in fiscal year 2001, the year before the No Child Left Behind Act 
was passed. As a former superintendent, what advice related to carrying 
out this important law do you have for the 233 districts in 
Pennsylvania that will receive fewer Title I funds in fiscal year 2004 
than they did in fiscal year 2001?
    Answer. My advice would be that as important as Title I funding is 
to local school districts, it is typically a small fraction of overall 
funding, and that the reforms in No Child Left Behind are specifically 
designed to leverage education spending from all sources, Federal, 
State, and local. So the question is not what can or cannot be done 
with a Title I allocation, which may be smaller or larger than it was 
the year before, but how can we better allocate all our funding to help 
ensure that all our students reach challenging State standards.
              budget request and highly qualified teachers
    Question. Is the President's budget request for fiscal year 2005 
sufficient to meet the requirements of the No Child Left Behind Act, 
such as to attract, train and retain ``highly qualified'' teachers, 
implement additional testing requirements, and provide more public 
school choice and after-school tutoring, in light of the reduction in 
Federal funding for these districts?
    Answer. We believe Federal funding is more than adequate to meet 
the requirements of No Child Left Behind programs. As I mentioned 
earlier, success in meeting those requirements depends not primarily on 
a particular level of Federal support, but on making better decisions 
in the use of combined education funding from Federal, State, and local 
sources. I would add that when it comes to testing, the development and 
implementation of the additional assessments required by No Child Left 
Behind is separately funded through a State grant program, and the 
amount of this funding has been going up every year. In addition, not 
all districts are required to provide public school choice and 
supplemental educational services, just those in which schools have 
been identified for improvement, corrective action, or restructuring.
 students transferring to schools not identified for improvement under 
                        no child left behind act
    Question. Based on available information and pending analysis of 
consolidated State applications and other State-reported data, the 
Department has reported that 5,000 schools have been identified for 
improvement and an estimated 2.5 million students are available to 
transfer to a public school that is not identified for improvement. How 
many of these students have in fact transferred?
    Answer. These data will be included in the Department's forthcoming 
report on the implementation of key provisions in No Child Left Behind, 
which is scheduled for completion and submission to the Congress in 
late spring of this year.
                         title i school choice
    Question. What is known about whether eligible students and their 
parents are choosing to stay in their current school?
    Answer. We do not have comprehensive data on this issue, but 
preliminary studies carried out by education organizations, as well as 
news reports, suggest that the great majority of students eligible to 
transfer to another public school do indeed stay in their current 
school. Sometimes this is because parents and students are more 
comfortable in their neighborhood schools; in other cases it may be 
that parents are encouraged by improvement efforts or other special 
programs at their current school. In still others, it may be that local 
school officials have not done enough to inform parents about available 
choices or have not provided that information early enough in the year.
    I would add that I see nothing wrong with parents choosing not to 
move their children, so long as they receive sufficient information on 
the available choices. The point of the public school choice 
requirement is that parents and students have options if they are not 
happy with their current school, and that no student is forced to 
remain in a poorly performing school if there is a better alternative.
                       barriers to school choice
    Question. To what extent do real and perceived barriers prevent 
students from exercising the choice option required by No Child Left 
Behind?
    Answer. I believe it is too early to determine the extent of this 
problem. Certainly in the first couple of years of implementing No 
Child Left Behind many districts did not aggressively inform parents of 
available choice options, and in many cases the fact that options were 
made available only after the school year had already started 
discouraged students from transferring. We expect, and have already 
seen, that such problems diminish over time, as States and districts 
improve their procedures and more parents become aware of choice 
options.
    Question. What specifically does the fiscal year 2005 budget 
propose to address these issues?
    Answer. Effective implementation of public school choice under No 
Child Left Behind is not really a budget issue, and our budget does not 
include any specific proposals in this area. As I mentioned earlier, I 
believe this is a problem that is being addressed over time. And of 
course the Department continues to provide guidance and technical 
assistance on public school choice, and to examine choice 
implementation as part of its regular Title I monitoring efforts.
                     report on nclb implementation
    Question. The subcommittee understands the Department's report to 
Congress, including State and local performance related to No Child 
Left Behind, is expected to be available in late spring of 2004. As 
soon as it is available, please provide the subcommittee with a copy of 
the report.
    Answer. We expect that the report will be completed and submitted 
to the Congress in late spring of this year.
          costs of school improvement and choice requirements
    Question. Based on information derived from State reporting and/or 
other reliable and appropriate data, what is the Department's estimate 
of the funding required to meet all of the requirements related to 
school improvement status--public school choice, supplemental services, 
school restructuring, etc.--which must be taken with respect to schools 
that fail to meet adequate yearly progress standards for 2 or more 
consecutive years?
    Answer. There is no reliable way to estimate such costs, primarily 
because States and districts have great flexibility in developing 
school improvement plans, and because costs will vary greatly from 
district to district depending on the extent of the problems that are 
preventing schools from meeting adequate yearly progress (AYP) 
standards. Also, it is not necessarily the case that school improvement 
or restructuring requires additional funding. More often, districts 
will obtain improved results through better use of existing funding 
from all sources--Federal, State, and local--rather than merely adding 
new spending or initiatives that tend to ignore problems in core 
instructional areas.
    Question. Does the fiscal year 2005 budget request provide 
sufficient funds to pay the costs of such activities?
    Answer. We believe the President's budget request, combined with 
funding made available in earlier years as well as State and local 
resources, is sufficient to pay for the school improvement requirements 
of the No Child Left Behind Act.
                      funds for school improvement
    Question. Mr. Secretary, the Pennsylvania Department of Education 
has indicated that under the No Child Left Behind law, they will have 
fewer funds available at the State level for school improvement than 
they did in fiscal year 2001, while they have almost three times as 
many schools identified as in need of improvement. How will the 
Department provide these schools with the additional assistance they 
need to improve the academic achievement of students, with fewer 
resources?
    Answer. It is possible that State-level resources for school 
improvement are somewhat lower than under the earlier law, but overall 
funding for school improvement efforts, which under No Child Left 
Behind is targeted to the district level, greatly exceeds the funding 
available for such activities prior to reauthorization. This is because 
under the old law, States were permitted, but not required, to reserve 
up to one-half of one percent of their Title I allocations for school 
improvement efforts. Under No Child Left Behind, beginning in fiscal 
year 2004, States are required to reserve 4 percent of their 
allocations for school improvement, and to distribute 95 percent of 
such reservations to those school districts with the greatest need for 
such funds.
    To put this change in dollar terms, in fiscal year 2001, States 
might have reserved as much as $44 million for school improvement. In 
fiscal year 2005, under the President's request for Title I, they will 
be required to reserve more than $500 million for this purpose.
    Congress did provide, in appropriations language, separate funding 
for school improvement, including the provision of public school choice 
options, in fiscal years 2000 and 2001. Even these amounts--$134 
million in 2001 and $225 million in 2002--were significantly below the 
levels provided under No Child Left Behind.
    Question. What other resources are proposed in the fiscal year 2005 
budget to assist schools trying to improve the academic achievement of 
all students, particularly those schools identified as in need of 
improvement or on watch lists?
    Answer. There are no specific proposals for additional school 
improvement-related funding in our budget, both because we believe the 
Title I reservation is sufficient and because, in a larger sense, all 
of our programs provide funding that is intended to help schools 
improve the academic achievement of all students.
                     supplemental service providers
    Question. Has the Department compiled any evidence that third-party 
supplemental services providers are more successful than their regular 
public schools in providing Title I services?
    Answer. No, we do not yet have any performance data on supplemental 
service providers. What we do know is that Title I, as operated by 
regular public schools over the past four decades, has largely failed 
to improve achievement for participating students. No Child Left Behind 
is trying to change this rather unimpressive record, and we believe 
third-party providers will be able to make a contribution in this 
effort, particularly for low-income students in schools that 
consistently do not make adequate yearly progress.
                    choice and supplemental services
    Question. What information is available about the timeliness and 
effectiveness of communication to parents of affected pupils eligible 
for public school choice and supplemental services options?
    Answer. Preliminary studies and other early evidence suggests a 
mixed record by districts in communicating No Child Left Behind choice 
and supplemental service options to parents. In part this reflects the 
usual difficulties encountered in doing something new, and we have seen 
districts improve over time. And, unfortunately, it also reflects at 
least occasional reluctance by districts to fully comply with the 
requirements or spirit of the new law.
    Question. Are parents typically being offered a substantial range 
of choices?
    Answer. Based on the limited information we have, most districts 
are complying with the law, which requires a choice of more than one 
school. This is not the same as a ``substantial range of choices,'' but 
the law and our regulations do give districts some flexibility in this 
area, in order to take into account geographic limitations and allow 
LEAs to make efficient use of transportation resources.
    Question. Have any localities received waivers from the requirement 
to provide supplemental services; if so, how many have been provided?
    Answer. Such waivers may be approved by State educational agencies 
only if there are no available service providers and the school 
district itself is unable to provide services. We do not have data on 
waivers that SEAs may have granted.
                  mathematics and science partnerships
    Question. The fiscal year 2005 budget proposes to override the No 
Child Left Behind Act authorization for the Math and Science 
Partnerships program in order to administer a new competitive grant 
competition focusing solely on math instruction for secondary education 
students. How is this proposal consistent with Goal 2 and objectives 
2.2 and 2.3 identified in the Department's fiscal year 2005 Performance 
Plan related to math and science achievement, when additional funds may 
only be used for math instruction in secondary schools?
    Answer. The Administration believes that it is critical to fund 
efforts specifically to accelerate mathematics learning at the 
secondary level by helping secondary students master challenging 
curricula and by increasing the learning of students who have fallen 
behind in mathematics. Research indicates that many students who drop 
out of school lack basic skills in mathematics, and our Nation needs to 
support these students so that they can catch up to their peers and 
stay in school.
    Question. Where does the Department find any congressional intent 
for it to run a separate $120 million grant program focusing only on 
math instruction and reduce State flexibility to target funds to areas 
of greatest need?
    Answer. It is not at all unusual for a President to identify 
critical educational needs and, in between the periodic congressional 
reauthorizations of major education laws, propose either modifications 
to existing programs or even entirely new programs to address such 
needs. It also is not unusual for both the President and the Congress 
to emphasize one part of a law over another. In the case at hand, the 
President believes there is good reason to give priority to improving 
math instruction. Moreover, he is proposing to use new money to pursue 
this priority, thus preserving State flexibility in the use of existing 
funding.
                     students' science achievement
    Question. Since annual science assessments will be required under 
NCLB beginning in the 2007-2008 school year, won't this new grant 
program designed only to improve math achievement curtail efforts to 
improve science achievement?
    Answer. Since we are proposing to use new money for the President's 
proposal to improve math instruction, I do not see how this would 
``curtail'' current efforts to improve science achievement. In 
addition, since mastery of basic mathematics is often a prerequisite 
for learning most sciences, I believe it is reasonable to argue that 
the President's proposal may well have the additional benefit of 
contributing to improved science achievement.
             funds for assessments required by the nclb act
    Question. To date, the Congress has appropriated more than $1,161 
million to assist States with the development and implementation of 
additional assessments required by the No Child Left Behind Act and the 
fiscal year 2005 budget request includes $410 million for such 
authorized activities. The General Accounting Office, National 
Association of the State Boards of Education and other organizations 
have developed different estimates for the costs associated with the 
additional assessment requirements of No Child Left Behind. Is the 
Department confident that funding provided at the proposed fiscal year 
2005 level--in addition to funds already appropriated--would be 
sufficient to meet the additional assessment requirements of the No 
Child Left Behind Act? If so, please provide the subcommittee with the 
specific evidence used by the Department to reach this conclusion.
    Answer. We believe that the funding provided under the State 
Assessment Grant program, in addition to being fully consistent with 
the congressional authorization level and the ``trigger amounts'' in 
the law, is sufficient to pay for the costs of developing and 
implementing the new assessments required by No Child Left Behind.
    These costs vary considerably, of course, depending on such factors 
as the grades covered by a State's existing assessment system, the 
number of students tested, and the types of assessments used. This is 
why the cost estimates developed by differing organizations also vary 
considerably. Under these circumstances, and particularly in view of 
the fact that such costs were not separately funded under the previous 
law, we believe that No Child Left Behind funding for assessments 
reflects a reasonable and responsible approach to paying for the new 
assessments.
                    grants for enhanced assessments
    Question. Within the amount provided for assessments, more than $21 
million has been used for activities authorized under the Grants for 
Enhanced Assessments Instruments program. Specifically, what projects 
have been funded to assist States with meeting the challenge of 
developing and implementing appropriate alternate assessments for 
students with disabilities and for developing and implementing 
assessments for English language learners?
    Answer. So far the Department has made nine grants under this 
program using approximately $17 million from fiscal year 2002 funds. A 
competition to award $4 million from fiscal year 2003 closed on April 
5, 2004. The Department estimates that it will make 6 grant awards from 
these funds.
enhancement of assessment projects focus on students with disabilities 
             and students with limited english proficiency
    The nine current projects, which are awarded to States or consortia 
of States, focus on enhancement of assessments for students with 
disabilities and students with limited English proficiency. Four 
projects focus on the assessment of English proficiency, two focus on 
appropriate test design and accommodations for LEP students, one 
project examines appropriate accommodations for special education 
students, one aims to improve the technical quality of alternate 
assessments for students with severe disabilities, and one project will 
enhance State capacity to evaluate and document the alignment between 
State standards and State assessments.
    Below is a short summary of each Grants for Enhanced Assessments 
project:
    Lead State: Utah Collaborators: Montana, Idaho, New Mexico, 
Colorado, Oregon, Wyoming, and North Dakota
    Grant amount: $1,842,893
    Summary: The project aims to develop a series of assessments of 
English language proficiency at four levels (K-3; 4-6; 7-9; 10-12) to 
enable teachers to diagnose the proficiency level of English language 
learners (ELLs).
    Lead State: Rhode Island
    Collaborators: Maine, New Hampshire, and Vermont
    Grant amount: $1,788,356
    Summary: The project will build upon an existing collaboration 
among Maine, New Hampshire, Rhode Island and Vermont and will help 
compare progress across States and combine resources to develop the 
highest quality assessments. States will examine the impact of 
computer-based testing accommodations on the validity of test scores 
for students with and without special needs, and train teachers to 
create and use the assessments.
    Lead State: South Carolina
    Collaborators: American Association for the Advancement of Science, 
Austin (Texas) Independent School District, The Council of Chief State 
School Officers, District of Columbia Public Schools, Maryland, and 
North Carolina
    Grant amount: $1,719,821
    Summary: The project will help gather valid information about ELLs' 
academic knowledge and skills, and matching ELL students with the 
proper accommodations based on their testing needs.
    Lead State: Oklahoma
    Collaborators: Alabama, California, Delaware, Kansas, Louisiana, 
Massachusetts, Minnesota, New Jersey, North Carolina, Pennsylvania, 
South Carolina, Texas, Wyoming, West Virginia, and Wisconsin
    Grant amount: $1,442,453
    Summary: The project will work to expand and automate a process for 
judging the alignment of assessments with content standards, serve 
students with disabilities and help link assessments across grades. The 
alignment process system will be available on a CD-ROM that can be 
readily distributed to States to increase the use of the alignment tool 
in assessment development and verification.
    Lead State: Nevada
    Collaborators: Indiana, Iowa, Kentucky, Louisiana, Massachusetts, 
Michigan, Nebraska, New Jersey, New York, Ohio, Oklahoma, Oregon, South 
Carolina, Texas, and West Virginia
    Grant amount: $2,266,506
    Summary: The project will help States implement assessments to 
measure the annual growth of English language development in speaking, 
listening, reading and writing. The project will produce test forms and 
an item bank from which States can draw to create test forms that 
reflect local needs and characteristics, and will help States predict 
ELLs' readiness for English language assessment.
    Lead State: Pennsylvania
    Collaborators: Maryland, Michigan, and Tennessee
    Grant amount: $1,810,567
    Summary: This project is designed to help States assess ELLs by 
analyzing State standards, establishing content benchmarks and 
developing standards-based assessments drawn from scientific research. 
The resulting assessments are to be shared with interested States and 
districts.
    Lead State: Colorado
    Collaborators: Iowa, Oregon, Illinois, Missouri, South Carolina, 
West Virginia, and Wyoming
    Grant amount: $1,746,023
    Summary: The project will help improve alternative assessments for 
students with complex disabilities, and the assessment methods will be 
developed, pilot tested and analyzed during the course of this project.
    Lead State: Wisconsin
    Collaborators: Alaska, Delaware and Center for Applied Linguistics, 
Center for Equity and Excellence in Education, Second Language 
Acquisition, University of Wisconsin, and University of Illinois
    Grant amount: $2,338,169
    Summary: This project will develop and enhance assessment 
instruments specially designed to measure ELLs' performance and 
progress in English proficiency and literacy skills based on State 
standards on reading, writing and language arts and alternate 
assessments to measure their performance in other academic content 
areas.
    Lead State: Minnesota
    Collaborators: Nevada, North Carolina, and Wyoming
    Grant amount: $2,013,503
    Summary: This project will develop new tools to measure the 
progress of ELLs using technology to pilot language assessment, develop 
new methods to organize, collect and score student assessment data and 
combine data from multiple measures to improve the evaluation of 
student progress over time. Staff development will help teachers use 
assessment results to improve instruction and the methods will be 
available to other States.
              effectiveness of assessments being developed
    Question. Has the Department disseminated information about the 
best practices and innovative approaches to high-quality, appropriate 
assessment tools developed through this funding stream?
    Answer. The first awards under this program were made a little over 
a year ago, and it is too early to assess the effectiveness of the 
assessments that are under development by the various grantees.
                  statewide longitudinal data systems
    Question. Mr. Secretary, section 208(e) of Public Law 107-279 
requires you to ``make publicly available a report on the 
implementation and effectiveness of Federal, State, and local efforts 
related to the goals of this section, including--identifying and 
analyzing State practices regarding the development and use of 
statewide, longitudinal data systems . . .'' as well as other required 
elements, not later than one year after the enactment of the Education 
Technical Assistance Act of 2002. What is the status of this report?
    Answer. The Department currently is not preparing the specific 
report referenced in section 208(e), but has been pursuing similar 
efforts--including the analysis of existing State data systems, the 
identification of weaknesses, and highlighting best practices--as part 
of our Performance Based Data Management Initiative.
        statewide longitudinal data systems not required by nclb
    Question. Given the importance of high quality and timely student 
achievement data as relates to implementation of No Child Left Behind, 
don't you agree with the critical need to assess State systems and 
provide evidence of best practices with regard to such statewide 
systems?
    Answer. I agree that reliable student and school performance data 
are essential to reaching the goals of No Child Left Behind, and we are 
working with States and school districts on this issue through our 
Performance Based Data Management Initiative. This initiative is 
focused on the performance data required by No Child Left Behind, and 
will consolidate data collection from States, districts, and schools to 
both improve data quality and reduce paperwork burdens.
    However, the reporting requirements of No Child Left Behind are 
almost exclusively concerned with groups of students, rather than 
individual students. For this reason, although statewide longitudinal 
data systems may be very desirable as a tool to support educational 
reform, they are not required to successfully implement the No Child 
Left Behind Act.
    Moreover, most of the data that would be collected by such 
longitudinal systems--such as enrollment, annual assessment results for 
individual students, course completion, and SAT and ACT results--is 
required for State purposes and not for meeting Federal reporting 
requirements.
    For these reasons, while I applaud efforts to develop statewide 
longitudinal data systems, I believe such systems are primarily a State 
and local responsibility.
  education program funds that can be used for statewide longitudinal 
                          student data systems
    Question. How does the fiscal year 2005 budget request specifically 
support the goal of ensuring that States and school districts have the 
knowledge and resources to develop and implement such systems?
    Answer. As indicated previously, longitudinal student data systems 
are not required by the No Child Left Behind Act, and thus have not 
been targeted for specific support in our fiscal year 2005 budget 
request. States are free to use Title V, Part A State Grants for 
Innovative Programs for this purpose, as well as State Assessment Grant 
funding once they have implemented the full range of assessments 
required by No Child Left Behind. In addition, the Department is 
providing $10 million annually to support the integration of statewide 
data systems as part of our Performance Based Data Management 
Initiative.
    Question. Mr. Secretary, I am informed by the Pennsylvania 
Department of Education that it needs $12 million over 3 years to 
implement the required system in Pennsylvania and an additional $1 
million per year to maintain it. What Federal funding is available for 
the Commonwealth to develop the statewide data system required to 
support effective implementation of the No Child Left Behind Act?
    Answer. Again, while Pennsylvania deserves praise for undertaking 
the development of a statewide longitudinal student data system, such a 
system goes beyond the data-collection requirements of the No Child 
Left Behind Act. And since this system would primarily serve the needs 
of Pennsylvania's school districts and schools, finding $12 million 
over three years should not be overly daunting for a State that spends 
more than $16 billion annually on public elementary and secondary 
education.
    However, as I mentioned earlier, Pennsylvania could use Title V, 
Part A State Grants for Innovative Programs funding, as well as State 
Assessment Grant funding once it has implemented the assessments 
required by No Child Left Behind, to support the development and 
implementation of its statewide longitudinal student data system.
                           pell grant maximum
    Question. The President's fiscal year 2005 budget proposes to 
establish $4,050 for the Pell Grant maximum award, the same as fiscal 
year 2003 and fiscal year 2004. If adopted, this would mean three 
years, consecutive years at this maximum grant level. According to the 
College Board, tuition for 4-year private colleges has gone up more 
than 5 percent for the third year in a row; and for public 4-year 
universities, tuition has increased by more than 13 percent this year. 
I would also note that research has demonstrated that low-income 
students are not as successful in completing their postsecondary 
education because they often attend school part time, work long hours, 
and borrow heavily.
    Mr. Secretary, doesn't your proposal to maintain the current 
maximum Pell Grant at $4,050 for fiscal year 2005 mean that students 
served by the program will lose ground relative to the price of 
postsecondary education?
    Answer. We share your concern about the increasing cost of higher 
education. Our primary goal, however, must be to secure the financial 
stability of the Pell Grant program, the cornerstone of Federal student 
aid. Raising the maximum award without adequate funding would 
exacerbate the program's funding shortfall, currently estimated at $3.7 
billion by the end of award year 2004-05. The Administration's 2005 
budget would increase Pell Grant funding by over $800 million to fully 
fund the cost of maintaining the current $4,050 maximum award. The 
Administration is committed to working with Congress to eliminate the 
shortfall and place the program on a firm financial footing.
                         college enrollment gap
    Question. What other support is proposed in the President's budget 
to reverse the increasing college enrollment gap between low- and high-
income students?
    Answer. The Administration's Enhanced Pell Grants for State 
Scholars proposal is one way the President's budget addresses this 
issue. Research consistently shows students who complete a rigorous 
high school curriculum are more successful in pursuing and completing 
postsecondary education. The Administration's proposal will encourage 
additional States and their local governments to participate in the 
State Scholars program, encouraging low-income students to successfully 
complete these programs.
    The Administration also supports strong academic preparation for 
postsecondary education and training through the Federal TRIO and GEAR 
UP programs. The Administration is proposing in fiscal year 2005 to 
spend $1.13 billion dollars for these two programs. In addition, the 
Administration is doubling support for the Advanced Placement Program. 
Low-income students who participate in Advanced Placement programs, 
which give students the opportunity to take college-level courses in 
high school, are much more likely to enroll and be successful in 
college than their peers. These programs also serve as a mechanism for 
upgrading the entire high school curriculum for all students. The 
Administration is proposing a $28 million increase for the Advanced 
Placement program authorized in the No Child Left Behind Act, bringing 
spending on it to nearly $52 million a year.
             leveraging educational assistance partnerships
    Question. Why does the fiscal year 2005 budget propose to eliminate 
the $66.2 million in funding for the Leveraging Educational Assistance 
Partnerships program--which helps States establish and expand need-
based student aid programs--despite the fact that it is the only 
Federal program designed to expand the amount of need-based student aid 
provided by States?
    Answer. When the Leveraging Educational Assistance Partnerships 
(LEAP) program was first authorized as the SSIG program in 1972, 28 
States had undergraduate need-based grant programs. Today all but two 
States have need-based student grant programs. State grant levels have 
expanded greatly over the years, and most States significantly exceed 
the statutory matching requirements. For academic year 2002-2003, for 
example, estimated State matching funds totaled nearly $1 billion. This 
is more than $950 million over the level generated by a dollar-for-
dollar match, and far more than would be required even under the 2-for-
1 match under Special LEAP. This suggests a considerable level of State 
commitment, regardless of Federal expenditures.
                       pell grant cost estimates
    Question. The Administration has proposed a budget process reform 
that would change budget scoring with respect to the Pell Grant 
program. For the last three fiscal years, what was the difference 
between program costs (displayed by academic year) for the Pell Grant 
program as estimated in the President's Budget, and at the time of the 
Mid-Session Review?
    Answer. The requested information is shown in the following table.

----------------------------------------------------------------------------------------------------------------
                                                           Est. program cost  Est. program cost
          Fiscal year             Award year   Max award      President's        mid-session        Difference
                                                proposed         budget             review
----------------------------------------------------------------------------------------------------------------
2002...........................      2002-03       $3,850     $9,582,000,000     $9,531,000,000    ($51,000,000)
2003...........................      2003-04        4,000     10,863,000,000     11,442,000,000     579,000,000
2004...........................      2004-05        4,000     11,410,000,000     12,133,000,000     723,000,000
----------------------------------------------------------------------------------------------------------------

       mid-session review reestimates of pell grant program costs
    Question. For the same period, what were the differences between 
the assumptions used in the President's budget and those available at 
release of the Mid-Session Review?
    Answer. In general, the Administration revises its applicant growth 
assumptions for Mid-Session Review in June based on updated operational 
data, including actual information for the current academic year. For 
the last three years, the Administration adjusted its applicant growth 
assumptions for Mid-Session Review to account for unanticipated 
increases in Pell applicants, increasing estimated costs over the 
President's Budget level. Other technical assumptions used to estimate 
program cost--such as changes in Federal tax provisions, mandatory 
updates to the Need Methodology Tables, and proposals to verify 
applicants' income data with the IRS--were either revised or introduced 
during this update period. In addition, government-wide economic 
assumptions used for Mid-Session Review typically differed from those 
used in the President's Budget.
             accuracy of department's pell grant cost model
    Question. Has the Department ever accurately estimated the program 
cost of the Pell Grant program?
    Answer. Historically, the Department's Pell Grant cost model has 
been a reasonably accurate predictor of program costs. Over the last 10 
years (academic years 1994-95 through 2003-04), the model's estimates 
were within an average of 4.6 percent of actual costs. A review of 
annual data indicate the forecasting model is particularly reliable 
during times of economic stability and less so during other periods. 
Estimation in this area is particularly challenging due to the lead 
time necessary to produce the President's budget--up to two full years 
before the beginning of the funded academic year--and the economic 
changes occurring during that period.
    Question. What actions has the Department taken to improve its 
ability to more accurately forecast the cost of the Pell Grant program?
    Answer. Since one of the key components in forecasting the cost of 
the Pell Grant program is projecting applicant growth in future years, 
the Department is working to build better and more robust tools for 
forecasting applicant growth. Over the past three years, the Department 
has made ongoing improvements to its primary Pell Grant cost model by 
expanding the sample sizes of applicants and recipients, incorporating 
real-time disbursement data, and by auditing key technical parameters.
                 internal revenue service data matching
    Question. The Administration has again proposed to allow the IRS to 
match income tax return data against student aid applications, in order 
to reduce the number of erroneous student aid payments. According to 
the U.S. Department of Education, this proposal would save the Federal 
Government $50 million in erroneous payments during the 2005-2006 
academic year and substantially more in subsequent years. What is the 
status of efforts to enact authorizing legislation?
    Answer. We have worked closely with the Treasury Department and the 
Office of Management and Budget in developing this proposal. The 
Administration's unambiguous support is clearly shown in the August 9, 
2002, letter signed by Secretaries Paige and O'Neill and OMB Director 
Daniels transmitting the proposed legislation to the Congress.
    Recently Congressman Johnson introduced H.R. 3613 the ``Student Aid 
Streamlined Disclosure Act of 2003,'' which was referred to the 
Subcommittee on Oversight of the Ways and Means Committee. There is 
general support for the concept, and we are currently working to 
address specific operational concerns.
 steps taken to reduce erroneous federal student aid education payments
    Question. What other steps is the Department taking to reduce and 
eliminate erroneous Federal education payments?
    Answer. The Department has implemented a multi-year effort to 
research the causes of, and to suggest solutions to, incorrect student 
payments. We have substantially increased the number of student aid 
applications submitted using FAFSA on the Web. The online student aid 
application substantially reduces errors and improves services to 
students. The Department retargeted the verification selection criteria 
to focus on the Pell Grant program and is encouraging schools to verify 
all selected applicants. To ensure that verification occurs, the 
Department is conducting a series of community outreach sessions on 
student aid application verification processes. Finally, we have taken 
steps for improving the Department's compliance and monitoring 
techniques in the Federal Student Aid and Office of Postsecondary 
Education programs.
                new programs versus program eliminations
    Question. Mr. Secretary, in response to a question I submitted last 
year, you stated, ``the Administration believes it is more effective to 
deliver scarce Federal education resources to States and school 
districts through large, flexible formula grant programs rather than 
small, categorical grant programs mandating particular approaches to 
educational improvement.'' I agree with this general proposition. 
However, I note that you have proposed in the fiscal year 2005 budget, 
6 new programs that would provide separate funding through categorical 
grant programs that support a narrow purpose. At the same time, the 
fiscal year 2005 budget request proposes to eliminate 38 categorical 
grant programs funded at more than $1.4 billion last year, ranging from 
the Smaller Learning Communities program to Arts in Education, because 
your Department believes that in many instances these programs have a 
narrow or limited effect.
    Will you explain your rationale for requesting funds for new 
programs proposed in the fiscal year 2005 budget, which have a very 
narrow purpose, but not those you propose to eliminate because of their 
limited objectives?
    Answer. The Administration does not oppose all categorical grant 
programs, nor have we proposed to eliminate funding for all of them. We 
recognize that such programs often serve an important purpose, such as 
calling attention to unmet needs, stimulating innovation, or 
demonstrating specific educational strategies. What we have objected 
to, particularly in the current budget environment, is the continued 
funding of such programs long after they have achieved their 
objectives, when they duplicate other funded activities, or when it has 
become clear that the funded strategies are not an effective use of 
taxpayer funds.
    I believe our 2005 request is entirely consistent with this 
approach, as reflected in our budget documents, which clearly identify 
the rationale for a handful of new categorical programs while proposing 
to terminate separate funding for a much larger number of similar 
programs that have largely achieved their original purposes. I would 
add that, in most cases, these latter programs may be funded under 
broader, more flexible State grant authorities if desired by States and 
local school districts.
          center for civic education's we the people programs
    Question. Mr. Secretary, the fiscal year 2005 budget proposes 
funding for the Center for Civic Education's We the People (WTP) 
programs. These programs have been very effective through the years in 
providing students with the knowledge, skills, and attitudes they need 
to be effective citizens, and evaluations continue to testify to the 
success of these programs. Would you agree the WTP programs can be an 
antidote to the cynicism and apathy toward politics and government that 
persists among young people today?
    Answer. We agree that civic education programs can play a critical 
role in equipping young people with the knowledge and skills necessary 
for effective citizenship. Civic Education is a clear Administration 
priority. Although the Department has not conducted any evaluations of 
the Center for Civic Education's We the People programs, recent studies 
suggest that quality civic education programs may prompt students to 
understand, care about, and act on core citizenship values. Quality 
civic education programs can also help schools and communities maintain 
safe and inclusive learning environments that foster increased social 
responsibility and tolerance.
         increase for research, development, and dissemination
    Question. The fiscal year 2005 President's budget acknowledges the 
importance of evidence-based decision making in education, yet proposes 
to eliminate funding for many of the programs that provide this 
information to SEAs, LEAs and teachers themselves. On the one hand you 
ask for an increase in Research, Development and Dissemination. At the 
same time the fiscal year 2005 budget proposes to eliminate funding for 
the Regional Educational Labs, the Eisenhower Math and Science 
Clearinghouse and the Regional Technology in Education Consortia. Can 
you please comment on these proposals?
    Answer. The requested increase for Research, Development, and 
Dissemination is not an indication that the Administration proposes to 
shift funds from technical assistance to research. Instead, the 
Administration recognizes the fact that although the No Child Left 
Behind Act mentioned scientifically based research 111 times, there are 
significant gaps in our scientific knowledge in many of the areas in 
which Congress instructed that funding decisions and practice should 
adhere to scientifically based research, including math, science, 
school-wide reform models, early literacy programs in preschools, and 
professional development of teachers. Our request for increased funding 
would support rigorous research to give education practitioners the 
information they need to ground their decisions and practices in strong 
evidence of what works.
    In the conference report accompanying the Consolidated 
Appropriations Act of 2004, the conferees strongly urged the Department 
to hold a competition for the new comprehensive centers authorized 
under sections 203 and 205 of the Education Sciences Reform Act of 2002 
(ESRA). In the budget request for fiscal year 2005, the Administration 
requested funding under the School Improvement account to support a 
competition for the new comprehensive centers. The new comprehensive 
centers would provide much-needed training, technical assistance, and 
professional development in reading, mathematics, and technology to 
States, local educational agencies, and school in order to improve the 
academic progress of disadvantaged students, boost teacher quality, and 
improve English fluency among students with limited English 
proficiency.
    Under section 205 of the Educational Technical Assistance Act of 
2002, the Comprehensive Regional Assistance Centers, the Regional 
Technology in Education Consortia, and the Eisenhower Regional 
Mathematics and Science Consortia were only authorized to continue 
until the comprehensive centers authorized under section 203 are 
established. Since the Department plans to hold a competition for the 
new comprehensive centers in 2005, there would be no authority under 
which to request funds to continue awards to the existing technical 
assistance providers.
               regional educational laboratories program
    The Administration did not request funds for the Regional 
Educational Laboratories program because there is no evidence that the 
laboratories consistently provide quality research and development 
products or evidence-based training and technical assistance. Although 
the Education Sciences Reform Act of 2002 reauthorized the program, the 
current authority does not enable IES to ensure that all of the 
laboratories adhere to standards of scientific quality needed to 
produce evidence with which to inform decisions.
                           arts in education
    Question. The No Child Left Behind Act recognizes the arts as a 
core subject of learning. Studies show that the arts are proven to help 
close the achievement gap and improve essential academic skills. If 
arts have been proven to be essential to the learning process, why does 
the fiscal year 2005 budget propose to eliminate the arts in education 
program?
    Answer. The Administration's fiscal year 2005 budget eliminates 38 
small categorical programs that have narrow or limited effect, 
including the Arts in Education program, to help increase resources for 
high-priority programs. Districts seeking to implement arts education 
activities can use funds provided under other Federal programs. For 
example, districts can use the funds they receive through the State 
Grants for Innovative Programs to implement arts programs.
    In addition, under the Improving Teacher Quality State Grants 
program, districts may use their funds to implement professional 
development activities that improve the knowledge of teachers and 
principals in core academic subjects, including the arts. Also, 
districts are able to supplement the amount of funding they receive for 
these two programs by exercising their options under the 
transferability authority of the State and Local Transferability Act.
                21st century community learning centers
    Question. The fiscal year 2005 President's budget proposes to 
freeze funding for the 21st Century Community Learning Centers Program. 
This is a program that enjoys public and bi-partisan congressional 
support. These programs help working families, provide vital additional 
academic support to students and provide safe, supervised environments 
for kids after school. Is there a reason the Department's fiscal year 
2005 budget does not support expanding this program beyond its current 
funding level?
    Answer. The Administration is proposing to maintain strong support 
for the 21st Century Community Learning Centers program by requesting 
$999.1 million in the 2005 budget. The request recognizes that the 
program provides a significant opportunity to improve the quality of an 
estimated 1,800 after-school programs that the program is able to 
support. At the same time, we need to ensure that the weaknesses in the 
previous program are not carried into the State-administered program. 
Preliminary findings from the evaluation of the antecedent program show 
a need to focus the program on providing more academic content and 
developing a knowledge base about successful academic interventions.
    The request also recognizes that the new grantees funded by States 
need some time to achieve better outcomes for students, and that 
national evaluation and technical assistance activities can play a key 
role in successful implementation. The Department continues to provide 
technical assistance and intensive outreach to help grantees focus on 
program improvement. We also continue to fund rigorous evaluation 
activities that will yield program performance information and assist 
us in developing new interventions.
                    nclb transferability provisions
    Question. Under the State and Local Transferability Act enacted as 
part of the No Child Left Behind Act, States and local school districts 
are provided with additional flexibility to target certain Federal 
funds to Federal programs that most effectively address the unique 
needs of States and localities and to transfer Federal funds allocated 
to certain State grant activities to allocations for certain activities 
authorized under Title I. How did the Department consider this 
authority in making its fiscal year 2005 budget request?
    Answer. Our 2005 request maintains high levels of funding for the 
programs that are included in the transferability authority (Improving 
Teacher Quality State Grants, Educational Technology State Grants, 
State Grants for Innovative Programs, and Safe and Drug-Free Schools 
and Communities State Grants programs) to ensure that States and school 
districts have meaningful flexibility to use Federal funds to address 
their own priorities. In addition, the flexibility provided by the 
transferability provisions supported the Administration's proposals to 
reduce or eliminate funding for small categorical programs, since the 
transferability provisions make it easier for States or districts to 
identify alternate sources of funding for such programs, should they 
wish to continue them.
    Question. How will the authority be considered in assessing the 
relationship between Federal funding provided and the performance 
outcomes achieved with such funds?
    Answer. The Department plans to collect information, through 
program performance reports and a study of resource allocation, on the 
amount of funds transferred among programs under the transferability 
authority. As for the relationship between Federal funding and 
performance outcomes, we believe that it is often not possible to 
isolate the separate impact of many Federal programs on student 
outcomes, due to the fact that federal programs frequently seek to 
leverage broader State and local improvements in education programs. 
However, we will also continue to collect and report information on 
trends in student outcomes in order to assess the overall impact of 
Federal, State, and local reform efforts on student achievement.
    Question. How will this authority shape decisions on future budget 
requests for affected programs?
    Answer. The transferability authority supports the Administration's 
emphasis on rationalizing and consolidating the delivery of Federal 
education resources to give States and school districts maximum 
flexibility in using these resources to meet local needs, and to 
improve student achievement while reducing administrative, paperwork, 
and regulatory burdens. As with the 2005 budget request, I expect that 
we will work to maintain or increase funding for the flexible State 
grant programs included in the transferability authority, while 
reducing budget support for smaller categorical programs with limited 
impact and more complex administrative requirements.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
        report on writing by the national commission on writing
    Question. Mr. Secretary, many teachers in my State, and I know in 
other States, have benefited from the very economical professional 
development provided by the network of National Writing Project 
institutes. Every State is benefiting from the relatively small Federal 
investment in the National Writing Project. Many schools report data 
that shows measurable improvement in student success in writing who 
have been taught by writing project teachers. This is a program that 
I've worked for more than a dozen years, to keep authorized and keep 
funded.
    This past year, the College Board--this is the organization that 
administers the college entrance examinations with which we are all 
familiar, such as the SAT, established the National Commission on 
Writing. It concluded that, ``Writing today is not a frill for the few 
but an essential skill for the many.'' Further, it has added to the 
college entrance examination a writing section, and it proposes a 
concerted effort on retraining teachers in the teaching of writing, and 
doing so by increasing the Federal investment in the National Writing 
Project. I find this recommendation compelling. These were 
professionals, college presidents, and academicians from all over the 
country, who looked at the state of student writing and how it was 
being taught, and concluded that the best thing the Federal Government 
could do to make a positive contribution to improving this condition, 
is to increase the funding of the National Writing Project.
    Are you aware of the report of the National Commission on Writing?
    Answer. Yes, I am familiar with the National Commission on Writing 
report, and the important recommendations included in this document. I 
agree that writing is an essential learning skill, and that the ability 
to write is foundational to other learning areas.
    When considering recommendations made in this report, however, it 
is important to keep in mind that Richard Sterling, the National 
Writing Project's (NWP) Executive Director, chaired the project's 
advisory panel. There is no reliable evidence that the NWP is any more 
or less effective than other professional development activities. No 
impact evaluations of the NWP have been conducted to date. In recent 
years, the NWP has sponsored several evaluations of activities 
supported under their project. Unfortunately, neither evaluation 
approach employed by NWP was sufficiently rigorous to yield reliable 
information on the effectiveness of interventions supported through the 
program. For example, NWP claimed that the latter evaluation shows 
statistically significant gains from baseline to follow-up for 3rd and 
4th grade student participants; however, because the study failed to 
used control groups or carefully matched comparison groups, it is not 
possible to draw any reliable conclusions regarding impact on student 
learning in NWP classrooms relative to other classrooms where writing 
skills are taught.
                           arts in education
    Question. The grants that have been available under the Arts in 
Education program have provided nationally recognized school reform in 
my State through the Mississippi Arts Commission's Whole School 
Program. The Commission received one of the first grants available 
under this program and this has been successful as well as provided 
arts in schools that otherwise would have none. The benefit of arts 
education has been widely reported over the last several years, and I 
think we need to continue to allow schools to have a resource that goes 
beyond what States and local governments can supply. The Federal funds 
that go to States simply do not stretch far enough to allow arts 
education to be a priority in schools of high poverty. School 
representatives regularly thank me for my support, and in the same 
breath, ask for continued funding. This is a difficult situation, but 
one I hope we can resolve.
    Answer. While the Department plays a significant role in certain 
areas of education, all specific decisions about curricula and other 
program offerings are made at the State and local levels. Because it is 
my understanding that most decisions to reduce or eliminate music and 
art programs are driven by budget concerns, I believe there is little 
the Department can do in this area, given our relatively small and 
necessarily focused contribution to overall education spending. New 
flexibility provisions in the No Child Left Behind Act made it easier 
for States and districts to support music and arts programs with 
Federal dollars, but we recognize that there are many needs competing 
for these resources. I do believe that as States and districts make 
progress in meeting their proficiency goals for reading and math, they 
will devote additional attention and resources to other core subjects 
such as music and art.
            federal support for foreign language instruction
    Question. In the area of foreign language instruction, the evidence 
is that we need to be doing this beginning in elementary schools. It is 
my understanding that the small grant program we have to provide 
schools with support for this has many more times the applicants than 
it can approve. Most schools K-8 do not offer foreign language 
instruction, and in States where resources are overburdened, even high 
schools are not able to offer even common foreign languages such as 
Spanish or French. The point, Mr. Secretary, is that for these schools, 
the resource they need is direct access to a Federal grant program. 
These programs make a difference in whether or not certain subjects are 
taught, and whether or not students have the advantage of a competitive 
education.
    Answer. I share your view that, in general, foreign language 
instruction is important for students who will pursue careers in an 
increasingly multicultural world economy. However, both budget 
constraints and the limited Federal role in education dictate a focus 
on core priorities, and our core priority in elementary and secondary 
education lies in helping special populations, such as poor students 
and students with disabilities, to meet challenging State standards in 
reading, math, and science, as called for in the No Child Left Behind 
Act.
    I also think that the rebounding economy will permit greater State 
and local support for programs such as foreign language instruction--as 
well as art, music, and physical education--that suffered most during 
the recent recession. Finally, States and school districts may fund 
foreign language instruction under larger, more flexible Federal 
authorities like Title V State Grants for Innovative Programs.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                          single sex education
    Question. During passage of No Child Left Behind, we reached a bi-
partisan agreement on single-sex education. NCLB says that schools may 
provide single-sex programs as long as they are consistent with 
``applicable law,''--Title IX and the U.S. Constitution--and requires 
the Department of Education to provide guidance on that applicable law. 
The law does not direct the Department of Education to change the Title 
IX regulations. However, yesterday, you released new proposals to amend 
30-year-old Title IX regulations on single sex education.
    Current law allows single-sex programs when appropriate, but 
contains protections against sex discrimination. The proposed 
regulations would dispense with meaningful anti-discrimination 
protections and authorize schools to provide alternatives for girls 
that fall far short of equality. In the press release announcing this 
change, you even admit that research on students' performance in 
single-sex education programs is inconclusive.
    Shouldn't you be spending that funding and the efforts of the 
Department of Education on helping our States implement the No Child 
Left Behind Act to close the achievement gap instead of throwing out 
long-standing anti-discrimination laws, potentially broadening the 
achievement gap for our Nations' girls and boys?
    Answer. As required by the new law, we issued guidance on May 8, 
2002 on the Title IX requirements related to single-sex schools and 
classrooms. At the same time, the Department published a notice that 
the Secretary was planning to propose amendments to the existing Title 
IX regulations applicable to single-sex education.
    The No Child Left Behind Act brought a new emphasis on flexibility 
and choice in Federal education programs. Consistent with this 
emphasis, the proposed amendments to the Title IX regulations provide 
more flexibility to educators to establish single-sex schools and 
classrooms in elementary and secondary schools. Research indicates that 
single-sex programs may provide educational benefits to some students, 
and such programs also offer additional public school choice options to 
children and their families.
    The Department's proposed amendments continue to require school 
districts to afford substantially equal educational opportunities to 
both sexes when single-sex classes and schools are offered. Any effort 
to provide either sex with alternatives that are inferior to those 
provided the other sex would not be consistent with these amendments.
    In addition, the proposed amendments require school districts to 
ensure that single-sex classes do not rely on overly broad 
generalizations about the different talents or capacities of female and 
male students. While we acknowledge that there is a debate among 
researchers and educators regarding the effectiveness of single-sex 
education, we believe our proposal makes educational sense and protects 
both girls and boys from discrimination.
                     school choice and pell grants
    Question. The President's budget yet again includes funding for 
vouchers, which were rejected during passage of No Child Left Behind. 
The Bush budget includes $50 million for the Choice Incentive Fund and 
another $14 million for the DC voucher program, which the Senate never 
even voted on.
    How can you justify repeatedly abandoning public education by 
giving just 1,700 students $7,500 to attend schools that are 
unaccountable to students, their families, or the Department of 
Education and may not be providing a quality education, when you are 
not increasing Pell grants for millions of low-income students past 
$4,050 to attend accredited institutions of higher education? This is 
especially troubling when so many people are going back to school, 
particularly community colleges, for education and training to compete 
in this workforce.
    Answer. The President's request would increase Pell Grant funding 
by over $800 million, to a record $12.8 billion. The Administration 
believes there is no contradiction between this strong support for the 
Pell Grant program and our proposed modest funding for educational 
innovations that expand choice for the parents of elementary and 
secondary school students. Both proposals are fully consistent with the 
Department's mission and goals; in fact, vouchers and other choice 
options are an effort to bring to elementary and secondary education 
the same accountability mechanism supported by the Pell Grant program: 
allowing students to attend the school of their choice.
                      striving readers initiative
    Question. Your budget proposes $100 million for a new program--
Striving Readers--to help improve reading for middle and high school 
students. I support efforts to improve our high schools and additional 
resources for high schools, including through my Pathways for All 
Students to Succeed Act, which provides tools and resources to reform 
secondary education.
    Isn't it true that overall high schools will be net losers in 
funding? Your budget proposes to cut the Perkins Career and Technical 
Education program by $300 million, eliminate the $173 million Smaller 
Learning Communities program designed to provide more individualized 
attention to high school students, as well as eliminate the $34 school-
counseling program. That seems to result in a net loss to high school 
students of some $300-400 million. What is the rationale behind that?
    Answer. I don't believe that it is correct to say that our budget 
results in a net loss of support for high school students. The 
Administration has chosen to target scarce resources on programs such 
as the Title I Grants to Local Educational Agencies (LEAs) and Special 
Education Grants to States, programs that benefit high school as well 
as elementary school students, rather than fund small categorical grant 
programs with narrow effect, such as the Smaller Learning Communities 
and School Counseling programs. Our fiscal year 2005 request would 
provide for an increase of 52 percent for Title I Grants to LEAs and 75 
percent for Special Education State Grants since President Bush took 
office; these programs support our Nation's secondary school students 
as well as elementary students.
    In addition, our proposal to strengthen and modernize the Federal 
investment in vocational education will help States and communities 
improve the academic performance of high school students by supporting 
effective career pathway programs that promote rigorous academic 
curriculum and build a stronger bridge between high schools and 
postsecondary and workforce preparation. Further, rather than funding 
general expenses like equipment purchases and hiring of staff that have 
little direct impact on student learning as we do now, the proposed 
``Sec Tec'' program would target funds to partnerships between school 
districts and technical schools, community colleges, and other career 
pathways programs to ensure that students are being taught the academic 
and technical skills necessary for further education and training and 
success in the workforce.
                       funding for nclb programs
    Question. Your budget for NCLB provides only a 1.8 percent overall 
increase. After factoring in inflation and continued enrollment growth 
that increase would actually result in a cut in funding for schools. 
Further, instead of providing real funding for programs, including 
Title I and IDEA, you cut 38 programs and level fund many more.
    Since States and schools have been complaining that they need 
significant additional resources to meet the many requirements of NCLB, 
do you think a cut in funding in real terms is the right approach?
    Answer. Over the past decade, overall spending on elementary and 
secondary education in the United States has grown from $300 billion to 
just over $500 billion. Funding for the Elementary and Secondary 
Education Act has more than kept pace with this increase, nearly 
tripling from $8.5 billion to $24 billion over the same period. 
Moreover, these increases occurred in an environment of historically 
low inflation, resulting in very substantial increases in real terms. I 
believe these funding levels, along with the President's budget 
request, are more than sufficient to pay for the changes called for in 
the No Child Left Behind Act.

                          SUBCOMMITTEE RECESS

    Senator Specter. Thank you all very much. The subcommittee 
will stand in recess to reconvene at 9:30 a.m., Thursday, March 
25, in room SD-192. At that time we will hear testimony from 
the Honorable Tommy Thompson, Secretary, Department of Health 
and Human Services.
    [Whereupon, at 11:55 a.m., Thursday, March 4, the 
subcommittee was recessed, to reconvene at 9:30 a.m., Thursday, 
March 25.]

</pre></body></html>
